No. _________

In the Supreme Court of the United States
--------------------------------LONNY E. BALEY, ET AL.,
Petitioners,
v.
UNITED STATES, PACIFIC COAST
FEDERATION OF FISHERMEN’S ASSOCIATIONS,
Respondents.
--------------------------------On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Federal Circuit
--------------------------------PETITION FOR A WRIT OF CERTIORARI
APPENDIX – VOLUME 2
--------------------------------TIMOTHY S. BISHOP, ESQ.
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
tbishop@mayerbrown.com

PAUL S. SIMMONS, ESQ.
Counsel of Record
RICHARD S. DEITCHMAN, ESQ.
Somach Simmons & Dunn
500 Capital Mall, Suite 1000
Sacramento, CA 95814
(916) 449-7979
psimmons@somachlaw.com
rdeitchman@somachlaw.com

Counsel for Petitioners

i
APPENDIX TABLE OF CONTENTS
Page
VOLUME 2
Opinion, Federal Circuit (February 17, 2011) .... App. 269
Opinion, Supreme Court of the State of Oregon
(March 11, 2010) .......................................... App. 315
Opinion, Supreme Court of the State of Oregon
(January 29, 2009) ....................................... App. 383
Certification Order, Federal Circuit (July 16,
2008) ............................................................. App. 400
Opinion, Court of Federal Claims (August 31,
2005) ............................................................. App. 413
Statutes and Regulations:
Reclamation Act of 1902 – Section 8, 43 U.S.C.
§§ 372, 383 .................................................... App. 510
McCarren Amendment (Department of Justice
Appropriation Act, 1953), 43 U.S.C. § 666 ... App. 512
Oregon Revised Statutes (2019), Chapter
539 ................................................................ App. 514
Oregon Revised Statutes (2019), Chapter 540,
§§ 540.010, 540.045 ...................................... App. 547
Oregon Revised Statutes (2019), Chapter 540,
§ 540.210....................................................... App. 549

App. 269
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

2007-5115
-----------------------------------------------------------------------

Decided: February 17, 2011
-----------------------------------------------------------------------

KLAMATH IRRIGATION DISTRICT, TULELAKE
IRRIGATION DISTRICT, KLAMATH DRAINAGE
DISTRICT, POE VALLEY IMPROVEMENT
DISTRICT, SUNNYSIDE IRRIGATION
DISTRICT, KLAMATH BASIN IMPROVEMENT
DISTRICT, KLAMATH HILLS DISTRICT
IMPROVEMENT CO., MIDLAND DISTRICT
IMPROVEMENT CO., MALIN IRRIGATION
DISTRICT, ENTERPRISE IRRIGATION
DISTRICT, PINE GROVE IRRIGATION DISTRICT,
WESTSIDE IMPROVEMENT DISTRICT NO. 4,
SHASTA VIEW IRRIGATION DISTRICT,
VAN BRIMMER DITCH CO., FRED A. ROBISON,
ALBERT J. ROBISON, LONNY E. BALEY,
MARK R. TROTMAN, BALEY TROTMAN FARMS,
JAMES L. MOORE, CHERYL L. MOORE,
DANIEL G. CHIN, DELORIS D. CHIN,
WONG POTATOES, INC., MICHAEL J. BYRNE,
DANIEL W. BYRNE, AND BYRNE BROTHERS,
Plaintiffs-Appellants,
v.
UNITED STATES and PACIFIC COAST
FEDERATION OF FISHERMEN’S ASSOCIATIONS,
Defendants-Appellees.

App. 270
Appeal from the United States
Court of Federal Claims in 01-CV-591,
01-CV-5910 through 01-CV-59125,
Judge Francis M. Allegra
ROGER J. MARZULLA, Marzulla Law, of Washington,
DC, argued for plaintiffs-appellants. With him on the
brief was NANCIE G. MARZULLA. Of counsel was GREGORY
T. JAEGER.
KATHERINE J. BARTON, Attorney, Appellate Section,
Environment and Natural Resources Division, United
States Department of Justice, of Washington, DC, argued for all defendants-appellees. With her on the
brief for defendant-appellee United States were
RONALD J. TENPAS, Acting Assistant Attorney General,
and KATHRYN E. KOVACS, Attorney, of Washington, DC,
KRISTINE S. TARDIFF, Attorney, of Concord, New Hampshire, and STEPHEN M. MACFARLANE, Attorney, of Sacramento, California.
TODD D. TRUE, Earthjustice, of Seattle, Washington, for defendant-appellee Pacific Coast Federation
of Fishermen’s Associations. Of counsel was SHAUN A.
GOHO.

App. 271
WALTER R. ECHO-HAWK, Native American Rights
Fund, of Boulder, Colorado, for amicus curiae Klamath
Tribes. With him on the brief was THOMAS P. SCHLOSSER,
Morisset, Schlosser, Jozwiak & McGaw, of Seattle,
Washington, for amicus curiae Hoopa Valley Indian
Tribe.
JOHN ECHEVERRIA, Georgetown Environmental
Law & Policy Institute, of Washington, DC, for amicus
curiae Natural Resources Defense Council. With him
on the brief were HAMILTON CANDEE and KATHERINE S.
POOLE, Natural Resources Defense Council, of San
Francisco, California.
-----------------------------------------------------------------------

Before BRYSON, SCHALL, and GAJARSA, Circuit Judges.
Opinion for the court filed by Circuit Judge SCHALL.
Opinion concurring-in-part and concurring in the
judgment filed by Circuit Judge GAJARSA.
SCHALL, Circuit Judge.
Plaintiffs-Appellants (“plaintiffs”) are fourteen
water, drainage, and irrigation districts and thirteen
agricultural landowners in Oregon and California.1
Plaintiffs appeal the final judgment of the United
States Court of Federal Claims that, based on two separate summary judgment decisions, dismissed their
Fifth Amendment takings claims, their claims under
the Klamath River Basin Compact, Pub. L. No. 85-222,
71 Stat. 497 (1957) (the “Klamath Basin Compact” or
1

We sometimes refer to the plaintiff water, drainage, and
irrigation districts as the “districts.”

App. 272
the “Compact”), and their breach of contract claims.
See Klamath Irrigation Dist. v. United States, 67 Fed.
Cl. 504 (2005) (“Takings Decision”); Klamath Irrigation
Dist. v. United States, 75 Fed. Cl. 677 (2007) (“Contract
Decision”).
On July 16, 2008, we certified three questions relating to the takings and Compact claims to the Oregon Supreme Court. See Klamath Irrigation Dist. v.
United States, 532 F.3d 1376 (Fed. Cir. 2008) (“Certification Order”). The certification was pursuant to a procedure whereby unsettled questions of state law may
be certified to the Oregon Supreme Court. See Or. Rev.
Stat. §§ 28.200-28.255 (2010). Pending action by the
Oregon court, we withheld decision on all of plaintiffs’
claims. The Oregon Supreme Court accepted the case
for certification, Klamath Irrigation Dist. v. United
States, 202 P.3d 159 (Or. 2009), and on March 11, 2010,
the court rendered its decision, answering our certified
questions. See Klamath Irrigation Dist. v. United
States, 348 Or. 15, 227 P.3d 1145 (Or. 2010) (en banc)
(“Certification Decision”).
We now vacate the judgment of the Court of Federal Claims and remand the case to the court for further proceedings. On remand, the court is to (1)
consider the takings and Compact claims in light of the
Certification Decision; (2) determine whether, as far as
the breach of contract claims are concerned, the government can establish that, for purposes of its defense
based on the sovereign acts doctrine, contract performance was impossible; and (3) decide the breach of contract claims as appropriate.

App. 273
BACKGROUND
I.
Plaintiffs are users of water in the Klamath River
Basin. Located in southern Oregon and northern California, the Klamath River Basin is the drainage basin
of the Klamath River, the Lost River, and the Link
River, as well as various other rivers. Water flow from
Upper Klamath Lake in Oregon into the lower Klamath River is controlled by the Link River Dam. Upper
Klamath Lake has a shallow depth and limited water
capacity that fluctuates with wet and dry periods; thus,
downstream flow to lower portions of the Klamath
River and ultimately the Klamath River Basin is affected by droughts. See Takings Decision, 67 Fed. Cl. at
509-10.
The Klamath Irrigation Project (the “Klamath
Project” or the “Project”) is an irrigation project that
benefits primarily southern Oregon and portions of
northern California, including the Klamath River Basin. The Project has its origins in the Reclamation Act
of 1902, ch. 1093, 32 Stat. 388 (codified, as amended,
at 43 U.S.C. § 371 et seq.) (the “Reclamation Act”). The
Reclamation Act directed the Secretary of the Interior
to reclaim arid lands in certain western states through
irrigation projects. In 1905, Congress authorized the
development of the Klamath Project. See Act of February 9, 1905, ch. 567, 33 Stat. 714. Shortly thereafter,
the Oregon legislature passed its own reclamation legislation. Among other things, that legislation created a
procedure to assist the United States in appropriating

App. 274
water for the irrigation works contemplated by the
Reclamation Act. See Or. Gen. Laws, 1905, ch. 228, § 2
(the “1905 Act”) (repealed 1953); see also Or. Gen. Laws,
1905, ch. 5, §§ 1-2 (authorizing the United States to
both raise and lower the lakes associated with the Klamath River Basin and also to use the beds of those
lakes for water storage in connection with irrigation
projects).
The Klamath Project is managed and operated
by the Secretary of the Interior, through the United
States Bureau of Reclamation (the “Bureau”). The Project provides water to about 240,000 acres of irrigable
crop lands. It also provides water to several national
wildlife refuges in the Klamath River Basin, including
the Lower Klamath and Tule Lake National Wildlife
Refuges. Over the years, the Bureau has entered into
various types of contracts with water districts and individual water users who wish to receive deliveries of
Project water for irrigation purposes. In one way or another, each of the plaintiffs receives delivery of water
from the Klamath Project for irrigation purposes.
II.
In light of its dual purposes of serving agricultural
uses and providing for the needs of wildlife, the Klamath
Project is subject to the requirements of the Endangered Species Act. See Pub. L. No. 93-205, 87 Stat. 884
(1973) (codified, as amended, at 16 U.S.C. § 1531 et
seq.) (the “ESA”). In a 1999 Ninth Circuit decision,
the interests of Project water users were declared

App. 275
subservient to the ESA, the result being that, as necessary, the Bureau has a duty to control the operation
of the Link River Dam in order to satisfy the requirements of the ESA. See Klamath Water Users Protective
Ass’n v. Patterson, 204 F.3d 1206, 1213 (9th Cir. 1999)
(noting that the ESA was enacted to “halt and reverse
the trend toward species extinction, whatever the
cost.”) (emphasis added) (internal citations omitted),
amended by 203 F.3d 1175 (9th Cir. 2000).
Pursuant to the ESA, the Bureau has an obligation not to engage in any action that is likely to jeopardize the continued existence of an endangered or
threatened species or result in the destruction or adverse modification of the critical habitat of such a species. See 16 U.S.C. § 1536(a)(1). As a result, the Bureau
is required to perform biological assessments to determine the impact of the diversion of Klamath Project
water for irrigation purposes upon endangered and
threatened species and to adjust water delivery to minimize the impact upon the habitat of such species. See
16 U.S.C. § 1536(a)(2), (c)(1).
Shortly after the Ninth Circuit’s ruling in Patterson, several environmental organizations filed suit
against the Bureau in federal court for alleged failure
to comply with the ESA in preparing Klamath Project
operating plans. See Pac. Coast Fed’n of Fishermen’s
Ass’ns v. U.S. Bureau of Reclamation, 138 F. Supp. 2d
1228, 1238 (N.D. Cal. 2001). During the pendency of
that case, in the spring of 2001, severe drought conditions caused the Bureau to reevaluate its planned
water deliveries for the year 2001. Several federal

App. 276
agencies indicated that water levels in the Klamath
River Basin had become so low as to threaten the survival of certain endangered species, including the coho
salmon, the shortnose suckerfish, and the Lost River
suckerfish. See Takings Decision, 67 Fed. Cl. at 512-13.
In due course, the Bureau forwarded biological assessments of the Project’s proposed operations to the two
agencies authorized to issue final biological opinions
for those species; the National Marine Fisheries Service (for coho salmon) and the Fish and Wildlife Service (for suckerfish). The two agencies performed their
analyses and ultimately issued final biological opinions concluding that the Project’s proposed operations
for 2001 threatened the continued existence of the species in question. Id. at 513. As statutorily required,
both opinions presented alternatives to address the
threat to the three species. These alternatives included
reducing the water available for irrigation from Upper
Klamath Lake during 2001 when flows were below
certain levels. Id. (citing 16 U.S.C. § 1536(b)(3)(A)). In
addition, at this time, the Bureau was subject to a preliminary injunction order issued by the U.S. District
Court for the Northern District of California in the
Pacific Coast case. The order barred the delivery of
Klamath Project water for irrigation purposes when
water flow was below certain minimum levels, until the
Bureau complied with ESA consultation requirements.
See Pac. Coast Fed’n of Fishermen’s Ass’ns, 138
F. Supp. 2d at 1251.
On April 6, 2001, the Bureau issued a revised operating plan for the Klamath Project that terminated

App. 277
delivery of irrigation water for the year 2001. Takings
Decision, 67 Fed. Cl. at 513. As a result, the Bureau
ceased water deliveries from Upper Klamath Lake
from April through July of 2001, when it was able to
release some water to its users, including plaintiffs.
See Takings Decision, 67 Fed. Cl. at 513 n.10.
Following the Bureau’s cessation of irrigation water deliveries in April 2001, various Project users, including several of the plaintiffs in this case, filed a
breach of contract suit against the United States in
the U.S. District Court for the District of Oregon. See
Kandra v. United States, 145 F. Supp. 2d 1192, 1196
(D. Or. 2001). The suit was dismissed in October 2001
after the court denied the users’ motion for a preliminary injunction against the halting of water deliveries.
Id. at 1211.
III.
A
On October 11, 2001, plaintiffs brought this action
in the Court of Federal Claims. In their Second
Amended Complaint, which was filed on January 31,
2005 (“Complaint”), plaintiffs assert three claims
against the United States.2 First, they allege that,
2

Several organizations, including defendant-appellee Pacific
Coast Federation of Fishermen’s Associations (“PCFFA”), moved
for leave to intervene in the suit as a matter of right, based on
asserted interests relating to the allocation and ownership of
Klamath Project water. The court ruled that only PCFFA was entitled to intervene. See Klamath Irrigation Dist. v. United States,
64 Fed. Cl. 328, 331, 336 (2005).

App. 278
when the Bureau halted the delivery of water in 2001,
it took their water rights for public use without just
compensation, in violation of the Fifth Amendment to
the Constitution. Complaint, ¶¶ 32-33. Second, they allege that the Bureau’s action impaired their water
rights without just compensation, in violation of the
Klamath Basin Compact. Id. at ¶¶ 38-39. The Compact, which was entered into between Oregon and
California for the division of Klamath Project water,
received the consent of Congress. 71 Stat. at 497. It
states that “the United States shall not, without payment of just compensation, impair any rights to the use
of water for [domestic or irrigation purposes] within
the Upper Klamath River Basin.” Id. at 507. Lastly,
plaintiffs allege that, when the Bureau halted the delivery of water, its action breached water service contracts with the plaintiff districts. Complaint, ¶ 47.
Among other things, the individual plaintiffs in the
case claim rights as third-party beneficiaries of the
contracts between the Bureau and the districts. Id. at
¶ 46.
Several plaintiffs also asserted equitable or beneficial property interests in the use of Klamath Project
water through claims based on patent deeds and
claims based on state water permits.3 Five landowner
3

The United States issued patent deeds to individual water
users who filed an “Application for Permanent Water Right-Form
A” and an affidavit “attesting to the fact that [the user] had put
Klamath Project water to beneficial use.” Once an applicant met
these requirements, he or she was issued a patent deed conveying
land “together with the right to the use of water from the Klamath
Reclamation Project as an appurtenance” to the land. Takings

App. 279
plaintiffs—Fred A. Robison, Albert Robison, Mark
Trotman, Lonny Baley, and Baley Trotman Farms—
claim they were granted title to their land in “patent
deeds” and that once they filed applications for the
beneficial use of Klamath Project water, the deeds conveyed their land to them together with the right to the
use of water from the Klamath Reclamation Project as
an appurtenance to the land. See Takings Decision, 67
Fed. Cl. at 512. Two plaintiffs, the Klamath Drainage
District and the Klamath Hills District Improvement
Company, assert property interests based on water
permits issued by the State of Oregon. They claim that
the permits demonstrate ownership of a “vested and
determined” state law water right. Id.
Under Oregon’s Water Rights Act of 1909, Or. Rev.
Stat. §§ 539.005-240 (the “Water Rights Act”), once all
competing water rights claims are filed and entered
into state records, they are made subject to a final determination of rights through a statutory adjudication
process. See Or. Rev. Stat. §§ 539.240(8), 539.010-240.
Pertinent to this case, the Water Rights Act authorizes
the adjudication of federal and state law water rights
vesting prior to passage of the 1905 Act. Id. In 1976,
the Klamath Basin Adjudication (the “Adjudication”)
was initiated to determine water rights in the Klamath
Basin. On November 13, 2003, the Court of Federal
Claims ruled that plaintiffs were barred from asserting claims based on rights, titles, or interests that
Decision, 67 Fed. Cl. at 512. In addition, the State of Oregon
issued water rights permits to certain districts after the state repealed the 1905 Act in 1953. Id.

App. 280
could be subject to determination in the Adjudication,
which remains pending. See Takings Decision, 67 Fed.
Cl. at 514 (citing the court’s November 13, 2003 summary judgment order).
B
The Fifth Amendment to the United States Constitution proscribes the taking of private property “for
public use, without just compensation.” U.S. Const.
amend. V, cl. 4. When evaluating whether governmental action constitutes a taking, a court employs a twopart test. First, the court determines whether the
claimant has identified a cognizable Fifth Amendment
property interest that is asserted to be the subject of
the taking. Second, if the court concludes that a cognizable property interest exists, it determines whether
the government’s action amounted to a compensable
taking of that property interest. See, e.g., Palmyra Pac.
Seafoods, L.L.C. v. United States, 561 F.3d 1361, 1364
(Fed. Cir. 2009); Am. Pelagic Fishing Co., L.P. v. United
States, 379 F.3d 1363, 1372 (Fed. Cir. 2004); see also
Air Pegasus of D.C., Inc. v. United States, 424 F.3d 1206,
1212-13 (Fed. Cir. 2005).
In due course, the parties filed cross-motions for
summary judgment on the threshold question of
whether plaintiffs have property interests in Klamath
Project water rights cognizable under the Fifth
Amendment. In the Takings Decision, the Court of Federal Claims granted the government’s motion for summary judgment and held that plaintiffs had failed to

App. 281
assert cognizable property interests in Klamath Project water for purposes of their taking claims, their
Compact claims, or other asserted property rights. See
Takings Decision, 67 Fed. Cl. at 540.
In determining whether a party has asserted a
cognizable property interest for Fifth Amendment purposes, a court must look to “existing rules and understandings and background principles derived from an
independent source, such as state, federal, or common
law, [that] define the dimensions of the requisite property rights for purposes of establishing a cognizable
taking.” Air Pegasus, 424 F.3d at 1213 (internal quotations and citations omitted). In the Takings Decision,
the Court of Federal Claims rejected plaintiffs’ argument that the Reclamation Act created property interests for plaintiffs owning land appurtenant to Klamath
Project waters, holding that the statute and its legislative history clearly intended for state law to govern
plaintiffs’ asserted usufruct property rights, i.e., the
right to the use of the water that had been appropriated by the federal government. 67 Fed. Cl. at 516-519.
The court also rejected plaintiffs’ contention that Supreme Court cases recognizing usufructuary rights in
water sources created by Section 8 of the Reclamation
Act established property rights in Klamath Project water under federal law.4 The court noted that each of the
4

Section 8 of the Reclamation Act states that:
[N]othing in this Act shall be construed as affecting or intended to affect or to in any way interfere with the laws of any
State or Territory relating to the control, appropriation, use, or
distribution of water used in irrigation, or any vested right

App. 282
cases cited by plaintiffs applied the law of the relevant
state or states providing for such rights. Id. at 519-523,
discussing Ickes v. Fox, 300 U.S. 82, 94 n.3 (1937) (relying on contracts and a Washington statute); Nebraska
v. Wyoming, 325 U.S. 589, 612-15 (1945) (applying
Nebraska and Wyoming law); Nevada v. United States,
463 U.S. 110, 122, 126 (1983) (applying Nevada law).
The court ruled that Oregon law, therefore, was the
governing law for determining the existence of property rights in Klamath Project water. Id. at 523.
The Court of Federal Claims next considered
whether Oregon law established any property rights
for the plaintiffs, as users of Klamath Project water, as
against the United States. Focusing on the 1905 Act,
the court noted that the statute expressly provided the
procedure by which the United States could appropriate the waters deemed necessary for the Klamath Project. Once the United States had complied with all of
the statutory requirements for acquiring water rights,
the court reasoned, the 1905 Act vested the United
States with title to all the waters unappropriated as of
acquired thereunder, and the Secretary of the Interior, in carrying out the provisions of this Act, shall proceed in conformity with
such laws, and nothing herein shall in any way affect any right of
any State or of the Federal Government or of any landowner, appropriator, or user of water in, to, or from any interstate stream
or the water thereof: Provided, That the right to use of water acquired under the provisions of this Act shall be appurtenant to the
land irrigated, and beneficial use shall be the basis, the measure,
and the limit of the right.
32 Stat. 388, 390 (codified at 43 U.S.C. §§ 372, 383) (emphasis
added).

App. 283
the date of filing, and those waters could not be subject
to further appropriation or adverse claims except as
permitted by the United States. See id. at 523-25 (citing In re Waters of the Umatilla River, 88 Or. 376, 168
P. 922, 925 (Or. 1917) (under the 1905 legislation, the
filing of notice by the United States, upon compliance
with the various procedural strictures of the statute,
“vested the United States with title to all the then unappropriated water of the Umatilla River.”)). The court
acknowledged the Oregon legislation could not displace any water rights which had vested prior to the
acceptance by the United States of the provisions of
the statute, but found no evidence of such pre-1905
rights still existing. Thus, because the United States
had perfected its property rights by complying with
necessary procedural requirements, the court concluded that “pursuant to relevant Oregon law, in 1905,
the United States obtained rights to the unappropriated water of the Klamath Basin and associated tributaries.” Id. at 526.
The court recognized, however, that this conclusion did not answer the question whether any of the
individual plaintiffs held water rights that predated
the government’s 1905 notice appropriating water for
the Klamath Project—specifically, water rights that
were already appropriated as of the date of the government’s notice of appropriation. It also recognized that
it did not answer the question whether any of the individual plaintiffs held water rights that post-dated the
1905 notice that were obtained from the United States.
Id.

App. 284
Addressing first water rights that predated the
government’s 1905 appropriation notice, the Court of
Federal Claims noted that plaintiffs did not seriously
dispute that these water rights had been acquired by
the government and integrated into the Klamath Project. Id. The court also noted, however, the contention
that alleged pre-1905 rights of at least seven plaintiffs5
had been exchanged for a perpetual right to receive
water from the Project. In the court’s view, the record
revealed that these alleged exchanges had arisen from
a series of post-1905 contracts with the United States,
under which the government made various commitments regarding Project water. Id. at 527.
The court next considered whether, after 1905,
plaintiffs obtained any property rights in Klamath
Project water from the United States. The court classified the asserted interests into the following types:
rights based on contracts with the United States;
rights based on applications for beneficial use and patent deeds granted by the United States to individual
users; and rights based on state water permits (involving the Klamath Drainage District and the Klamath
Hills District Improvement Company). Id. at 530-31.
The court first determined that any rights obtained by
contract with the United States, including rights of individual users as third-party beneficiaries of district
contracts, were subject to contract, rather than takings, remedies. Id. at 532-35. In that regard, the court
5

The Van Brimmer Ditch Company, Michael J. Byrne, Daniel
W. Byrne, Daniel G. Chin, Deloris D. Chin, Cheryl M. Moore and
James L. Moore. See 67 Fed. Cl. at 526-27 n.38.

App. 285
noted that briefing on the contract issue had been
stayed and that the ultimate issue of whether the Bureau had breached the district contracts in question remained to be decided. Id. at 535.
The court next determined that any rights obtained contractually by patent deeds or state water
permits were junior in priority to the rights of the
United States in carrying out its Klamath Project duties. Id. at 538-39. The court reasoned that the United
States could not have taken rights to receive water
based on patent deeds and water permits with priority
dates after the 1905 appropriation by the United
States of water for the Project. This determination
rested on the prior appropriation doctrine and the Water Rights Act’s recognition of claims of water rights
according to the “first in time, first in right” rule.6
Id. at 539 (citing Or. Rev. Stat. §§ 537.120, 537.160,
537.250). Accordingly, the court concluded that any water rights of plaintiffs arising from patent deeds and
water permits were subservient to the prior interests
of the United States (as well as to those of various Native American tribes). Id. Finally, the court determined
6

Under the prior appropriation doctrine, a water rights
holder who appropriates water for beneficial use is granted priority for that use in times of shortage over other appropriators who
made later use of the water. See Takings Decision, 67 Fed. Cl. at
539 (citations omitted). The doctrine prioritizes water rights according to the “first in time, first in right” rule, where claims of
rights to the use of water are prioritized so that the senior-most
(i.e., oldest) rights holder is entitled to have his or her entitlement
fully satisfied before the next rights holder can appropriate water
for his or her needs. Id.

App. 286
that the Compact, as a contract between California
and Oregon to which the United States consented, did
not alter this analysis in any manner so as to impair
the rights of the United States “over and to the waters
of the Klamath River Basin.” Id. Having ruled that neither federal nor Oregon state law provided plaintiffs
with any property rights as against the United States
that were compensable under the Fifth Amendment or
the Compact, the court entered judgment in favor of
the United States on the takings and Compact claims.
Id. at 540.
Subsequently, in the Contract Decision, the court
turned to the unresolved matter of whether the United
States’ failure to deliver irrigation water in 2001
breached any of plaintiffs’ contract rights, asserted directly by the district plaintiffs and indirectly by the
landowning plaintiffs as beneficiaries of the district
plaintiffs’ contracts. The court emphasized that many
(though not all) of the contracts had provisions absolving or limiting the United States’ liability for Klamath
Project water shortages. 75 Fed. Cl. at 681-82. However, the court stated that it did not have to resolve the
bounds of the government’s exemption from liability on
that basis, because the “controlling issue” in the case
was whether the sovereign acts doctrine foreclosed
government liability as to plaintiffs’ breach of contract
claims. Id. at 682.
The court first noted that the sovereign acts doctrine immunizes the federal government for any and
all acts taken in its sovereign capacity, rather than
its capacity as a contractor. The court then rejected

App. 287
plaintiffs’ argument that the sovereign acts doctrine
did not apply because the Bureau was not compelled
“as a sovereign” by the ESA to diminish water deliveries in 2001. Id. at 683-85. The court reasoned that because the ESA was a general statute enacted for public
benefit, the United States could not be held liable for
an obstruction to its performance as a contractor that
resulted from its public and general acts of compliance
as a sovereign. Id. at 683-84 (citing Horowitz v. United
States, 267 U.S. 458, 461 (1925)).
The court noted that compliance with the ESA was
mandatory upon the government and that the Bureau
modified the Klamath Project operating plan in 2001
in order to protect the endangered species of fish, not
to provide an excuse for decreasing the amount of water provided to plaintiffs in its role as government contractor. Id. at 684-85. On this basis, the court deemed
the government was immunized from liability for
breach of contract based on sovereign acts that impacted its “subservient” performance of the water contracts at issue. Id. at 686-87.
In addition, the court rejected plaintiffs’ argument
that, even if the sovereign acts doctrine did apply, it did
not excuse the government’s breach of the water supply contracts because the government had failed to
show the contract was impossible to perform. The court
acknowledged that, in United States v. Winstar Corp.,
518 U.S. 839 (1996), four justices deemed impossibility
of performance a requirement of a sovereign act defense. The court reasoned, however, that the Court’s
non-majority opinion was not binding. See Contract

App. 288
Decision, 75 Fed. Cl. at 691. Accordingly, the court concluded that the common law doctrine of impossibility
of performance is not a component of the sovereign acts
doctrine and that the latter doctrine therefore provided a complete defense to plaintiffs’ breach of contract claims. Id. at 695.
Based on the Takings Decision and the Contract
Decision, the Court of Federal Claims entered judgment in favor of the United States and dismissed the
Complaint. Plaintiffs timely appealed. We have jurisdiction pursuant to 28 U.S.C. § 1295(a)(3).
IV.
Following briefing and oral argument, we concluded that Oregon property law was pertinent to the
question of whether plaintiffs possessed property
rights in Klamath Project water. We therefore certified
three questions to the Oregon Supreme Court. See
Certification Order. Pending action by the Oregon Supreme Court, we withheld decision on the takings,
Compact, and breach of contract claims.
Our first certified question asked whether, assuming that Klamath Project water was deemed appropriated by the United States pursuant to the 1905 Act,
the statute precluded irrigation districts from acquiring a beneficial or equitable property interest in the
water right acquired by the United States. Id. at 137778. The second question asked whether, in light of the
1905 Act, landowners who receive and put to beneficial
use Klamath Project water have a beneficial or

App. 289
equitable property interest appurtenant to their land
in the water right acquired by the United States, and
whether district plaintiffs who receive Project water
have a beneficial or equitable property interest in the
water right acquired by the United States. Id. at 1378.
The third question asked, with respect to surface
rights where appropriation was initiated under Oregon law prior to February 24, 1909, and where such
rights were not within any previously adjudicated area
of the Klamath Basin, whether Oregon law recognizes
any property interest, whether legal or equitable, in
the use of Project water that is not subject to the Adjudication.7 Id.
The Oregon Supreme Court accepted the case for
certification, and on March 11, 2010, the court rendered
its decision in response to the Certification Order. See
Certification Decision. The Certification Decision was
filed with this court on March 22, 2010.
The Oregon Supreme Court answered our three
questions as follows:
1. The 1905 [Act] did not preclude plaintiffs
from acquiring an equitable or beneficial
property interest in a water right to which the
United States holds legal title. Moreover, under the 1905 [A]ct, a formal written release
from the United States is not necessary for
7

Under the Water Rights Act, all water rights “that had
vested prior to 1909, but had never been subject to a judicial determination” were “left intact as ‘undetermined vested rights.’ ”
United States v. Oregon, 44 F.3d 758, 764 (9th Cir. 1994) (quoting
Or. Rev. Stat. § 536.007(11)).

App. 290
plaintiffs to have acquired an equitable or
beneficial property interest in the water right
that the United States appropriated.
2. Under Oregon law, whether plaintiffs acquired an equitable or beneficial property interest in the water right turns on three
factors: whether plaintiffs put the water to
beneficial use with the result that it became
appurtenant to their land, whether the
United States acquired the water right for
plaintiffs’ use and benefit, and, if it did,
whether the contractual agreements between
the United States and plaintiffs somehow
have altered that relationship. In this case,
the first two factors suggest that plaintiffs acquired a beneficial or equitable property interest in the water right to which the United
States claims legal title, but we cannot provide a definitive answer to the court’s second
question because all the agreements between
the parties are not before us.
3. To the extent that plaintiffs assert only an
equitable or beneficial property interest in the
water right to which the United States claims
legal title in the [A]djudication, plaintiffs are
not “claimants” who must appear in that adjudication or lose the right. As a general rule,
equitable or beneficial property interests in a
water right to which someone else claims legal
title are not subject to determination in a
state water rights adjudication.
See Certification Decision, 227 P.3d at 1169.

App. 291
By letter dated April 5, 2010, we asked the parties
to “advise the court as to how they think the court
should proceed in this matter in view of the Oregon
Supreme Court’s decision.” See Letter from Jan Horbaly, Clerk of the Court, in Case No. 2007-5115, Docket
No. 100. The parties have now submitted responsive
briefs and presented oral argument on that question.
DISCUSSION
I.
A
Plaintiffs argue that the Certification Decision
compels reversal of the Takings Decision. Plaintiffs
contend that, in light of the Oregon Supreme Court’s
answers to our questions, it is clear that the Takings
Decision is based on two erroneous rulings: (1) that
plaintiffs lacked beneficial or equitable property interests under Oregon law; and (2) that the 1905 Act precluded plaintiffs from acquiring equitable or beneficial
property interests in Klamath Project water rights. See
Appellants’ Suppl. Br. at 2. Turning to the Oregon Supreme Court’s statement in answering certified question 2 that it lacked all the information (i.e., record of
contracts) from which it could determine if plaintiffs
had contractually given away any of their water rights,
plaintiffs state that “there is absolutely no evidence in
the record that the individual water users contractually bargained away or relinquished their vested water
rights to the United States—and substantial evidence
that they did not, not the least of which is the fact that

App. 292
none of the named individual Klamath Irrigators has
a contract with the Government.” Id. at 2-3.
Finally, plaintiffs urge that the Oregon Supreme
Court’s answer to our third certified question compels
the conclusion that the beneficial or equitable rights at
issue in this case are not involved in the Adjudication.
The significance of this point is that plaintiffs who
have filed claims in the Adjudication have agreed to
proceed in the Court of Federal Claims litigation on the
understanding that they are barred by the court’s November 13, 2003 order from making any claims or
seeking any relief based on rights, titles, or interests
that are, or may be, subject to determination in the
Adjudication. See Takings Decision, 67 Fed. Cl. at 514.
For its part, the United States contends that, in
the wake of the Certification Decision, we should affirm
the Takings Decision. The government takes this position based on its assessment of the Oregon Supreme
Court’s analytical approach to our second certified
question. Addressing that question, the court stated:
As we understand the second question, it asks
whether beneficial use alone is sufficient to
acquire a beneficial or equitable property interest in a water right to which another person holds legal title. The answer to that
question, as we have restated it, is “no.” Beneficial use is a necessary but not a sufficient
condition to acquire a beneficial or equitable
property interest in a water right.

App. 293
Certification Decision, 227 P.3d at 1160. From there,
the court went on to state the two additional factors
that must be considered in determining whether plaintiffs acquired a beneficial or equitable property interest in the water rights at issue. Those factors are
“whether the United States acquired the water right
for plaintiffs’ use and benefit, and, if it did, whether the
contractual agreements between the United States
and plaintiffs somehow have altered that relationship.” Id. at 1169.
The government argues that, by restating the second question and then answering it in the negative, the
Oregon Supreme Court rejected the arguments made
by plaintiffs on appeal. See United States Appellee’s
Suppl. Br. at 10-11. Although the government recognizes that the court spelled out the two additional factors under Oregon law that must be considered in
determining whether a beneficial or equitable property
interest has been acquired, it takes the position that
the Oregon Court’s three-factor test embodies a new
legal theory that has not heretofore been argued by
plaintiffs. Id. at 11. As we understand it, the government’s position is that, up to now, plaintiffs have not
argued they possess equitable rights to Klamath Project water based upon the operation of state law (the
Oregon Supreme Court’s three-factor test), but, rather,
that they possess such rights by virtue of a uniform,
federally-established rule that is not dependent on or
limited by their contracts with the United States. Id.
at 8, 11. For this reason, the government urges that
plaintiffs have “waived any claim to property rights

App. 294
based on the Oregon court’s three-factor analysis.” Id.
at 11. The government states that a remand by this
court to the Court of Federal Claims for consideration
of the three-factor test would be inappropriate because
the test rests on a theory that is “fundamentally different” from the one heretofore advanced by plaintiffs. Id.
at 14-15.
In the alternative, the government argues that we
should remand to the Court of Federal Claims for a determination of whether, under the Oregon Supreme
Court’s three-factor test, any of the plaintiffs has a
compensable property interest in Klamath Project water rights. Id. at 17-21. The government states, however, that even if we generally remand the takings and
Compact claims, we should nonetheless affirm the
judgment with respect to plaintiff Van Brimmer Ditch
Company’s takings claim, and plaintiffs’ takings
claims based upon patent deeds and state water permits. Id. at 21-22. According to the government, the
Van Brimmer Ditch Company’s claim is identical to the
claim it has presented for determination in the Adjudication and is therefore barred from this case by the
Court of Federal Claims’ November 13, 2003 order. Id.
at 21. Turning to claims based on patent deeds and
the claims of the Klamath Drainage District and the
Klamath Hills District Improvement Company based
on state water permits, the government contends that
plaintiffs have not challenged the Takings Decision
with respect to those claims. Id. at 22.

App. 295
B
In our view, the Oregon Supreme Court’s answers
to our three certified questions compel further proceedings. The court’s first answer makes clear that the district plaintiffs are not precluded, under Oregon’s 1905
Act, from acquiring a beneficial or equitable property
interest in Klamath Project water that was appropriated by the United States under that statute. See Certification Decision, 227 P.3d at 1157-60. The Oregon
Supreme Court stated: “[W]e find nothing in the text
and context of the 1905 [Act] that would preclude
plaintiffs from acquiring a beneficial or equitable property interest in the water right appropriated by the
United States.” Id. at 1160.
The Oregon Supreme Court did not answer our
second question in yes-or-no terms. Instead, it restated
the question and responded “no” to whether beneficial
use alone is sufficient to acquire a beneficial or equitable property interest in a water right to which another
person holds legal title. The court explained why, under
Oregon law, district plaintiffs who receive Klamath
Project water and individual plaintiffs who have put to
beneficial use Project water appurtenant to their land
do not, on that basis alone, have a beneficial or equitable property interest in the water. The court stated:
“Beneficial use is a necessary but not a sufficient condition to acquire a beneficial or equitable property interest in a water right.” Id. at 1160.
Explaining its answer, the court began by noting
that Oregon law has long recognized the distinction

App. 296
between equitable title and legal title to property, with
the result that one party may hold legal title to a water
right while another holds equitable title. Id. at 1161
(citing Fort Vannoy Irrigation Dist. v. Water Res.
Comm’n, 345 Or. 56, 86, 188 P.3d 277, 295 (2008) (irrigation district holds legal title to a water right as
trustee while its members hold equitable title as beneficiaries); In re Waters of Willow Creek, 119 Or. 155,
195, 199, 236 P. 487, 500 (1925) (corporation held appropriated water right in trust for use and benefit of
shareholders who put the water to beneficial use)). The
court reasoned that beneficial use alone does not always give the user a property interest in a water right
appropriated by another, however. Citing In re Waters
of Walla Walla River, 141 Or. 492, 497-98, 16 P.2d 939,
941 (1933), it stated that two other factors, in addition
to beneficial use, must be considered in determining
whether a beneficial or equitable property interest exists: the relationship between the parties as well as
any contractual relationships between them. See Certification Decision, 227 P.3d at 1162. The court pointed
to the United States Supreme Court’s consideration of
the three factors in Nevada v. United States, where the
Court stated: “[T]he beneficial interest in the rights
confirmed to the Government resided in the owners of
the land within the Project to which these water rights
became appurtenant upon the application of Project
water to the land. As in Ickes v. Fox and Nebraska v.
Wyoming, the law of the relevant State and the contracts entered into by the landowners and the United
States make this point very clear.” 463 U.S. at 126.

App. 297
Having found the Nevada Court’s analysis “both
persuasive and consistent with Oregon law,” the Oregon Supreme Court adopted the three-factor test in
this case. See Certification Decision, 227 P.3d at 1163.
Applying that test, the court concluded that, as a
matter of Oregon law, (1) plaintiffs who have taken
Klamath Project water, applied it to their land, and put
it to beneficial use have acquired a water right appurtenant to their land, id. at 1163; and (2) the relationship between the United States, as appropriator of the
Klamath Project water, and plaintiffs as water users is
similar to that of a trustee and beneficiary, id. at 116465. As for the last factor, the contractual relationships
between the United States and plaintiffs, the court
stated that whether the parties entered into agreements that “clarified, redefined, or even altered” the
aforementioned trustee-beneficiary relationship “requires a full consideration of the agreements between
plaintiffs and the United States.” Id. at 1165. Because
it did not have the pertinent contracts before it, the
court stated that it was not in a position to undertake
that analysis. Id. at 1165-66.
We do not agree that plaintiffs are barred from
proceeding under the three-factor test articulated by
the Oregon Supreme Court. We have reviewed plaintiffs’ July 16, 2007 brief in this court (“Blue Brief ”), the
government’s October 25, 2007 brief in response (“Red
Brief ”), and plaintiffs’ November 13, 2007 reply brief
(“Grey Brief ”). Based upon that review, we have no
difficulty concluding that plaintiffs have consistently
argued that the beneficial/equitable rights to project

App. 298
water which they claim arose by operation of state law.
See Blue Brief at 24-43, Red Brief at 32-42, Grey Brief
at 5-9.8 Moreover, in response to our certified question
2, the Oregon Supreme Court has told us what the pertinent law of Oregon is. The case should now proceed
under the Oregon Court’s three-factor test for determining whether plaintiffs hold beneficial or equitable
property interests in Klamath Project water.9
Finally, the court’s answer to our third question
makes clear that plaintiffs may assert, under Oregon
law, beneficial or equitable property interests in Klamath Project water to which the United States claims
legal title; plaintiffs need not pursue those claims in
the Adjudication. Certification Decision, 227 P.3d at
1166-68. The Oregon Supreme Court stated: “The answer to the Federal Circuit’s third question is ‘yes.’ A
person asserting only a beneficial or equitable property
interest in a water right is not a ‘claimant’ who must
8

The beneficial or equitable water rights at issue in this case
are in the nature of usufructuary rights. Such a right is chiefly a
right of use, not a right of possession or other right associated
with land ownership, and has been acknowledged as a cognizable
property interest. Dugan v. Rank, 372 U.S. 609, 625-26 (1963);
Washoe County, Nevada v. United States, 319 F.3d 1320, 1322
(Fed. Cir. 2003) (“Although a water right is property subject to
constitutional protection, it is usufructuary in nature, meaning
that it is a ‘right to use’ water in conformance with applicable laws
and regulations.”)
9
We do not agree with the government that plaintiffs have
not challenged the Takings Decision insofar as it relates to claims
based on patent deeds and the claims of the Klamath Drainage
District and the Klamath Hills District Improvement Company
based on state water rights. See Blue Brief at 43-45; Grey Brief at
22-23.

App. 299
appear in the Klamath Basin adjudication and file a
claim to determine that interest.” Id. at 1166. Accordingly, because Oregon law does not preclude plaintiffs
from acquiring a beneficial or equitable interest in Project water rights held by the United States, and because plaintiffs’ claims thereto need not be determined
in the Adjudication, they should be considered in this
case.10
In sum, we remand plaintiffs’ takings and Compact
claims for (1) determination, based on the Certification
Decision, on a case-by-case basis, of any outstanding
property interest questions; and (2) determination on
the merits, on a case-by-case basis, of all surviving
takings and Compact claims. On remand, the Court of
Federal Claims should proceed as follows: First, it
should determine, for purposes of plaintiffs’ takings
and Compact claims, whether plaintiffs have asserted
cognizable property interests. In making that determination, the court should direct its attention to the third
part of the three-part test set forth by the Oregon Supreme Court in response to our certified question 2.
That is because it is not disputed that, in this case, the
first two parts of the three-part test have been met.
Specifically, the parties do not dispute that plaintiffs
have put Klamath Project water to beneficial use and
that the United States acquired the pertinent water
rights for plaintiffs’ use and benefit. As far as the third
10

We leave it to the Court of Federal Claims to determine, in
the first instance, whether the claim of the Van Brimmer Ditch
Company is not properly before the court because it is identical to
the claim the company has presented in the Adjudication.

App. 300
part of the three-part test is concerned, the court
should address whether contractual agreements between plaintiffs and the government have clarified, redefined, or altered the foregoing beneficial relationship
so as to deprive plaintiffs of cognizable property interests for purposes of their takings and Compact claims.
In that regard, as seen, plaintiffs assert that there are
no such contracts.11 On remand, the Court of Federal
Claims should give the government the opportunity to
demonstrate how plaintiffs’ beneficial/equitable rights
to the use of Klamath Project water have been clarified, redefined, or altered. In that context, it will be the
government’s burden to demonstrate with specificity
how the beneficial/equitable rights of one or more
plaintiffs have been clarified, redefined, or altered.12
After the government has come forward with its
11

At oral argument on November 18, 2010, the government
acknowledged that there are no contracts that serve as a complete
surrender of plaintiffs’ rights.
12
It is plaintiffs’ burden to establish cognizable property interests for purposes of their takings and Compact claims. Air
Pegasus, 424 F.3d at 1212-13; American Pelagic Fishing Co., 379
F.3d at 1372. In that regard, with respect to the third part of the
Oregon Supreme Court’s answer to certified question 2, plaintiffs
assert there are no contracts which have clarified, redefined, or
altered their property rights. On remand, if the government contends that there are such contracts, it will have the burden of
coming forward with appropriate evidence. See Nat’l Commc’ns
Ass’n, Inc. v. AT & T Corp., 238 F.3d 124, 129-31 (2d Cir. 2001)
(“[A]ll else again being equal, courts should avoid requiring a
party to shoulder the more difficult task of proving a negative.
‘The general rule is that the party that asserts the affirmative of
an issue has the burden of proving the facts essential to its
claim.’ ”) (quoting Auburndale State Bank v. Dairy Farm Leasing
Corp., 890 F.2d 888, 893 (7th Cir. 1989)).

App. 301
showing, plaintiffs will have the opportunity to respond. To the extent the Court of Federal Claims determines that one or more plaintiffs have asserted
cognizable property interests, it then should determine
whether, as far as the takings and Compact claims are
concerned, those interests were taken or impaired.
That determination will turn on existing takings law.13
II.
A
Turning to the breach of contract claims, plaintiffs
contend that the Court of Federal Claims erred in not
holding impossibility of performance a threshold requirement the government must meet when asserting
the sovereign acts defense. Although plaintiffs acknowledge that the Supreme Court’s Winstar plurality opinion commanded the votes of only four Justices on the
impossibility of performance issue, they argue that, in
Carabetta Enterprises, Inc. v. United States, 482 F.3d
1360 (Fed. Cir. 2007), we relied upon the Winstar plurality holding. Plaintiffs argue that the government
should not be absolved from liability based on the sovereign acts doctrine for breach of contract without first
proving impossibility of performance, which it contends the government failed to do in this case. See
Appellants’ Br. at 49-52.

13

On remand, counsel for plaintiffs should confirm which
plaintiffs are asserting takings and Compact claims and which
plaintiffs are asserting breach of contract claims.

App. 302
Responding, the government argues that the
Court of Federal Claims correctly held that the sovereign acts doctrine provides a complete defense to plaintiffs’ breach of contract claims. In the government’s
view, the “ESA compelled the Bureau to reduce irrigation deliveries in 2001.” Contract Decision, 75 Fed. Cl.
at 686.
B
The sovereign acts doctrine is designed to balance
“the government’s need for freedom to legislate with its
obligation to honor its contracts.” Winstar, 518 U.S. at
895-96. Under the doctrine, “the United States when
sued as a contractor cannot be held liable for an obstruction to the performance of the particular contract
resulting from its public and general acts as a sovereign.” Yankee Atomic Elec. Co. v. United States, 112 F.3d
1569, 1574 (Fed. Cir. 1997) (quoting Horowitz v. United
States, 267 U.S. 458, 461 (1925)). The government is
not liable for breach of contract whenever it takes any
generally applicable action in its sovereign capacity
that incidentally frustrates performance of a contract
to which it is a party. Horowitz, 267 U.S. at 461. Discussing the sovereign acts doctrine in Winstar, Justice
Souter, joined by Justices Stevens, O’Connor, and
Breyer, stated:
As Horowitz makes clear, that defense simply
relieves the Government as contractor from
the traditional blanket rule that a contracting
party may not obtain discharge if its own act

App. 303
rendered performance impossible. But even
if the Government stands in the place of a
private party with respect to “public and general” sovereign acts, it does not follow that
discharge will always be available, for the
common-law doctrine of impossibility imposes
additional requirements before a party may
avoid liability for breach.
518 U.S. at 904.
We have stated that “[a]lthough the portion of the
principal [Winstar] opinion addressed to the sovereign
acts doctrine had the support of only four (and as to
some portions, only three) justices, this court has
treated that opinion as setting forth the core principles
underlying the sovereign acts doctrine.” Conner Bros.
Const. Co., Inc. v. Geren, 550 F.3d 1368, 1374 (Fed. Cir.
2008) (citing Carabetta, 482 F.3d at 1365; Yankee
Atomic, 112 F.3d at 1574-77). Relevant to this case, in
Carabetta, we stated that even if the sovereign acts
defense applies, “it does not follow that discharge will
always be available, for the common-law doctrine of
impossibility imposes additional requirements before
a party may avoid liability for breach.” 482 F.3d at 1365
(quoting Winstar, 518 U.S. at 904). See also, Seaboard
Lumber Co. v. United States, 308 F.3d 1283, 1294 (Fed.
Cir. 2002) (stating that contract performance by the
government is excused under the sovereign acts defense when “it is objectively impossible”). We reaffirmed this requirement in Casitas Municipal Water
District v. United States, 543 F.3d 1276, 1287 (Fed. Cir.
2008), stating that “performance by the government is

App. 304
excused under the sovereign acts defense only when
the sovereign act renders the government’s performance impossible.”
The sovereign acts defense involves the following
two-part test:
[F]irst [we ask] whether the sovereign act is
properly attributable to the Government as
contractor. That is, is the act simply one designed to relieve the Government of its contract duties, or is it a genuinely public and
general act that only incidentally falls upon
the contract? If the answer is that the act is a
genuine public and general act, the second
part of the test asks whether that act would
otherwise release the Government from liability under ordinary principles of contract law.
This second question turns on what is known
in contract law as the impossibility (sometimes impracticability) defense.
Stockton East Water Dist. v. United States, 583 F.3d
1344, 1366 (Fed. Cir. 2009) (internal quotations and
citations omitted).
Turning to the first question, we agree with the
Court of Federal Claims that, in this case, the Bureau’s
halting of water deliveries in response to the biological
assessments of the National Marine Fisheries Service
and the Fish and Wildlife Service constituted a genuine public and general act that only incidentally fell
upon the contracts at issue. We concluded in Casitas
that “the [agency’s biological] opinion and the decision
of the [Bureau] to adopt the [biological] opinion are

App. 305
sovereign acts.” 543 F.3d at 1288. In reaching that conclusion, we rejected the argument that narrowly cabined a public and general sovereign act to only the ESA
itself, holding instead that both the agency’s issuance
of a formal biological opinion and the Bureau’s decision
to adopt that opinion are governmental actions that
are “sovereign in character [so that] the sovereign acts
doctrine may be invoked.” Id. at 1287-88. We therefore
find no error in the Court of Federal Claims’ ruling that
the Bureau’s withholding of water releases in 2001 was
a public and general act.
However, the Court of Federal Claims failed to undertake the second part of the sovereign acts doctrine
analysis, which addresses whether the sovereign act
would otherwise release the Government from liability
under ordinary principles of contract law. See Stockton,
583 F.3d at 1366. This implicates the impossibility of
performance component of the sovereign acts defense,
which the government must establish. See id. at 1367
(“the Government would have to demonstrate that the
agencies’ actions made it impossible for [the Bureau]
to deliver to the Districts the full amount of water provided for in the contracts . . . ”); Seaboard Lumber, 308
F.3d at 1294 (“[T]he doctrine of impossibility does not
require a showing of actual or literal impossibility of
performance but only a showing of commercial impracticability.”).
In sum, the Court of Federal Claims erred in holding that impossibility of performance is not a factor to
be taken into account in considering the sovereign acts
doctrine. The Bureau’s reduction of water deliveries in

App. 306
order to comply with the requirements of the ESA was
a public and general act. However, in order to escape
liability from breach of contract in this case based on
the sovereign acts doctrine, the government has the
burden of establishing that performance of the various
contracts at issue was impossible. The case is remanded to the Court of Federal Claims so that the
government may have the opportunity to carry that
burden.14 Once the court determines whether the government is entitled to assert the sovereign acts doctrine in this case, it should proceed to resolve, in the
appropriate manner, plaintiffs’ breach of contract
claims.
CONCLUSION
For the foregoing reasons, we vacate the judgment
of the Court of Federal Claims which dismissed plaintiffs’ takings and Compact claims based upon the
Takings Decision and which dismissed plaintiffs’
breach of contract claims based upon the Contract
14

After receiving the views of the parties, the court should
determine whether the impossibility of performance question can
be decided based upon the existing record or whether additional
evidence should be received. Specifically, the court should determine whether additional evidence should be received in order to
give the government the opportunity to show that the Bureau
lacked alternatives to halting water deliveries in 2001. The court
also should determine whether additional evidence should be received in order to give plaintiffs the opportunity to respond to any
such showing by the government. Finally, we do not view any
party as having waived any arguments it may wish to make on
the question of impossibility of performance.

App. 307
Decision. The case is remanded to the Court of Federal
Claims for further proceedings consistent with this
opinion. If the court determines that the government
is liable for takings or for breach of contract, or both,
it will be necessary for it to address the question of
damages. Needless to say, we express no views on
whatever issues may arise in the setting of a damages
determination.
COSTS
No costs.
VACATED and REMANDED.

GAJARSA, Circuit Judge, concurring-in-part and concurring-in-judgment.
In my judgment, the majority opinion is incomplete in some respects. Thus, although I generally
agree with the opinion of the court, I write separately
to clarify my reasoning on certain issues before us.
I.
When this matter was last before this court, I dissented from the panel’s decision to certify certain questions to the Oregon Supreme Court. Klamath Irr. Dist.
v. United States, 532 F.3d 1376, 1378-81 (Fed. Cir. 2008)
(Gajarsa, J., dissenting). Nevertheless, we now have
the guidance of the Oregon Supreme Court, and it is
binding upon us. See Engel v. CBS, Inc., 182 F.3d 124,

App. 308
125-26 (2d Cir. 1999); Grover v. Eli Lilly & Co., 33 F.3d
716, 719 (6th Cir. 1994).
In its certification order, the panel identified three
questions for certification to the Oregon Supreme
Court:
1. Assuming that Klamath Basin water for
the Klamath Reclamation Project “may be
deemed to have been appropriated by the
United States” pursuant to Oregon General
Laws, Chapter 228, § 2 (1905), does that statute preclude irrigation districts and landowners from acquiring a beneficial or equitable
property interest in the water right acquired
by the United States?
2. In light of the statute, do the landowners
who receive water from the Klamath Basin
Reclamation Project and put the water to beneficial use have a beneficial or equitable property interest appurtenant to their land in the
water right acquired by the United States,
and do the irrigation districts that receive water from the Klamath Basin Reclamation Project have a beneficial or equitable property
interest in the water right acquired by the
United States?
3. With respect to surface water rights
where appropriation was initiated under Oregon law prior to February 24, 1909, and where
such rights are not within any previously adjudicated area of the Klamath Basin, does
Oregon State law recognize any property interest, whether legal or equitable, in the use

App. 309
of Klamath Basin water that is not subject to
adjudication in the Klamath Basin Adjudication?
Klamath Irr. Dist. v. United States, 532 F.3d 1376,
1377-78 (Fed. Cir. 2008). The Oregon Supreme Court
unequivocally answered “no” to the first certified question, and “yes” to the third. Klamath Irr. Dist. v. United
States, 227 P.3d 1145, 1157, 1166 (Or. 2010) (“Certification Decision”).
The Oregon court’s answer to the second question,
however, was not definitive. It began by making clear
that “[b]enefical use is a necessary but not sufficient
condition to acquire a beneficial or equitable property
interest in a water right.” Certification Decision, 227
P.3d at 1160. The Oregon court then adopted the three
factors considered in Nevada v. United States, 463 U.S.
110 (1983), as probative, as a matter of state law, of
whether landowners have an equitable or beneficial
property interest in a water right to which the United
States holds legal title. Certification Decision, 227 P.3d
at 1163. Discussing the first factor—whether the water
right was appurtenant to the land—the Oregon court
found that it was. Id. And discussing the second factor—the relationship that exists between the federal
government and plaintiffs—the Oregon court found
that “the United States holds the water right that it
appropriated . . . for the use and benefit of the landowners.” Id. at 1163-64. I have no objection to the majority’s decision on these two factors, and I join it.

App. 310
The third factor adopted by the Oregon Supreme
Court is “the contractual agreements between the
United States and plaintiffs.” Id. at 1165. I agree with
the majority that, on remand, the trial court should direct its attention to the third factor set forth by the Oregon court. Majority Op. at 27. But I disagree with the
majority’s assumption that an equitable water right
has been created by the first two factors, and that the
contractual agreements between plaintiffs and the
government can only “have clarified, redefined, or altered” that preexisting property interest. Id. at 28; see
also Certification Decision, 227 P.3d at 1165. Instead, I
read the Certification Decision as making the creation
of such an interest dependent upon the content of the
agreements between the various plaintiffs and the government. See Certification Decision, 227 P.3d at 1165
(“[W]e are in no position to provide a definitive answer
whether . . . the various contractual agreements between the United States and plaintiffs support or defeat plaintiffs’ claim that they have an equitable or
beneficial property interest. . . .” (emphasis added)). I
therefore believe that the Oregon court was neutral on
this factor, but noted its dependency on the terms and
conditions of the relevant agreements.
Regardless of how the third factor is analyzed, I
agree fully with—and want to emphasize—the majority’s statement that the existence of any right must be
determined on a case-by-case basis. Majority Op. at 27;
see also Certification Decision, 227 P.3d at 1165-66. The
effect of each contract, patent, or other document serving as the basis for plaintiffs’ claims must be analyzed

App. 311
in light of its internal content, as well as the law and
regulations in effect at the time. See Hash v. United
States, 403 F.3d 1308, 1315 (Fed. Cir. 2005).
II.
In addition to the over-arching issue of equitable
or beneficial water rights, plaintiffs Van Brimmer
Ditch Company (“Van Brimmer”), Klamath Drainage
District, and Klamath Hills District Improvement
Company assert specific alternative sources of water
rights. Appellants 2007 Br. at 45; see also Appellants
2007 Reply Br. at 22-23. Because these claims are
squarely before us and their disposition depends only
upon conclusions of law, I would reach the claims of
these three plaintiffs.
A.
Resolution of the claims asserted by plaintiffs
Klamath Drainage District and Klamath Hills District Improvement Company is straight-forward.
These plaintiffs assert claims based on water right
permits with priority dates of 1977 and 1983, respectively. J.A. 43414-17. In their briefing, plaintiffs repeatedly characterize the referenced documents as “water
rights certificates” granting them vested rights. 2007
Reply Br. at 23 (emphasis added). But these documents
are identified as “permits” on their face. And the trial
court, in addition to noting other defects associated

App. 312
with these claims1, explicitly found that the record contains “no evidence that Oregon has issued a [subsequent] water rights certificate.” Klamath Irr. Dist. v.
United States, 67 Fed. Cl. 504, 539 n.62 (2005) (emphasis added). Absent evidence of subsequent water right
certificates, the permits provide “only an inchoate right
that . . . does not constitute a vested water right.” Fort
Vannoy Irr. Dist. v. Water Res. Comm’n, 188 P.3d 277,
290 (Or. 2008) (en banc). I would therefore hold that
plaintiffs Klamath Drainage District and Klamath
Hills Improvement Company lack any protected property interest based upon the documents in the record.
B.
Turning to the rights of Van Brimmer, plaintiffs
argue that Van Brimmer “does possess a pre-1905 water
1

For example, the trial court noted that the Klamath Drainage District permit is for use during a period of time that appears
to be outside the period when delivery was suspended in 2001.
Klamath Irr. Dist. v. United States, 67 Fed. Cl. 504, 539 n.62
(2005). The trial court also included the Klamath Drainage District and Klamath Hills District Improvement Company permits
in a discussion of the availability of damages, id. at 539, an issue
which I do not believe the parties have adequately considered. Assuming that plaintiffs do have an equitable or beneficial property
interest in the waters to which the United States took title in
1905, plaintiffs’ interests are likely junior to the aboriginal fishing
rights of amici Indian tribes. I also think it very likely that the
water flow allocations associated with Indian fishing rights may
be largely co-extensive with the flow allocations made by the
United States in 2001. In any event, plaintiffs’ damages, if such
damages exist, may not be calculable—or even ascertainable—
prior to resolution of the state-level adjudication of Klamath Basin water rights.

App. 313
right” and that a 1909 contract between Van Brimmer
and the United States “relinquishes only Van Brimmer’s riparian rights in lower Klamath Lake, not its
appropriative rights.” 2007 Reply Br. at 22-23. Assuming, arguendo, that Van Brimmer did obtain a water
right with a priority date earlier than that of the
United States, I disagree with plaintiffs’ interpretation
of the 1909 agreement.
We have the ability to interpret the language of
the agreement, San Carlos Irrigation and Drainage
District v. United States, 111 F.3d 1557, 1564 (Fed. Cir.
1997), and we should do so. The 1909 agreement includes a contractual promise by the United States to
deliver water, in consideration for which Van Brimmer
hereby waives and renounces to the use and
benefit of the United States any and all of its
riparian rights, in relation to the waters and
shores of Lower Klamath Lake appurtenant
or incident to the lands now being irrigated by
[Van Brimmer] . . . and also waives and renounces any and all claims for damages consequent upon or arising from any change of
the course or water level of the said Lower
Klamath Lake. . . .
J.A. 4270. I interpret this portion of the contract to
constitute a quit-claim of Van Brimmer’s “riparian
rights,” a position with which plaintiffs apparently
agree. 2007 Reply Br. at 23. The question is what does
the contract mean by “riparian rights”?
Prior to February 24, 1909, the State of Oregon
applied both the riparian doctrine and the prior

App. 314
appropriation doctrine to the use of surface waters.
Fort Vannoy Irr. Dist., 188 P.3d at 283-84 (citing Wells
A. Hutchins, The Common-Law Riparian Doctrine in
Oregon: Legislative and Judicial Modification, 36 Or. L.
Rev. 193 (1957)); cf. Oregon General Laws, Chapter 216
(1909) (adopting prior appropriation doctrine). Given
this historical context, I believe that the 1909 contract’s quit-claim of “riparian rights” is ambiguous, and
I would remand for additional briefing of this specific
issue.
III.
In conclusion, my view differs only by a limited degree with that of the majority. I agree that remand is
appropriate, but my guidance would differ on certain
aspects of the Certification Decision. I therefore concur
with the majority in part, and I concur in the judgment.

App. 315
Filed: March 11, 2010
IN THE SUPREME COURT
OF THE STATE OF OREGON
(Federal CC No. 2007-5115; SC S056275)
KLAMATH IRRIGATION DISTRICT, TULELAKE
IRRIGATION DISTRICT, KLAMATH DRAINAGE
DISTRICT, POE VALLEY IMPROVEMENT DISTRICT,
SUNNYSIDE IRRIGATION DISTRICT, KLAMATH
BASIN IMPROVEMENT DISTRICT, KLAMATH HILLS
DISTRICT IMPROVEMENT CO., MIDLAND DISTRICT
IMPROVEMENT CO., MALIN IRRIGATION DISTRICT,
ENTERPRISE IRRIGATION DISTRICT, PINE GROVE
IRRIGATION DISTRICT, WESTSIDE IMPROVEMENT
DISTRICT NO. 4, SHASTA VIEW IRRIGATION
DISTRICT, VAN BRIMMER DITCH CO., FRED A.
ROBISON, ALBERT J. ROBISON, LONNY E. BALEY,
MARK R. TROTMAN, BALEY TROTMAN FARMS, JAMES
L. MOORE, CHERYL L. MOORE, DANIEL G. CHIN,
DELORIS D. CHIN, WONG POTATOES, INC., MICHAEL
J. BYRNE, DANIEL W. BYRNE, and BYRNE BROTHERS,
Plaintiffs,
v.
UNITED STATES OF AMERICA and PACIFIC COAST
FEDERATION OF FISHERMEN'S ASSOCIATIONS,
Defendants
and
STATE OF OREGON, by and through the
Oregon Water Resources Department,
Intervenor.

App. 316
En banc
On certified questions from the United States
Court of Appeals for the Federal Circuit;
certification order dated July 16, 2008;
certification accepted January 29, 2009;
argued and submitted May 13, 2009
Counsel: William M. Ganong, Klamath Falls, argued
the cause for plaintiffs Klamath Irrigation District,
Tulelake Irrigation District, Klamath Drainage District, Poe Valley Improvement District, Sunnyside Irrigation District, Klamath Basin Improvement District,
Klamath Hills District Improvement Co., Midland District Improvement Co., Malin Irrigation District, Enterprise Irrigation District, Pine Grove Irrigation District,
Westside Improvement District No. 4, Shasta View
Irrigation District, Van Brimmer Ditch Co., Fred A.
Robison, Albert J. Robison, Lonny E. Baley, Mark R.
Trotman, Baley Trotman Farms, James L. Moore,
Cheryl L. Moore, Daniel G. Chin, Deloris D. Chin, Wong
Potatoes, Inc., Michael J. Byrne, Daniel W. Byrne, and
Byrne Brothers. Michael H. Simon, of Perkins Coie,
Portland, filed the briefs for plaintiffs. With him on the
briefs were Julia E. Markley, Nicholle Y. Winters, Nancie
G. Marzulla, Roger J. Marzulla, and Paul S. Simmons.
David C. Shilton, United States Department of Justice,
Environment and Natural Resources Division, Washington, D.C., filed the briefs and argued the cause for
defendant United States of America. With him on the
briefs were John C. Cruden, Acting Assistant Attorney
General, Katherine J. Barton, and Suzanne Bratis, Assistant United States Attorneys.

App. 317
Todd D. True, Earthjustice, Seattle, Washington, argued the cause and filed the briefs for defendant Pacific
Coast Federation of Fishermen’s Associations. With
him on the briefs was Stephanie M. Parent.
Stephanie L. Striffler, Senior Assistant Attorney General, Salem, argued the cause and filed the briefs for
intervenor. With her on the briefs were John R. Kroger,
Attorney General, and Jerome Lidz, Solictor General.
Carl Ullman, Klamath Water Project, Chiloquin, filed
the brief for amicus curiae Klamath Tribes.
John T. Bagg, Salem, filed the brief for amicus curiae
Natural Resources Defense Council. With him on the
brief was John D. Escheverria.
Judges: KISTLER, J. Walters, J., concurred and filed
an opinion, in which Balmer and Linder, JJ., joined.
Opinion by: KISTLER
The certified questions are answered.
Opinion
En Banc
KISTLER, J.
The United States Court of Appeals for the Federal Circuit certified three questions to this court,
which this court accepted. Klamath Irrigation District
v. United States, 345 Ore. 638, 202 P.3d 159 (2009).
All three questions arise out of a dispute over water
rights in the Klamath River basin. Essentially, they
ask whether, as a matter of state law, the farmers and
irrigation districts that use water from a federal reclamation project have an equitable property interest in

App. 318
a water right to which the United States holds legal
title and whether an equitable property interest in a water right is subject to adjudication in the ongoing Klamath Basin water rights adjudication. In answering
those questions, we begin by describing the procedural
posture in which the questions arise. We then discuss
briefly the common law and statutory context that preceded a 1905 state statute on which the parties’ arguments turn. Finally, we answer the certified questions.
I
The Federal Bureau of Reclamation (the Bureau)
manages the Klamath Project, which stores and supplies water to farmers, irrigation districts, and federal
wildlife refuges in the Klamath River basin. The plaintiffs in the underlying federal litigation are farmers
and irrigation districts that use water from the Klamath Project for irrigation and other agricultural purposes. As a result of drought conditions in 2001, the
Bureau terminated the delivery of water to plaintiffs
that year in order to make water available for three
species of endangered fish.1
Claiming a property right in the water, plaintiffs
brought an action in the United States Court of Federal Claims, alleging that the United States had taken
their property in violation of the Fifth Amendment
and, alternatively, that the United States had breached
its contractual obligation to deliver water to them. The
United States asked the federal claims court to abstain
from deciding plaintiffs’ takings claim until an ongoing
1

The Bureau was able to make some water (approximately
70,000 acre feet) available in July 2001.

App. 319
state water rights adjudication determined what, if
any, property rights plaintiffs had in the water from
the Klamath Project. Cf. Colorado River Water Conservation Dist. v. United States, 424 US 800, 819-20, 96 S Ct
1236, 47 L Ed 2d 483 (1976) (upholding a federal district court ruling abstaining from deciding federal government and tribal water rights that were at issue in
a state water rights adjudication).
In response to that argument, plaintiffs told the
federal court that they were not asserting, in federal
court, any right to water that the state water rights
adjudication would determine. Plaintiffs took the position that the state water rights adjudication would resolve who has the legal title to use the water from the
Klamath River basin but that it would not resolve who
has an equitable or beneficial property interest in using the water. Plaintiffs accordingly assumed, for the
purposes of their federal takings claim, that the United
States holds legal title to the water rights, and they
elected to proceed in the federal action solely on the
theory that they hold an equitable or beneficial interest in the water rights, which the government took
when it refused to deliver water to them in 2001. The
Court of Federal Claims proceeded on that theory, see
Klamath Irrigation District v. United States, 67 Fed Cl
504, 513-14 (2005) (describing plaintiffs’ position), and
so do we in answering the certified questions.2
2

We understand that some or all plaintiffs have asserted in
the state water rights adjudication that they hold legal title to the
water right and are entitled to have a certificated water right issued to them. In answering the certified questions, we accept
plaintiffs’ claim as they have narrowed it in the federal proceeding; that is, we assume that the United States holds legal title to

App. 320
Plaintiffs have argued in the federal action that
their equitable property interest in the water arose
from two sources: Section 8 of the Reclamation Act of
1902, ch. 1093, 32 Stat 388, and state water law. The
Court of Federal Claims held that neither source of law
gave plaintiffs an equitable interest in the water from
the Klamath Project. The court initially reasoned that
federal law did not define the scope of plaintiffs’ water
rights. 67 Fed Cl at 518-23.3 Turning to plaintiffs’ state
law claims, the court held that, the United States appropriated, pursuant to a 1905 Oregon statute, all the
then-unappropriated waters of the Klamath Basin and
that, under the terms of the 1905 statute, a person
could not obtain any property interest in that water
without a formal written release from the United
States. Id. at 526-27.
At two points in its opinion, the Court of Federal
Claims summarized and quoted excerpts of various
contracts between the United States and plaintiffs concerning the distribution of water. Id. at 510-12, 527-30.
The court later explained that plaintiffs’ contractual
agreements with the United States divided into five
basic categories:
“(i) interests based upon an exchange agreement, in which preexisting water rights were
the water and that plaintiffs claim only an equitable or beneficial
interest in the water. We express no opinion on plaintiffs’ claims that
they obtained and hold legal title to water from the Klamath Project.
We leave that question for the state water rights adjudication.
3
We do not describe the Court of Federal Claims’ reasoning
regarding plaintiffs’ claims under section 8 of the Reclamation
Act. That issue is beyond the scope of the questions that the Federal Circuit has posed.

App. 321
exchanged for an interest in the Project water;
(ii) interests deriving from district contracts
with the United States or the Bureau, claimed
by the districts; (iii) interests deriving from
the district contracts with the United States,
claimed by individual irrigators as alleged
third-party beneficiaries; (iv) interests based
upon application for the beneficial use of water filed either by homesteaders on reclaimed
lands (Form A), or by homesteaders or other
landowners whose property does not involve reclaimed lands (Form B), and the patent deeds
issued allegedly in response thereto; and (v) interests based upon alleged water rights permits granted by the State Oregon after the
repeal of the 1905 Oregon legislation in 1953.”
Id. at 530-31. The court concluded that agreements
falling into the first three categories resulted in contractual rights to receive water and that a contractual
interest is not a property interest that gives rise to a
takings claim under the Fifth Amendment.4 Id. at 53132. Regarding the fourth and fifth categories, the court
concluded that, because the patent deeds and the water rights granted by the state had a later priority date
than the United States’ water right, the United States
had not taken those rights when it denied water to
plaintiffs. Id. at 538-39.
Having reached those conclusions, the Court of
Federal Claims granted summary judgment for the
United States on plaintiffs’ takings claim. Id. at 540.
4

It is not completely clear from the Court of Federal Claims’
opinion why, in its view, the agreements in the first three categories gave rise only to contractual rights to receive water.

App. 322
Later, in a separate opinion, that court granted summary judgment for the United States on plaintiffs’ contractual claim, reasoning that the sovereign acts
doctrine provided a complete defense to that claim.
Klamath Irrigation District v. United States, 75 Fed Cl
677, 695 (2007). Having disposed of both claims, the
court entered judgment in the United States’ favor.
Plaintiffs appealed to the United States Court of
Appeals for the Federal Circuit. Regarding plaintiffs’
takings claim, the Federal Circuit observed that the
“answer to [plaintiffs’] takings question depends upon
complex issues of Oregon property law, including the
interpretation of Oregon General Laws, Chapter 228,
§ 2 (1905).” Klamath Irrigation Dist. v. United States,
532 F.3d 1376, 1377 (Fed Cir 2008). To assist its resolution of plaintiffs’ takings claim, the Federal Circuit
certified three state law questions to this court:
“1. Assuming that Klamath Basin water for
the Klamath Reclamation Project ‘may be
deemed to have been appropriated by the
United States’ pursuant to Oregon General
Laws, Chapter 228, § 2 (1905), does that statute preclude irrigation districts and landowners from acquiring a beneficial or equitable
property interest in the water right acquired
by the United States?
“2. In light of the statute, do the landowners
who receive water from the Klamath Basin
Reclamation Project and put the water to beneficial use have a beneficial or equitable property interest appurtenant to their land in the
water right acquired by the United States,

App. 323
and do the irrigation districts that receive water from the Klamath Basin Reclamation Project have a beneficial or equitable property
interest in the water right acquired by the
United States?
“3. With respect to surface water rights
where appropriation was initiated under Oregon law prior to February 24, 1909, and where
such rights are not within any previously adjudicated area of the Klamath Basin, does
Oregon State law recognize any property interest, whether legal or equitable, in the use
of Klamath Basin water that is not subject to
adjudication in the Klamath Basin Adjudication?”
Id. at 1377-78. As noted, we accepted the certified questions.
II
Before answering those questions, it is helpful to
discuss briefly the common-law and statutory context
for the Oregon legislature’s enactment of the 1905 statute. See Stevens v. Czerniak, 336 Ore. 392, 401, 84 P.3d
140 (2004) (explaining that the context for interpreting
a statute’s text includes “ ‘the preexisting common law
and the statutory framework within which the law was
enacted’ ” (quoting Denton and Denton, 326 Ore. 236,
241, 951 P.2d 693 (1998)).5 We begin with the Oregon
5

Because no legislative history of the 1905 act remains, we
are left with the text and context of that statute to determine the
legislature’s intent.

App. 324
common law regarding the appropriation of water
rights. We then turn to the statutory background that
both preceded the 1905 Oregon statute and informs
our understanding of it.
Before 1905, the Oregon courts had adopted the
doctrine of prior appropriation of water rights. See Fort
Vannoy Irrigation v. Water Resources Comm., 345 Ore.
56, 64-67, 188 P.3d 277 (2008) (describing the history
of that doctrine in Oregon). To encourage the beneficial
use of water, Oregon courts recognized before 1905 that
a person who puts surface water to beneficial use acquires a right to use that water that takes precedence
over subsequent users. See id. (same). Before the Oregon legislature codified the doctrine of prior appropriation in 1909, this court had held that a person seeking
to establish his or her right to use water had to prove
three elements:
“First, an intent to apply it to some beneficial
use, existing at the time or contemplated in
the future; second, a diversion from the natural channel by means of a ditch, canal, or
other structure; and third, an application of it,
within a reasonable time, to some useful industry.”
Low v. Rizor, 25 Ore. 551, 557, 37 P 82 (1894).
Customarily, the intent to apply water to a beneficial use was manifested by some form of public notice,
and the date of the appropriation related back to the
date of the notice, as long as the appropriator both began the diversion of the water and put the water to

App. 325
beneficial use within a reasonable time. Nevada Ditch
Co. v. Bennett, 30 Ore. 59, 84-86, 45 P 472 (1896); see Re
Rights to Waters of Silvies River, 115 Ore. 27, 101-02,
237 P 322 (1925) (describing pre-1909-code methods of
providing notice). Put differently, although appropriation was perfected “ ‘only when the ditches or canals
[we]re completed, the water diverted from its natural
stream or channel, and actually used for beneficial purposes,’ ” the priority date for the water right related
back to the date of the notice as long as the diversion
and beneficial use were accomplished with reasonable
diligence. Nevada Ditch, 30 Ore. at 90-91 (quoting
Clesson S. Kinney, A Treatise on the Law of Irrigation
and Water Rights § 167 (1894)).
The scope and extent of the appropriation turned
on the appropriator’s intent, typically manifested in
the notice and ultimately limited by the beneficial use
to which the water was put. See id. at 98-100 (explaining that the extent of the appropriation with a priority
date that related back to the notice turned on the use
set out in the notice and did not include other or additional uses). The right to use water, once appropriated,
is appurtenant to the land and passes with it, even
without an express grant of water rights in the deed
conveying the land. Simmons v. Winters, 21 Ore. 35, 44,
27 P 7 (1891).
Initially, the court’s decisions focused only on individuals who diverted water for use on property that
they owned, and the cases frequently turned on factual
disputes, such as the diligence with which the owner
had constructed a ditch to put the water to beneficial

App. 326
use. The application of those common-law rules raised
potentially more difficult legal issues when a person
diverted water for use on land that he or she did not
yet own and, in a separate situation, when one person
diverted water for another’s use.
The first situation arose primarily as a result of
federal acts, such as the Homestead Act of 1862, ch. 79,
12 Stat 392, that promised a tract of federal land to
persons who entered onto public land and reclaimed it.
Typically, those acts required an initial application, an
entry onto the land, and proof that the settler had completed certain requirements within a period of years.
E.g., id. § 2. Until the settler completed those requirements, legal title to the land remained in the United
States.
This court first considered what state property
rights, if any, a settler had in such land in Kitcherside
v. Myers, 10 Ore. 21 (1881). In that case, the court explained that the disputed land “is public land of the
United States, subject to be taken under the acts of
congress as homestead, and which the plaintiff has
taken the necessary preliminary steps to secure as a
homestead.” Id. at 26. The defendant, however, had occupied part of the plaintiff ’s tract, and both parties
claimed a right to possess the part of the tract that the
defendant occupied. Id. at 21-22. Recognizing that legal title to the land lay in the United States (the plaintiff had not yet perfected his claim and received a
patent from the government), the court held that “[t]he
right of possession of the plaintiff for the purpose of
homestead is a valuable right which equity will

App. 327
protect.” Id. at 26-27. Accordingly, it upheld the trial
court’s decree giving the plaintiff the right of possession. Id. at 27.
Later, the court held that, when a settler had put
water to beneficial use on such land, the water right
was appurtenant to the land and passed with it even
though the settler had not yet received legal title to the
land. Hindman v. Rizor, 21 Ore. 112, 117-18, 27 P 13
(1891). In Hindman, the plaintiff ’s predecessors in interest entered onto federal land in 1863, diverted water onto the land, and cultivated it, but did not perfect
their title to the land until 1882. Id. at 115. The question in Hindman was whether the plaintiff ’s predecessors in interest had obtained a water right before 1882
(the date that they perfected their title to the land)
that they could pass to the plaintiff.6
In answering that question, this court recognized
initially that “[a] settler upon public land has a [possessory] right thereto as against every person except
the government, and when such settlement is made
with the view of obtaining title, such right is a valuable
property right, which the courts will protect and enforce.” Id. at 116-17 (citing Kitcherside). The court also
recognized that, “[w]hen such a settler appropriates
water for the necessary irrigation of the land occupied
by him, it becomes as much a part of his improvements
6

The question arose because, after 1863 but before 1882, another person had put water to beneficial use on land that he
owned and claimed that his appropriation was prior to the plaintiff ’s, whose water rights he contended did not vest until plaintiff ’s predecessor in interest perfected title to the land in 1882.

App. 328
as his buildings or fences, and can be sold and transferred with his possessory right in the same way.” Id.
at 117. The court explained that “[t]he water when appropriated and used for irrigation becomes an incident
to the land, and the transfer of the possessory rights
thereto carries with it the water unless expressly reserved.” Id. at 118. Accordingly, the court held that the
plaintiff ’s predecessors in interest had obtained a water right before they obtained title to the property in
1882, which could and did pass to the plaintiff.
The Oregon courts also considered, for the first
time in Nevada Ditch, whether one person could appropriate water for another’s use and, if that were possible, what rights the user had in the water. The court
explained that, in many instances, individual landowners located at some distance from streams lacked
the resources, even when they acted collectively, to construct ditches to divert water to irrigate their lands. Id.
at 96. It observed that, “[i]n such cases other persons
possessing capital are often willing to make the diversion for the benefit of those who have use for the water * * * .” Id. However, that arrangement raised
fundamental questions, the foremost of which was
whether one person could appropriate water for another’s use. And if that were possible, questions arose
concerning the relationship between the appropriator
and the user, the priority date of the water right, and
whether the appropriator, the user, or both owned the
right.
The court answered two of those questions in
Nevada Ditch. It held initially that one person could

App. 329
appropriate water for another’s use; that is, “the bona
fide intention which is required of the appropriator to
apply the water to some useful purpose may comprehend a use to be made by or through another person,
and upon lands and possessions other than those of the
appropriator.” Id. at 97. It also held that, under Oregon
law, the persons who used water that another person
had appropriated had the same priority date (the date
of the notice) as long as the later user put the water to
beneficial use within a reasonable time and the use
came within the scope of the original plan set out in
the appropriator’s notice. Id. at 98-102.7
The court noted but did not decide two aspects of
the relationship between the appropriator and the persons who put the water to beneficial use. It noted
7

The court’s holding in this regard is expressed in its resolution of the parties’ claims. Accordingly, we describe the relevant
facts and the court’s resolution of the parties’ claims briefly. On
July 12, 1881, the principals of what became the Nevada Ditch
Co. posted a notice of their intent to divert 8,000 miners’ inches
of water from the Malheur River for agricultural and milling purposes. Nevada Ditch, 30 Ore. at 64-65. The notice set out generally the route and terminals of the ditch. Id. at 65. Other settlers
came as late as 1886 and took subdivided interests in the ditch
according to the original plan. Id. at 69. Meanwhile, other persons
appropriated water from the Malheur River after 1881 but before
the later settlers came in 1886 and began putting the water to
beneficial use. Although those persons claimed a prior right to the
water than the later settlers claiming under Nevada Ditch’s appropriation, this court held that the priority date for the later settlers’ water rights related back to the date of the 1881 notice. Id.
at 102. This court also held that the priority date for subsequent
extensions of the ditch, which went beyond the original plan, did
not relate back to the 1881 notice but had a separate priority date.
Id. at 100.

App. 330
initially that “it would seem that he who designed the
scheme and made the diversion [the appropriator] was
the principal, rather than the user, who applies the result of the former’s labor to his beneficial purpose.” Id.
at 97-98.8 Having noted that that “seem[ed]” to be the
relationship, the court did not decide whether that was
the relationship. Rather, it observed that, “in whatever
capacity the parties to the appropriation may be considered,” both were necessary to appropriate the water.
Id. at 98. The court next raised the question of who, as
between the appropriator and the user, “would own the
appropriation when it is completed.” Id. The court
again found it unnecessary to decide that issue but observed, in dicta, that “[w]e are of the opinion * * * that
it is the subject of contract between the person who initiates the appropriation and the user.” Id. at 98. The
court went on to note that, in any event, both the appropriator and the user were necessary to perfect and
maintain an appropriation. Id.
Later Oregon decisions, issued after 1905, have
addressed the respective rights of appropriators and
users of a water right when one person appropriates
water for another’s use. For instance, this court has explained that, in “a mutual water company, not organized for the purpose of selling water or as a profit
corporation, but for the sole purpose of transmitting
and delivering to the appropriators and owners of the
8

In making that observation, the court distinguished Oregon
law from Colorado law, which regarded the person who diverted
the water as the agent for the person who put it to beneficial use.
Id. at 97.

App. 331
water the quantity to which each is entitled,” the corporation held legal title to the water right and acted as
the trustee for the users who have a beneficial property
interest in the water right. Eldredge v. Mill Ditch Co.,
90 Ore. 590, 596, 177 P 939 (1919); see Smith v. Enterprise Irrigation Dist., 160 Ore. 372, 378-79, 85 P.2d
1021 (1939) (an irrigation district held the water right
in trust for the district’s members even though the
statute creating that irrigation district did not so provide). Later, the court explained that, when a private
for-profit corporation, acting pursuant to an 1891 Oregon statute, entered into annual rental agreements
with the persons using the water, the corporation, not
the users, owned the water right In re Waters of Walla
Walla River, 141 Ore. 492, 498, 16 P.2d 939 (1933).
That was the state of the Oregon common law of
appropriation before 1905, with the later gloss placed
on it by Eldredge, Smith, and Walla Walla River. The
common law that preexisted the 1905 statute is, however, not the only context for the 1905 statute. Both the
state and the federal government passed various statutes before 1905 that inform our understanding of the
1905 Oregon statute. Those statutes share a similar
purpose; they were intended, in one way or another, to
get water to the arid lands in Oregon (and the west) so
that those lands could be settled and reclaimed. However, those acts differ in their details, and that difference potentially has significance in understanding
what the Oregon legislature intended in 1905. Accordingly, we briefly summarize the Oregon act of 1891 and

App. 332
the Oregon act of 1895 before turning to the federal
legislation and Oregon’s response to it.
In 1891, Oregon passed a law giving private companies a franchise to construct ditches and provide water for irrigation and related purposes to persons
whose lands were adjacent to or within reach of the
ditches. Ore. Laws 1891, p 52, § 1. For the company’s
use of the water to come within the terms of the 1891
act, the company had to supply the water to all persons, adjacent to or within reach of the ditches, “without discrimination other than priority of contract, upon
payment of charges therefor, as long as there may be
water to supply.” Id.
The act required the private company to post a notice and, within 10 days, to file a copy of the notice with
the county clerk identifying the point at which the
head-gate would be constructed, the general course
and size of the ditch, the number of cubic inches of water to be appropriated, and the number of reservoirs, if
any. Id. §§ 4-5. The act also required the company to
begin constructing the ditch within six months and to
“prosecute the [construction of the ditch] without intermission [except for certain contingencies] until the
same be completed.” Id. § 9. The act did not expressly
make the extent of the appropriation turn on the
amount of water put to beneficial use. Rather, it provided that “the actual capacity of [the] ditch or canal
or flume, when completed, shall determine the extent
of the appropriation” and that, upon compliance with
the terms of the act, “the right to the use of the water
appropriated shall relate back to the date of posting

App. 333
said notice.” Id. Finally, the act provided that the right
to use the water, once appropriated, may be “lost by
abandonment” if the corporation constructing the ditch
“shall fail or neglect to use the same for the period of
one year at any time.” Id. § 22.
This court did not have occasion before 1905 to interpret the rights arising under that act, at least as
they bear on the issues in this case. In 1924, this court
read the 1891 act in light of the provisions of the 1909
statute setting out Oregon’s water code; it suggested
that a beneficial use was necessary to perfect an appropriation of water under the 1891 act and, relying on
dicta from Eldredge, that the persons who used the
water were the true owners of the water right. See Re
Water Rights of Hood River, 114 Ore. 112, 134-39, 227
P. 1065 (1924) (quoting dicta from Eldredge for the
proposition that “ ‘even in cases of public service corporations organized for profit and selling water to the
general public, * * * the water and ditch rights really
belong to the individual appropriator’ ”).
In 1933, this court held that the dicta in Eldredge
did not apply to corporations acting pursuant to the
1891 act. Walla Walla River, 141 Ore. at 498. The court
concluded that, when a public company complies with
the provisions of the 1891 act, “it, and not the owner of
the land supplied, acquires the right to the use of the
water.” Id. at 497. It explained that “ ‘[t]he water is appurtenant to, but not inseparable from the land,’ ” id.
(quoting In re Waters of Deschutes River, 134 Ore. 623,
657, 286 P. 563, 294 P. 1049 (1930)), and that, when
the water users took their water under annual rental

App. 334
contracts, “those rental contracts limited their rights
to the extent of water and time designated in the contract,” id. at 499.9
In 1895, the Oregon legislature took a different approach. It authorized the formation of irrigation districts that would acquire water rights and hold them
in trust for their members. Ore. Laws 1895, p 13; see
Little Walla Walla Irrigation Dist. v. Preston, 46 Ore. 5,
78 P 982 (1904) (describing the source and terms of the
1895 act). Specifically, the 1895 act authorized persons
owning land susceptible to irrigation to petition for the
creation of an irrigation district. Id. § 1, 2. In addition
to providing procedural protections for the members of
the district, the act authorized the board of directors of
an irrigation district “to acquire, either by purchase or
condemnation (or other legal means), all lands and waters and water rights, and other property necessary for
the construction, use, supply, maintenance, repair and
improvements of said canal or canals and works.” Id.
§§ 3, 12. Further, it provided that “[t]he legal title to all
property acquired under the provisions of this act shall
* * * vest in such irrigation district, and shall be held
in trust for and is hereby dedicated and set apart to
9

In Walla Walla River, one water company that had organized under the 1891 act appropriated water in 1903, which it
supplied to water users pursuant to annual rental contracts. 141
Ore. at 495. Later, those same users began to take water from a
second water company. Id. at 496. The second company contended
that, because the water was appurtenant to the land, the users
(and it derivatively) could claim an appropriation date of 1903. As
explained above, this court disagreed, holding that the first company, not the users, held the entire water right.

App. 335
the uses and purposes set forth in this act.” Id. § 13.
The terms of the act thus provided that, although the
irrigation district would hold legal title to the water
that it appropriated, it would hold that title in trust for
its members. Cf. Fort Vannoy, 345 Ore. at 85-86 (construing the modern counterpart to the 1895 act).
Oregon was not alone in seeking to bring water to
the arid west so that the land could be reclaimed and
put to beneficial use. The Supreme Court recounted the
federal government’s efforts in that regard in California v. United States, 438 US 645, 656-63, 98 S Ct 2985,
57 L Ed 2d 1018 (1978). It explained that, after Congress passed the Homestead Act of 1862, 12 Stat 392,
to open up the public domain generally, Congress “took
its first step toward encouraging the reclamation and
settlement of the public desert lands in the West” by
passing the Desert Land Act of 1877. California, 438
US at 657. That act made 640 acres of arid desert lands
available to persons who, after filing a declaration and
paying 25 cents an acre, reclaimed the land “by conducting water upon the same.” Desert Land Act of
1877, ch. 107, 19 Stat 377.10
10

The Desert Land Act is notable primarily because it confirmed that
“all non-navigable waters then a part of the [federal]
public domain became publici juris, subject to the plenary control of the designated states * * * the right in
each to determine for itself to what extent the rule of
appropriation or the common-law rule in respect of riparian rights should obtain.”
California Oregon Power Co. v. Beaver Portland Cement Co., 295
US 142, 163-64, 55 S Ct 725, 79 L Ed 1356 (1935).

App. 336
The persons who acquired public land pursuant to
the Homestead and Desert Land Acts typically “chose
those lands which were the nearest or most accessible
to the streams,” leaving more remote and less accessible lands uncultivated. Clesson S. Kinney, 3 A Treatise
on the Law of Irrigation and Water Rights § 1314 (2d
ed. 1912). Congress sought to promote cultivation of
those more remote lands by enacting the Carey Act in
1894. Carey Act, ch 301, § 4, 28 Stat 422. That act
authorized the Secretary of the Interior to “donate,
grant, and patent to [certain] State[s] * * * such desert
lands, not exceeding one million acres in each State,
as the State may cause to be irrigated, reclaimed, [and]
occupied.” Id. The Carey Act left it to the states either to construct themselves or to secure construction,
through agreements with private contractors, of the
canals and irrigation works necessary to reclaim the
more remote tracts of desert land. Kinney, 3 A Treatise
on the Law of Irrigation and Water Rights § 1323.11
Private efforts at creating large-scale reclamation
works in the arid West did not prove profitable, and the
11

To take advantage of the Carey Act, Oregon passed a law
in 1901 accepting the conditions that Congress had placed on the
grant of desert lands to the states. Ore. Laws 1901, p 378, § 1. The
Oregon legislature authorized the State Land Board to enter into
contracts with private companies to construct ditches, if the companies agreed to meet certain conditions. Id. §§ 2-5. The act also
provided that “[t]he right to the use of water for irrigation of any
tract or subdivision of lands reclaimed under the provisions of this
act shall become and perpetually remain appurtenant thereto,”
subject to annual maintenance charges and “proper and reasonable rules and regulations adopted for the irrigation system under
and by which the said land has been reclaimed.” Id. § 8.

App. 337
Carey Act did little to advance the reclamation of those
lands that Congress had sought to encourage. See 2
Water and Water Rights, § 41.02 at 41-7 (3d ed 2009).
In his message to Congress on December 3, 1901, President Theodore Roosevelt noted that problem. He told
Congress that there “remain * * * vast areas of public
land which can be made available for homestead settlement, but only by reservoirs and mainline canals,
impracticable for private enterprise.” Kinney, 3 A Treatise on the Law of Irrigation and Water Rights § 1238
at 2239 (quoting President Theodore Roosevelt, Message to Congress (Dec 3, 1901)). The President proposed that the United States build the large-scale
irrigation works necessary for the federal government
to achieve its object of “dispos[ing] of the land to settlers who will build homes upon it.” Id.
Specifically, the President proposed that
“These irrigation works should be built by the
Government for actual settlers, and the cost of
construction should, so far as possible, be repaid by the land reclaimed. The distribution
of the water, the divisions of the streams
among irrigators, should be left to the settlers
themselves, in conformity with the state laws,
and without interference with those laws or
with vested rights. The policy of the National
Government should be to aid irrigation in
the several States and Territories in such a
manner as will enable the people in the local
communities to help themselves, and as will
stimulate needed reforms in the State laws
and regulations governing irrigation.”

App. 338
Id. Within six months after President Roosevelt’s speech
to Congress, the Congress passed and the President
signed into law the Reclamation Act of 1902. Id. at
2238.
The Reclamation Act created a fund derived from
the proceeds of the sale of public lands to be used for
the construction of “irrigation works for the storage, diversion, and development of waters for the reclamation
of arid and semi-arid lands in the [western states and
territories].” The Reclamation Act of 1902, ch 1093, 32
Stat 388 § 1. It authorized the Secretary of the Interior,
upon determining that an irrigation contract was practicable, to let contracts for the construction of irrigation works and to give public notice of the “lands
irrigable under such project, [the] limit of area per
entry,” and “the charges which shall be made per acre
upon the said entries, * * * and the number of annual
installments, not exceeding ten, in which such charges
shall be paid.” Id. § 4. The Act provided that the
charges shall be determined “with a view of returning
to the reclamation fund the estimated cost of construction of the project, and shall be apportioned equitably.”
Id.
The Act provided that persons entering onto the
land
“shall, in addition to compliance with the homestead laws, reclaim at least one-half of the total irrigable area of his entry for agricultural
purposes, and before receiving patent for the
lands covered by his entry shall pay to the

App. 339
Government the charges apportioned against
such tract as provided [above].”
Id. § 5. The Act also provided for the sale of water
rights to privately owned land within the reclamation
project and stated that “no such right shall permanently attach [to the privately owned land] until all
payments therefore be made.” Id. Finally, the Act provided that “a failure to make any two [annual] payments when due shall render the entry subject to
cancellation, with the forfeiture of all rights under this
Act.” Id.
The Act contemplated that, when the “major portion of the lands irrigated from the waters of any works
herein provided for” has been paid, then the “management and operation of such irrigation works shall pass
to the owners of the lands irrigated thereby.” Id. § 6.
The Act specified, however, that “title to and the management and operation of the reservoirs and the works
necessary for their protection and operation shall remain in the Government until otherwise provided by
Congress.” Id. Finally, the Act reserved state control
over water rights with one proviso. Id. § 8. Specifically,
section 8 of the Act provided:
“That nothing in this Act shall be construed
as affecting or intending to affect or to in any
way interfere with the laws of any State or
Territory relating to the control, appropriation,
use, or distribution of water used in irrigation,
or any vested right acquired thereunder, and
the Secretary of the Interior, in carrying out
the provisions of this Act, shall proceed in

App. 340
conformity with such laws * * * : Provided,
That the right to the use of water acquired under the provisions of this Act shall be appurtenant to the land irrigated, and beneficial use
shall be the basis, the measure, and the limitation of the right.”
The United States Supreme Court has explained that,
in enacting the Reclamation Act, Congress intended
that “the Secretary would have to appropriate, purchase, or condemn necessary water rights in strict conformity with state law.” California, 438 US at 665. The
Court also explained that Congress intended that,
“once the waters were released from the Dam [or project], their distribution to individual landowners would
again be controlled by state law.” Id. at 667. The Court
observed, however, that
“Congress did not intend to relinquish total
control of the actual distribution of the reclamation water to the States. Congress provided
in § 8 itself that the water right must be appurtenant to the land irrigated and governed
by beneficial use, and in § 5 Congress forbade
the sale of reclamation water to tracts of land
of more than 160 acres.”
Id. at 668 n 21.12

12

Since 1902, Congress has amended the Reclamation Act on
numerous occasions. We describe the Reclamation Act as originally enacted because Congress had not amended it substantively
before the Oregon legislature enacted the 1905 statute that gives
rise to the certified questions.

App. 341
In response to the Reclamation Act, the 1905 Oregon legislature passed an act that, among other things,
created a procedure for the United States to appropriate water for the irrigation works that the Reclamation
Act authorized. Ore. Laws 1905, ch 228. Section 2 of
the 1905 act provided:
“Whenever the proper officers of the United
States, authorized by law to construct works
for the utilization of water within this State,
shall file in the office of the State Engineer a
written notice that the United States intends
to utilize certain specified waters, the waters
described in such notice and unappropriated
at the time of the filing thereof shall not be
subject to further appropriation under the
laws of this State, but shall be deemed to have
been appropriated by the United States; provided, that within a period of three years from
the date of filing such notice the proper officer
of the United States shall file final plans of the
proposed works in the office of the State Engineer for his information; and provided further,
that within four years from the date of such
notice the United States shall authorize the
construction of such proposed work. No adverse claims to the use of the water required
in connection with such plans shall be acquired under the laws of this State except as
for such amount of said waters described in
such notice as may be formally released in writing by an officer of the United States thereunto
duly authorized, which release shall also be
filed in the office of the State Engineer.”

App. 342
Ore. Laws, ch 228, § 2. The state act also authorized
the state engineer to gather the necessary data to
determine any prior rights to use water from a stream
system on which the United States planned to construct irrigation works; it authorized the Oregon Attorney General to file a suit in state court, on the
Secretary of the Interior’s request, to determine and
declare those rights; and it specified that any decree
resulting from such a suit shall “declare, as to the water right adjudged to each party * * * the extent, the
priority, amount, purpose, place of use, and, as to water
used for irrigation, the specific tracts of land to which
it shall be appurtenant.” Ore. Laws, ch 228, §§ 3-5.
On February 28, 1905, a representative of the
United States posted a notice claiming “all the unappropriated waters of the Klamath River.” The notice
stated that “[t]he [w]ater is to be used for irrigation,
domestic, power, mechanical and other beneficial uses
in and upon lands situated in Klamath Oregon and
Modoc California counties.” On May 17, 1905, the Bureau filed the following notice with the state engineer:
“Notice is hereby given that the United States
intends to utilize * * * [a]ll of the waters of the
Klamath Basin in Oregon * * * .
“It is the intention of the United States to
completely utilize all the waters of the Klamath Basin in Oregon, and to this end this
notice includes all lakes, springs, streams,
marshes and all other available waters lying
or flowing therein.

App. 343
“That the United States intends to use the
above described waters in the operation of
works for the utilization of water in the State
of Oregon under the provisions of the act of
Congress approved June 17, 1902 (32 Stat,
388), known as the Reclamation Act.”
Klamath Irrigation Dist., 67 Fed Cl at 524 (quoting the
notice filed with the state engineer).13 With that background in mind, we turn to the Federal Circuit’s questions.
III
A
The Federal Circuit’s first question asks:
“Assuming that Klamath Basin water for the
Klamath Reclamation Project ‘may be deemed
to have been appropriated by the United States’
pursuant to Oregon General Laws, Chapter
228, § 2 (1905), does that statute preclude irrigation districts and landowners from acquiring a beneficial or equitable property interest
in the water right acquired by the United
States?”
In answering that question, we assume that the United
States appropriated water rights pursuant to the 1905

13

The Court of Federal Claims noted that the United States
also posted a notice of appropriation for the Lost River system but
did not set out the terms of that notice. 67 Fed Cl at 524.

App. 344
statute14 and that it acquired and presently holds legal
title to use the water for the purposes stated in its notice. The question that the Federal Circuit has asked
is: In providing that the United States could appropriate water rights pursuant to the 1905 statute, did the
Oregon legislature intend to preclude persons putting
the water to beneficial use from acquiring a beneficial
or equitable property interest in the water right? The
answer to that question is “no.”
The first sentence in section 2 of the 1905 statute
provides that, if the United States files a notice and
meets two other conditions, all the unappropriated waters described in the notice “shall not be subject to further appropriation under the laws of this State, but
shall be deemed to have been appropriated by the
United States.” Ore. Laws 1905, ch 228, § 2. The quoted
phrase provides two potential grounds for concluding
that the legislature intended to preclude plaintiffs
from acquiring an equitable right. First, section 2 provides that the water described in the United States’ notice is not subject to further appropriation. Plaintiffs,
14

The parties disagree whether the United States appropriated the water rights solely by complying with the three conditions specified in the 1905 statute or whether the water also had
to be put to beneficial use to perfect the appropriation. The court’s
first question, however, asks us to assume that the United States
appropriated the water rights. The mechanism by which it accomplished that appropriation may be important to answer whether,
as the state contends, both the United States and the landowners
own legal title to the water right jointly. That issue, however, is
not before us, and we can answer the questions that the Federal
Circuit has asked us without resolving it. Accordingly, we leave
that issue for another day.

App. 345
however, are not seeking to appropriate the water right
that the United States holds. Rather, they contend in
this proceeding only that, because the United States
holds the water right in trust for them, they have a derivative interest in that right.
Second, section 2 designates the United States as
the “appropriator” of the water right. Potentially, designating the United States as the “appropriator” of a
water right could express an intent to preclude others
from acquiring an equitable property interest in that
right. Because appropriation was a term of art, we look
to the way that the Oregon courts and legislature had
used that term before 1905 in order to understand the
significance of that designation. As noted, this court
had held in Nevada Ditch that one person may appropriate water for another’s use and that a later user who
puts the water to beneficial use within a reasonable
period of time pursuant to the appropriator’s original
plan takes the same priority date as the appropriator.
As also noted, this court declined to decide in Nevada
Ditch, as between the appropriator and the user, who
owned the water right. It follows from Nevada Ditch
that, in designating the United States as the appropriator of the water right, the legislature did not necessarily intend to signify that either the United States or
the users owned the water rights. Rather, under Nevada Ditch, the meaning of that term was open at the
time that the 1905 legislature used it. At a minimum,
we find nothing in the legislature’s use of that term
that expresses an intent to preclude landowners and irrigation districts from acquiring a beneficial or equitable

App. 346
property interest in water rights that the United
States has appropriated.
The different ways in which the 1891 and 1895 Oregon statutes describe the relationship between an appropriator and a user reinforce that conclusion. Under
the 1895 statute, an irrigation district acquires and
holds legal title to a water right but it holds that right
in trust for the district’s members who put the water
to beneficial use. Ore. Laws 1885, p 13. Under the 1891
statute, at least as this court later interpreted it, a forprofit company that enters into annual rental agreements with its users owns the entire water right. See
Walla Walla River, 141 Ore. at 498. And the 1901 statute implementing the Carey Act provided that “[t]he
right to the use of water for irrigation of any tract or
subdivision of lands reclaimed under the provisions of
this act shall become and perpetually remain appurtenant thereto.” Ore. Laws 1901, p 382, § 8. Given the
various ways in which an appropriator can hold, share,
or relinquish a property interest in the water it appropriates, we cannot say that, merely by providing that
the United States may appropriate water rights pursuant to the 1905 act, the Oregon legislature intended
to preclude landowners and irrigation districts from
obtaining a beneficial or equitable property interest in
water that the United States has appropriated.
A final contextual source bears on the issue. The
Oregon legislature enacted the 1905 statute in response to Congress’ passage of the Reclamation Act.
It follows that the Reclamation Act, as originally
passed, sheds light on the terms on which the Oregon

App. 347
legislature understood that the United States would
hold the water right that the 1905 act authorized the
United States to appropriate.15 As noted, the Reclamation Act authorized the construction of federal irrigation works “for the storage, diversion, and development
of waters for the reclamation of arid and semi-arid
lands” in the Western states and territories. 32 Stat
388 § 1. Congress wanted to make water available to
settlers who entered onto public land, and it provided
for the issuance of patents for the land if, within a specified period of time, the settlers entering the land reclaimed “at least one-half of the total irrigable area of
his [or her] entry for agricultural purposes” and paid
within 10 years a proportionate share of the projected
cost of the irrigation works. Id. § 5. Congress also provided for sale of water to privately owned land within
the scope of the project, provided that the tracts did not
exceed 160 acres and that the landowners repaid the
proportionate share of the cost of constructing the irrigation works. Id.
In passing the Reclamation Act, Congress sought
to make water rights available for the benefit of those
persons who would use the water to reclaim the land.
See Ickes v. Fox, 300 US 82, 95, 57 S Ct 412, 81 L Ed
525 (1937) (“Appropriation was made not for the use of
the government, but, under the Reclamation Act, for
15

The Federal Circuit’s questions ask us to interpret state
law. We cannot, however, interpret the meaning of the 1905 Oregon statute without considering the terms and purposes of the
Reclamation Act that the Oregon statute was intended to facilitate.

App. 348
the use of the land owners * * * .”). Reading the 1905
Oregon statute in light of the Reclamation Act that the
Oregon legislature sought to facilitate, we conclude
that, in authorizing the United States to appropriate
water for the construction of irrigation works, the Oregon legislature did not intend to give the United States
carte blanche to use the water rights it appropriated in
whatever way it chose. Rather, the Oregon legislature
authorized the United States to appropriate state water rights pursuant to the 1905 act for the benefit of
those persons who the Reclamation Act contemplated
would put water to beneficial use. That context is directly at odds with the notion that, in providing for the
United States to appropriate water rights, the legislature intended to preclude landowners and irrigation
districts from acquiring a beneficial or equitable property interest in the water right.16
The United States advances two reasons for reaching a different conclusion. First, it relies on In re Waters
of Umatilla River, 88 Ore. 376, 168 P. 922, 172 P 97
(1918). In that case, the Western Land and Irrigation
16

Plaintiffs ask us to resolve a related but separate question;
they ask us to decide whether the water right that the United
States appropriated is limited to the uses specified in the notice
that it filed in 1905. The scope of the right that the United States
appropriated is separate from the question whether plaintiffs
have an equitable property interest in that right (whatever its
scope). As we understand the Federal Circuit’s questions, they
ask us to address the latter question, not the former. The scope of
the water right that the United States appropriated in 1905 is a
question for the state water rights adjudication, as well as the
question of who holds legal title to that right. We express no opinion on those questions.

App. 349
Company’s predecessor in interest had appropriated
water pursuant to the 1891 Oregon statute at three
points in time: in 1891, 1903, and 1907. Id. at 381-85.
The initial question in that case was whether Western’s predecessor in interest had abandoned the water
that it appropriated in 1891. Id. at 381-82. This court
held that it had. Id. at 382-83. The court then noted
that the United States had appropriated water pursuant to the 1905 Oregon act. Id. at 384-85. It observed
that the United States’ compliance with the procedures set out in that statute “vested the United States
with title” to the water specified in its notice and that
the water rights that the United States held had a priority date of September 6, 1905. Id. at 385. It followed,
the court held, that Western’s 1903 appropriation took
priority over the United States’ 1905 appropriation,
which in turn took priority over Western’s 1907 appropriation. Id. at 385-86.
The decision in Umatilla River does not advance
the United States’ position that the Oregon legislature
intended to preclude landowners and irrigation districts from acquiring a beneficial or equitable property
interest in water rights that the United States appropriated. In determining the priority of the United
States’ water right in Umatilla River, the court neither
considered nor addressed the relationship between the
United States and the landowners who took water under that appropriation. Rather, the question before the
court was the relative priority of competing appropriators (Western’s predecessor in interest and the United

App. 350
States). Umatilla River has no bearing on our answer
to the Federal Circuit’s first question.
The United States also relies on the second sentence of section 2 of the 1905 act, which states:
“No adverse claims to the use of the water required in connection with such plans shall be
acquired under the laws of this State except
as for such amount of said waters described in
such notice as may be formally released in
writing by an officer of the United States
thereunto duly authorized * * * .”
Ore. Laws 1905, ch 228, § 2. The United States reasons
that this sentence “spell[s] out the situations where
‘other parties’ may obtain rights to waters identified by
the United States in its notice.” In the United States’
view, plaintiffs’ present litigation position demonstrates that their interests are adverse to the United
States. It follows, the United States concludes, that,
without a formal written release, plaintiffs have no
claim to any beneficial or equitable property interest
in the water that the United States appropriated pursuant to the 1905 statute.
The United States’ argument rests on the assumption that, when the Oregon legislature enacted the
1905 statute, it would have understood that the landowners and irrigation districts that took water under
the United States’ appropriation would have an “adverse claim” to the water. That is not how that phrase
was commonly used. As this court used those terms
before 1905 in water rights disputes, “adverse claim”

App. 351
referred to one of two situations. The court used those
terms to refer to a claim brought by a person who contended that he or she had a right to use water by adverse possession. See, e.g., Beers v. Sharpe, 44 Ore. 386,
394, 75 P 717 (1904); Mattis v. Hosmer, 37 Ore. 523,
532, 62 P. 17, 62 P 632 (1900); Bowman v. Bowman, 35
Ore. 279, 283, 57 P 546 (1899); Huston v. Bybee, 17 Ore.
140, 147-48, 20 P 51 (1888) (all illustrating proposition). The court also used those terms to refer to a
claim brought by another appropriator who contended
that his or her water right had an earlier priority date.
See, e.g., Brown v. Baker, 39 Ore. 66, 69, 65 P. 799, 66 P
193 (1901); Oviatt v. Big Four Mining Co., 39 Ore. 118,
126, 65 P 811 (1901); Carson v. Gentner, 33 Ore. 512,
518, 52 P. 506 (1898) (illustrating that usage).
Conversely, the court had not described the relationship between an appropriator and those persons
who took water under that appropriation as either “adverse” or as a “claim.” See Nevada Ditch, 30 Ore. at 98.
Rather, the court had described the relationship as one
of mutual cooperation. Id. It held out the possibility
that the user was the agent for the appropriator, but
found it unnecessary to decide that point because the
parties’ mutual efforts were necessary to effectuate a
perfected appropriation under the common law. Id. We
need not decide whether the legislature used the
phrase “adverse claim” in the 1905 statute to refer to
an adverse possession claim or the claim of an adverse
appropriator to conclude that the 1905 legislature did
not use that phrase as the United States contends –
to refer to the United States’ relationship with the

App. 352
persons who took water under its appropriation. In
sum, we find nothing in the text and context of the
1905 statute that would preclude plaintiffs from acquiring a beneficial or equitable property interest in
the water right appropriated by the United States.
B
The Federal Circuit’s second question asks:
“In light of the [1905] statute, do the landowners who receive water from the Klamath Basin Reclamation Project and put the water to
beneficial use have a beneficial or equitable
property interest appurtenant to their land in
the water right acquired by the United States,
and do the irrigation districts that receive water from the Klamath Basin Reclamation Project have a beneficial or equitable property
interest in the water right acquired by the
United States?”
As we understand the second question, it asks whether
beneficial use alone is sufficient to acquire a beneficial
or equitable property interest in a water right to which
another person holds legal title. The answer to that
question, as we have restated it, is “no.” Beneficial use
is a necessary but not a sufficient condition to acquire
a beneficial or equitable property interest in a water
right. In explaining our answer, we first address an assumption that underlies the court’s question – whether,
under Oregon law, one person can hold a beneficial or
equitable property interest in a water right to which
another person holds legal title. We then explain why

App. 353
beneficial use alone is not sufficient. Finally, we explain what, as a matter of Oregon law, is required to
establish a beneficial or equitable property interest in
a water right.17
1
Oregon has recognized since 1862 that one person
may hold legal title to property and that another person may hold equitable title to that property. See Smith
v. Ingles, 2 Ore. 43, 44-45 (1862) (when defendant
caused property to be conveyed to his sons for defendant’s use and benefit, the sons held legal title to the
property and defendant held equitable title). That rule
applies equally to water rights. Eldredge, 90 Ore. at
594 (recognizing that one person could hold legal title
to a water right while another holds equitable title). As
this court explained in Fort Vannoy, “[t]he existence of
[a] trust relationship [between an irrigation district
and its members] bifurcates the ownership interest in
each certificated water right.” 345 Ore. at 86. “The district holds legal title to the water right as trustee, and
the members hold equitable title as the beneficiaries.”
Id.; see also id. at 87 (referring to an irrigation district

17

In answering the Federal Circuit’s second question, we address only whether plaintiffs acquired a beneficial or equitable
property interest under state law. The question whether that
state property interest, if acquired, gives rise to a federal takings
claim is a matter of federal law that goes beyond the scope of the
court’s questions, and we do not address it.

App. 354
member’s “equitable ownership interest” in the water
right).18
In Oregon, equitable property interests in water
rights have not derived solely from formal trust agreements. For instance, this court recognized that beneficial users who transferred appropriated water rights
to a corporation and took shares in the corporation in
return held an equitable ownership interest in the water right. Silvies River, 115 Ore. at 102-03. In reaching
that conclusion, the court explained that the corporation was formed “for the purpose of enabling the various owners of land to have a system that would serve
all of them”; that is, even though the corporation held
legal title to the water right, it held the water right for
the use and benefit of its members. Id. at 98-99. That
was sufficient for the court to conclude that the shareholders held an equitable property interest in the water right.19 As the court explained, “[a] court of equity

18

In Fort Vannoy, a statute provided that the irrigation district held the water right in trust for its members. See 345 Ore. at
85 (citing ORS 545.239). The court held, however, that the common law established that, as a consequence of that trust relationship, the district had legal title to the right while the members
held equitable title. See id. at 86 (looking to common law to determine the effect of the trust relationship).
19
The specific issue in Silvies River was whether the priority
date for the corporation’s water right related back to a notice of
appropriation signed by the shareholders but not the corporation.
115 Ore. at 98-99. The court concluded that, because the corporation held the right for the use and benefit of its members, the signatures of the shareholders were sufficient. Id. at 102.

App. 355
will look beyond the form of the proceeding and if possible consider the substance of the right.” Id. at 103.
This court has reached the same conclusion without regard to whether the shareholders in a corporation appropriated a water right and transferred that
right to the corporation or whether the corporation appropriated the water right and held it for the use and
benefit of its shareholders. See In re Water Rights of
Willow Creek, 119 Ore. 155, 195, 199, 236 P. 487, 237 P
682 (1925) (corporation held appropriated water right
in trust for the benefit of its shareholders who put the
water to beneficial use); Eldredge, 90 Ore. at 596 (explaining that a mutual water company organized for
the purpose of transmitting and delivering water appropriated by its shareholders held the water right as
a trustee for the use and benefit of its shareholders).
That is, even though the shareholders owned the stock
and the corporation owned the water right, the court,
sitting in equity, “look[ed] beyond” that formal arrangement and, considering its substance, ruled that
the persons who put the water to beneficial use held an
equitable property interest in the water right.
We draw two conclusions from those cases. First,
the premise of the Federal Circuit’s question is wellfounded. Oregon has recognized and continues to recognize that persons who put water to beneficial use can
acquire an equitable or beneficial property interest in
a water right to which someone else holds legal title.
Second, in determining when such an equitable property interest in a water right exists, this court looks
beyond form and focuses on substance. The court has

App. 356
sought to determine from the structure of a particular
relationship and the agreements among the parties to
that relationship whether the party that holds legal title to the right does so for the use and benefit of the
persons who put the water to beneficial use.
2
With that background in mind, we return to the
Federal Circuit’s second question: Is beneficial use
alone sufficient to create a beneficial or equitable property interest in a water right to which another person
holds legal title? We answered that question “no” because this court has held that beneficial use of water
does not always give the user a property interest in a
water right that another person appropriated. Walla
Walla River, 141 Ore. at 497-98. It follows that we cannot say, without qualification, that beneficial use alone
is sufficient under Oregon law to obtain an equitable
property interest in a water right. Two other factors
bear on the analysis. As discussed above, in deciding
the respective property interests of the appropriator
and the user of a water right, this court has looked not
only to beneficial use but also to the relationship between the parties, as well as any contractual agreements between them. See id. at 497-98 (looking to the
nature of the relationship and the contractual agreements); Silvies River, 115 Ore. at 98-102 (looking at the
nature of the relationship); Eldredge, 90 Ore. at 596
(looking to the nature of the relationship); Nevada
Ditch, 30 Ore. at 98 (holding out the possibility that
contractual agreements matter).

App. 357
The United States Supreme Court considered similar factors in deciding that, even though the United
States held legal title to the water right for the Newlands Project (a Reclamation Act project in Nevada),
the landowners who had put the water to beneficial use
held a beneficial or equitable property interest in the
water right. Nevada v. United States, 463 US 110, 12226, 103 S. Ct. 2906, 77 L.Ed.2d 509 and n 9, 463 U.S.
110, 103 S Ct 2906, 77 L Ed 2d 509 (1983). In that case,
landowners had settled on land within the Newlands
Project and had entered into contractual agreements
with the United States for water. Id. at 126 n 9. The
Court explained that five different forms of contracts
had been used since the creation of the Newlands Project. Id. “Two of the forms provide[d] for an exchange
of a vested water right by the landowner in return for
the right to use Project water.” Id. The other three
forms of contracts provided a water right in an amount
that may be beneficially applied to a specified tract of
land. Id. The Court noted that, of the three latter
forms, the one most commonly used was an application
for a permanent water right for the irrigation of the
settler’s land. Id.
In 1913, the United States filed suit in federal district court, the Orr Ditch suit, to adjudicate the water
rights to the Truckee River for the benefit of the Pyramid Lake Indian Reservation and the Newlands Project. Id. at 113. Neither the landowners nor the tribe
appeared in that suit. Id. at 121. As a result of that
suit, the United States acquired title to the water right
for both reclamation and reservation use in 1944.

App. 358
In 1973, the United States sought to reallocate the
water decreed to it. Id. at 121. More specifically, the
United States sought to divert water that it had acquired for reclamation use to another federal use and
argued that, because it owned the water right, it was
free to do so. Id. The Court reached a different conclusion. It explained that, even though the United States
held legal title to the water right, it held the water
right in trust for the landowners. As the Court explained,
“Once these lands were acquired by settlers
in the Project, the Government’s ‘ownership’
of the water rights was at most nominal; the
beneficial interest in the rights confirmed to
the Government resided in the owners of the
land within the Project to which these water
rights became appurtenant upon the application of Project water to the land.”
Id. at 126; see also id. at 127 (explaining that the
United States, in arguing that it could reallocate the
water to a different use, had overlooked “the obligations that necessarily devolve upon it from having
mere title to water rights for the Newlands Project,
when the beneficial ownership of these water rights
resides elsewhere”).
In determining that the landowners had an equitable or beneficial property interest in the water right
to which the United States held legal title, the Court
considered three factors: (1) under state law, the water
right became appurtenant to the land once it was put

App. 359
to beneficial use;20 (2) the United States’ relationship
with the landowners under the Reclamation Act; and
(3) the contracts between the United States and the
landowners. Id. at 121-26 and n 9. The Court’s reasoning in Nevada does not bind us in deciding, as a matter
of state law, whether one party holds a water right in
trust for another. However, we find its analysis both
persuasive and consistent with Oregon law. We turn to
a consideration of those factors.
3
The first factor is whether the water right was appurtenant to the land. Under Oregon law, the water
right became appurtenant to the land once the persons
taking the water from the Klamath Project applied it
to their land and put it to beneficial use. That is true
even if those persons had not yet perfected title to the
land. As the court explained in Hindman, settlers who
entered onto public land (but who had not yet perfected
title to the land) acquired “a valuable property right
[in the land] which the courts will protect and enforce,”
and the water they put to beneficial use became appurtenant to the land. 21 Ore. at 116-17. The court was
20

The Court explained that, under Nevada law, beneficial
use was necessary to perfect appropriation and that the right became appurtenant to the land on which it was used. 463 US at
126. As discussed above, the Federal Circuit’s questions assume
that the United States appropriated the water right, and we need
not decide, in answering the court’s questions, whether, under Oregon law, beneficial use was necessary to perfect the United
States’ appropriation of water rights under the 1905 act. See note
14 above (reserving that issue).

App. 360
careful to note in Hindman that, until the settlers perfected title to the land, the possessory right in the land
that the settler acquired was valid against every person except the government. Id. at 117. That reservation, however, merely recognized that, if the United
States cancelled the entry because the settler failed to
comply with its terms, the settler could lose his or her
right to the land and, along with it, the appurtenant
water right. This court did not suggest that the settler
lacked a valuable property right in the water that the
state courts would not recognize and protect.21
The second factor requires us to determine the relationship that exists between the federal government
and plaintiffs. In the United States’ view, it stands in
the same relationship to the water users as the private
for-profit company did in Walla Walla River; that is, the
United States contends that it owns the entire water
right and that plaintiffs have only a contractual right
to receive the water. Plaintiffs and the State of Oregon
argue that, although the United States holds title to
the water right, it does so for the use and benefit of the
landowners who put the water right to beneficial use.
21

Hindman discusses publicly held land that a settler reclaims and acquires. Section 5 of the Reclamation Act also addresses privately held land. It provides that “no such right [a right
to the use of water] shall permanently attach [to the privately
held land] until all payments therefore are made.” 32 Stat 389,
§ 5. Section 5 thus recognizes that, even though water put to beneficial use on privately owned land will become appurtenant to
the land, the right does not attach permanently until the landowner pays his or her proportionate share of the cost of constructing the irrigation works.

App. 361
In their view, the relationship between the United
States and plaintiffs is closer to that of the corporation
and its shareholders in Silvies River or Eldredge.
Neither party’s analogy is perfect. The United
States is not a corporate entity (either a for-profit corporation as in Walla Walla River or a mutual water
company as in Eldredge), and plaintiffs are not its
shareholders. However, the Court’s decision in Nevada
v. United States persuades us that the United States
holds the water right that it appropriated pursuant to
the 1905 Oregon act for the use and benefit of the landowners. In explaining that the United States held the
water right it acquired in the Orr Ditch suit in trust
for the landowners in the Newlands Project, the Court
explained that “the primary purpose of the Government in bringing the Orr Ditch suit in 1913 [and obtaining title to the water rights in the decree] was to
secure water rights for the irrigation of land that
would be contained in the Newlands Project, and that
[in doing so] the Government was acting under the
aegis of the Reclamation Act of 1902.” 463 US at 121.
In support of that statement, the Court noted that, in
filing the Orr Ditch suit, the United States had alleged
that the “litigation was designed to quiet title to the
Government’s right to the amount of water necessary
to irrigate the lands set aside for the [Newlands] Project,” and that the decree entered in that suit gave the
United States title to the water “ ‘for the irrigation of
232,800 acres of land on the Newlands Project, for storage in the Lahontan Reservoir, for generating power,
for supplying the inhabitants of cities and towns on the

App. 362
project and for domestic and other purposes.’ ” Id. at
121 n 8 (quoting decree).
That persuaded the Court that, in obtaining title
to the water under the aegis of the Reclamation Act,
the United States was not acting for its own benefit but
for the benefit of the persons who put the water to beneficial use reclaiming the land. As the Court explained
in Ickes, 300 US at 95, and reiterated in Nevada, 463
US at 123, “[a]ppropriation was made not for the use
of the government, but, under the Reclamation Act, for
the use of the land owners.” The same conclusion applies equally here. In appropriating water pursuant to
the 1905 Oregon act, the United States was acting under the aegis of the Reclamation Act, and the notices
that it filed in Oregon stated that it was appropriating
the water for virtually the same uses that the United
States stated that it was acquiring title to the water
in Nevada. In appropriating water under the 1905
act and pursuant to the Reclamation Act, the United
States was not acting as a for-profit company, as in
Walla Walla River, but was instead appropriating water for the use and benefit of landowners who would
put it to beneficial use reclaiming the land.22
The United States argues that Nevada, Ickes, and
a third case, Nebraska v. Wyoming, 325 US 589, 65 S Ct
22

To be sure, Congress required persons taking water from
a reclamation project to repay a proportionate share of the costs
of constructing the irrigation works. But the same was true in
both Ickes and Nevada. The payments were not intended for the
United States to turn a profit but to make the reclamation program self-funding.

App. 363
1332, 66 S. Ct. 1, 89 L Ed 1815 (1945), are all distinguishable on their facts. We agree that Ickes and Nebraska are distinguishable, at least as the parties have
presented this case to us. In both those cases, the Court
concluded that the landowners had acquired title to
the water.23 In this case, by contrast, the parties have
assumed that the United States holds the title to the
water right. Nevada, on the other hand, is far closer to
this case. In Nevada, the United States held title to the
water right as a result of the Orr Ditch suit, and we
assume that the United States holds title to the right
here. But, regardless of whether distinctions could be
drawn between Nevada and this case, we think that
the United States’ argument misses the larger point.
In that case, as well as in Ickes and Nebraska, the
Court recognized that, in acquiring water rights under
the aegis of the Reclamation Act, the United States
was not acting for its own benefit, but for the benefit of
those persons who Congress intended would put the
water to beneficial use reclaiming the land. That consistent recognition of the relationship created by the
23

In Ickes, the landowners had entered into contracts with
the Secretary of the Interior to acquire water rights from a reclamation project by repaying the proportionate share of the project’s
cost in ten annual installments. 300 US at 89-90. The Court explained that the landowners “had made all stipulated payments
and complied with all obligations by which they were bound to the
government, and * * * had acquired a vested right to the perpetual use of the waters as appurtenant to their lands.” Id. at 94. In
Nebraska, the landowners applied for and received state water
rights certificates as a result of putting the water to beneficial use
on their land. 325 US at 613. In both cases, the court concluded
that the landowners acquired the water right.

App. 364
Reclamation Act persuades us that, as a matter of
state law, the relationship between the United States
and plaintiffs is similar to that of a trustee and beneficiary.
The third factor is the contractual agreements between the United States and plaintiffs. That factor
bears on the second. Even though we have concluded
that, in appropriating the right to use the waters in the
Klamath Basin, the United States did so for the benefit
of the landowners, the United States and plaintiffs remained free within statutory and constitutional limits
to enter into agreements that clarified, redefined, or
even altered that relationship. Whether they did so requires a full consideration of the agreements between
plaintiffs and the United States. On that point, it appears that various plaintiffs have entered into different forms of agreement with the United States and
that those agreements have been renegotiated, perhaps more than once, since the Klamath Project began.
In attempting to assess the effect of the parties’
agreements on the relationship between them, we face
a significant difficulty. All the agreements between the
United States and plaintiffs in the present litigation
do not appear to be before us.24 The Court of Federal
Claims summarized the types of agreements that the
parties entered into, and it quoted portions of those
24

Plaintiffs included four agreements in their excerpts of record and the record discloses other agreements. Not only does it
appear from the Court of Federal Claims decision that many other
agreements exist, but the parties have not briefed either the history or the significance of those different agreements in any detail.

App. 365
agreements. However, we hesitate to rely on that summary of the parties’ agreements when, in assessing the
effect of those agreements on the state law issue that
the second certified question presents, we might view
other aspects of the agreements or their significance
under state law differently. We also note that the Court
of Federal Claims’ assessment of the significance of the
agreements may rest on a misperception of state law.
The Court of Federal Claims explained that, under the
1905 Oregon act, plaintiffs could obtain a property interest in the water right that the United States appropriated only if the United States executed a formal
written release of that interest, and it concluded that
none of those agreements was sufficient to give plaintiffs anything other than a contractual right to receive
water. As explained above, however, that understanding of the 1905 Oregon law is not correct.
We are aware that the agreements that the Court
of Federal Claims described in its decision are similar
to the two forms of agreement that the Court concluded
in Nevada supported its determination that the United
States held title to the water rights in that case in trust
for the landowners. However, without all the agreements before us and without briefing on them, we are
in no position to provide a definitive answer whether,
as a matter of state law, the various contractual agreements between the United States and plaintiffs support
or defeat plaintiffs’ claim that they have an equitable
or beneficial property interest in the water right that
the United States appropriated pursuant to the 1905
act.

App. 366
For instance, we cannot foreclose the possibility
that plaintiffs could have bargained away any equitable or legal right to the water in return for a reduced
payment schedule or forgiveness of their debt. Conversely, the United States may have granted plaintiffs either patents, water rights, or contractual rights
that would be sufficient, as a matter of state law, for
plaintiffs to have acquired at a minimum an equitable
property interest in the water.25 In sum, whatever conclusion we might draw on the basis of the first two factors noted above and whatever conclusion the Court of
Federal Claims’ summary of the various agreements
might suggest, we lack a sufficient basis to provide a
definitive answer to the court’s second question.

25

We also note that some of the agreements that the Court
of Federal Claims mentioned, coupled with the fact that the parties have stipulated that plaintiffs have paid all the costs of irrigation works, suggest that plaintiffs may themselves hold a
vested water right. See Ickes, 300 US at 94 (explaining that the
landowners in that case had acquired a vested water right by paying their proportionate share of the irrigation project’s construction costs and complying with their other contractual obligations).
We express no opinion on that point but mention it only to note
that the procedural posture in which this case arises poses additional difficulties in answering the court’s second question; that
is, it is difficult to discuss in the abstract whether plaintiffs have
an equitable interest in the water right in light of facts that suggest that some or all of them may have a greater property interest.

App. 367
C
The Federal Circuit’s third question asks:
“With respect to surface water rights where
appropriation was initiated under Oregon law
prior to February 24, 1909, and where such
rights are not within any previously adjudicated area of the Klamath Basin, does Oregon
State law recognize any property interest,
whether legal or equitable, in the use of the
Klamath Basin water that is not subject to adjudication in the Klamath Basin Adjudication?”
The answer to the Federal Circuit’s third question is
“yes.” A person asserting only a beneficial or equitable
property interest in a water right is not a “claimant”
who must appear in the Klamath Basin adjudication
and file a claim to determine that interest. Conversely,
a person who claims legal title to a water right must
file a claim in the adjudication or lose the right.26
In answering the court’s third question, we begin
with the text of ORS 539.210, which governs adjudication of pre-1909 water rights. That statute provides in
part:

26

Our answer to the court’s question is limited to the facts,
as we understand them to exist in the Klamath Basin adjudication – i.e., that the United States has filed a claim for legal title
to the water right that it appropriated under the 1905 Oregon
statute. We express no opinion on the permissible procedure if the
person who appropriated the water right fails to file a claim for
that right in the water rights adjudication, and another person
claims only an equitable interest in that right.

App. 368
“Whenever proceedings are instituted for determination of rights to the use of any water,
it shall be the duty of all claimants interested
therein to appear and submit proof of their respective claims, at the time and in the manner
required by law. Any claimant who fails to appear in the proceedings and submit proof of
the claims of the claimant shall be barred and
estopped from subsequently asserting any
rights theretofore acquired upon the stream
or other body of water embraced in the proceedings, and shall be held to have forfeited
all rights to the use of the water theretofore
claimed by the claimant.”
The United States argues that “[l]andowners asserting
vested property rights in the use of water diverted by
the Klamath Project are ‘claimants’ interested in the
‘determination of rights to the use’ of the water in the
Klamath Basin. Accordingly, any such rights must be
claimed in the [a]djudication or be forfeited.” Plaintiffs
and the State of Oregon argue that, under Oregon law,
a state water rights adjudication is a comprehensive
proceeding to determine the relative rights of persons
who have appropriated water rights and, as a consequence of that determination, issue water rights certificates. They argue that persons holding derivative
rights, whether in equity or contract, are not claimants
within the meaning of ORS 539.210 and need not file
a claim in the water rights adjudication.
Oregon’s water code does not define the term
“claimant,” and both the United States and plaintiffs
have proposed plausible interpretations of that term.

App. 369
The statutory context, however, cuts against the United
States’ interpretation in two respects. First, what is
now ORS 539.210 was first enacted as part of Oregon’s
1909 water code, and the current version of ORS
539.210 is virtually identical to that provision as it
first was enacted. Compare ORS 539.210, with Ore.
Laws 1909, ch 216, § 34. When the Oregon legislature
adopted the 1909 code, it did not define the term
“claimant.” However, it used that term to refer to a person who had appropriated a water right and could thus
claim legal title to the right; for example, it required
“claimants” to file a statement setting out facts necessary to establish an appropriation. See Ore. Laws 1909,
ch 216, § 14. Conversely, it did not require “claimants”
to file a statement showing that they had a right
to take water under another person’s appropriation.
Given that context, we conclude tentatively that the
term “claimant,” as used generally in the 1909 act and
as used specifically in the section that became ORS
539.210, does not refer to a person asserting only an
equitable or beneficial property interest in a water
right that another person appropriated.
A second statutory clue points in the same direction. Under Oregon’s water code, a claim for water, if
proved, results in the issuance of a certificated water
right giving the holder title to the right. See Fort Vannoy, 345 Ore. at 84 (describing that process); ORS
539.140 (same). A person claiming an equitable interest in a water right does not receive a certificated right.
See Fort Vannoy, 345 Ore. at 84-86 (recognizing that
a member of an irrigation district had an equitable

App. 370
interest in a certificated water right issued to the district). By implication, a person holding an equitable
interest need not file a claim in a water rights adjudication and is thus not a “claimant” within the meaning
of ORS 539.210.
That has long been the rule in Oregon. As this
court explained 85 years ago, “[i]f this were a proceeding for determining the relative rights between different appropriators [i.e., a streamwide adjudication],
“the court would not consider the controversy between
an appropriator and those claiming under him.” Willow Creek, 119 Ore. at 191. Under Oregon law, controversies between appropriators and those claiming
under them are not part of a water rights adjudication
to determine the relative rights of different appropriators. The court has, however, recognized one exception,
and that exception proves the rule, as the facts in Willow Creek illustrate.
In Willow Creek, two persons had initiated a water
rights adjudication in 1909 to determine the right to
use the water in Willow Creek. Id. at 163.27 The Willow
Creek Land and Irrigation Company (the irrigation
company) had appropriated water from that creek for
others’ use, and the irrigation company (but not its
shareholders who claimed a beneficial property right)
appeared in the 1909 adjudication. Id. at 163, 181-82.
27

The water rights adjudication in Willow Creek arose under
Oregon’s 1909 water rights code. See In re Willow Creek, 74 Ore.
592, 144 P. 505, 146 P. 475 (1915) (considering challenges to the
procedure that gave rise to the first decree regarding Willow
Creek).

App. 371
Some of the irrigation company’s water rights “had become vested through appropriation and use, while others were at that time inchoate.” Id. at 163. Recognizing
that fact, the first decree entered in 1916 provided that
the irrigation company would be allowed until January
1, 1918, “to complete its said irrigation system and apply the impounded waters to beneficial use.” Id. at 16364.28
In 1920, the state gave notice to all parties interested in the inchoate rights of the irrigation company
to appear and determine the extent to which those inchoate rights had been realized. The irrigation company29 appeared at the supplemental proceeding and
argued that the only issue properly before the court
28

The inchoate water rights apparently resulted from the
common-law rule, stated in Nevada Ditch, that one person can
appropriate water for future users with an appropriation date
that relates back to the date of the notice, as long as the water is
diverted and put to beneficial use within a reasonable time. In
Willow Creek, the 1909 streamwide adjudication occurred before
a reasonable time had passed, with the result that the 1916 decree recognized that the irrigation company held inchoate water
rights but that the court could not determine the extent of those
rights at that time.
29
Between the 1909 adjudication and the 1920 supplemental
adjudication, the irrigation company transferred the irrigation
works and the water rights to a holding company. Willow Creek,
119 Ore. at 165. The irrigation company sold land to settlers and
gave them a proportionate share of the stock in the holding company. Id. at 165. The irrigation company also went into bankruptcy during that period, and another corporation acquired its
remaining assets. Id. Those corporate changes are not material to
our answer to the Federal Circuit’s third question, and we have
referred solely to the “irrigation company” for ease of reference.

App. 372
was the extent to which water had been put to beneficial use – i.e., the extent to which the inchoate rights
had been realized. Persons who had agreed to purchase
land and appurtenant water rights from the irrigation
company appeared and claimed that the irrigation
company unlawfully had prevented them from putting
water to beneficial use on their lands by putting the
water to use instead on the company’s lands. Id. at 182,
191-92. Those persons did not own the water rights directly but held shares in the irrigation company, which
claimed legal title to the water right. Id. at 165.
In resolving the parties’ arguments, this court
noted that the only issue before it was the right to water under a single certificate and that the disputes between an appropriator and persons taking under the
appropriator “ordinarily would not be considered in a
proceeding of this nature” – i.e., in a supplemental proceeding to adjudicate rights among different appropriators. Id. at 182. The court reasoned, however, that it
could not determine the land on which the water had
been put to beneficial use and thus could not issue a
water rights certificate to the irrigation company without first resolving the subsidiary dispute between the
irrigation company and the persons who took water
under it. Id. In resolving that subsidiary dispute, the
court held that the irrigation company could not use
the water it had appropriated to benefit its land to the
detriment of the persons who had acquired land and
derivative water rights from it. Id. at 196-98. The court
determined the land to which the water rights attached
and held that the irrigation company “is entitled to a

App. 373
certificate of its water right for the benefit of the land
owned by its stockholders.” Id. at 199.
Willow Creek is telling in at least four respects.
First, the court recognized that the irrigation company
held the water right for the benefit of the stockholders.
Second, the court did not hold that the stockholders’
failure to file a claim in the initial adjudication precluded them asserting an equitable interest in the
certificated water right that the irrigation company
sought. Third, the court recognized that, as a general
rule, the only claims that will be adjudicated in a water
rights adjudication are the competing claims of different appropriators, not the equitable interests of those
persons who take under an appropriator. Finally, it
held that that rule is not without exceptions; controversies between an appropriator and the persons who
take under that appropriator may be resolved in a general adjudication when necessary to determine the extent of a certificated water right.
Given Willow Creek and the other statutory context discussed above, we conclude that the term “claimant” in ORS 539.210 refers to persons claiming legal
title to a water right. The term does not include persons asserting only an equitable or beneficial interest
in a water right that another person appropriated. It
follows that, to the extent that plaintiffs assert only a
beneficial or equitable property interest in water rights
that the United States appropriated, plaintiffs are not
claimants within the meaning of ORS 539.210 who
must file claims in the Klamath Basin adjudication or

App. 374
lose their right to claim a beneficial or equitable property interest in that water right.
It is necessary to add a caveat to our answer. Given
the limited record before us, we cannot foreclose the
possibility that circumstances comparable to those in
Willow Creek might arise in the Klamath Basin adjudication that would permit, in that adjudication, the
determination of the interests of persons claiming an
equitable or beneficial property interest in a water
right that another person had appropriated. Subject to
that caveat, however, we can say that persons asserting only an equitable or beneficial property interest in
a water right that someone else appropriated are not
“claimants” within the meaning of ORS 539.210 who
must file claims in the Klamath Basin adjudication.
IV
In summary, in answering the Federal Circuit’s
questions, we have assumed that the United States
appropriated the right to use the waters described in
its notice and that it presently holds legal title to that
water right. We also have assumed that plaintiffs are
asserting only an equitable or beneficial property interest in the water right to which the United States
holds legal title. Who presently holds legal title to that
water right and the scope of that right are questions
for the Klamath Basin adjudication, and we express no
opinion on those issues. Given those assumptions, we
have answered the court’s questions as follows:

App. 375
1. The 1905 Oregon act did not preclude plaintiffs from acquiring an equitable or beneficial property
interest in a water right to which the United States
holds legal title. Moreover, under the 1905 act, a formal
written release from the United States is not necessary
for plaintiffs to have acquired an equitable or beneficial property interest in the water right that the
United States appropriated.
2. Under Oregon law, whether plaintiffs acquired
an equitable or beneficial property interest in the water right turns on three factors: whether plaintiffs put
the water to beneficial use with the result that it became appurtenant to their land, whether the United
States acquired the water right for plaintiffs’ use and
benefit, and, if it did, whether the contractual agreements between the United States and plaintiffs somehow have altered that relationship. In this case, the
first two factors suggest that plaintiffs acquired a beneficial or equitable property interest in the water right
to which the United States claims legal title, but we
cannot provide a definitive answer to the court’s second
question because all the agreements between the parties are not before us.
3. To the extent that plaintiffs assert only an
equitable or beneficial property interest in the water
right to which the United States claims legal title in
the Klamath Basin adjudication, plaintiffs are not
“claimants” who must appear in that adjudication or
lose the right. As a general rule, equitable or beneficial
property interests in a water right to which someone
else claims legal title are not subject to determination
in a state water rights adjudication.

App. 376
The certified questions are answered.

Concur by: WALTERS
Concur
WALTERS, J., concurring.
The court answers “no” to the restated second
question posed by the Federal Circuit: whether, under
Oregon law, beneficial use alone is sufficient to acquire
a beneficial or equitable property interest in a water
right to which another person holds legal title. ___ Ore.
at ___ (slip op at 29).1 I agree with that answer and
with the majority’s further statement that, even considering additional factors, we cannot reach a definitive answer to a more pointed question-whether
plaintiffs in this case acquired a beneficial or equitable
property interest in a water right held by the United
States. ___ Ore. at ___ (slip op at 41).
I write to explain the reasons that the latter, more
specific, question is an open one that, in my view, cannot be resolved at this time on this record.
First, this case reaches us in a posture in which
the following issues are contested in the Klamath Basin adjudication and have not been decided by any
1

We do not expressly consider the interests of irrigation districts that “receive” water from the Klamath Basin Reclamation
Project.

App. 377
court: (1) whether beneficial use is necessary to the
United States’ appropriation of water rights; (2) whether
the United States has appropriated the water rights at
issue here; and (3) whether plaintiffs also have appropriated water rights and own them independently or
jointly with the United States. ___ Ore. at ___ (slip op
at 22 n 14). In answering the questions posed by the
Federal Circuit, we are nevertheless asked to assume
that the United States has appropriated and acquired
sole ownership of the water rights at issue. See ___ Ore.
at ___ (slip op at 22) (“[W]e assume that the United
States appropriated water rights pursuant to the 1905
statute and that it acquired and presently holds legal
title to use the water for the purposes stated in its notice”) (footnote omitted); see also ___ Ore. at ___ (slip op
at 47-48) (summarizing assumptions used in answering certified questions). In other words, we are asked
to assume that the United States has accomplished
whatever measures were necessary to perfect appropriation, without deciding whether beneficial use by
landowners was one of those measures and without deciding whether plaintiffs also appropriated and acquired ownership of the rights at issue.
When this court previously has considered the nature of the interests of water users or providers, it has
done so on the premise that beneficial use is a necessary prerequisite to perfection of appropriation and in
the context of discussing perfected (and sometimes certificated and thereby vested) appropriation. As the majority explains, it has been the law in Oregon since at
least 1896 that appropriation is perfected “only when

App. 378
the ditches and canals are completed, the water diverted from its natural stream or channel, and actually
used for beneficial purposes.” Nevada Ditch Co. v. Bennett, 30 Ore. 59, 90, 45 P 472 (1896). Thus, as the court
recently stated, in Fort Vannoy Irrigation v. Water Resources Comm., 345 Ore. 56, 88, 188 P.3d 277 (2008), a
joint effort between landowners and irrigation companies or districts has been required to “bring the certificated water rights into existence” and beneficial use
has been one action required in that joint effort.2 When
we are asked to assume instead, as we understand that
we have been instructed to do, that beneficial use may
not be necessary to perfected appropriation, and that
plaintiffs do not hold perfected or certificated interests,
our precedent, premised as it is on different assumptions, is of little assistance.
Second, the Federal Circuit Court has not defined
what it means by the term “beneficial or equitable
property interest.” This court’s prior consideration of
the nature of the interests held by landowners who apply water to beneficial use has not been for the purpose
of determining whether those interests are “property”
as that term is used in the United States or Oregon
Constitutions or whether the government must pay

2

In Fort Vannoy, the water rights at issue were not only appropriated, they were also certificated. As the court explained in
that case, “the issuance of a water right certificate is the
act that vests a certificated water right in a party. See, e.g., ORS
537.250(3) (describing significance of issuance of water right certificate).” Fort Vannoy, 345 Ore. at 76.

App. 379
just compensation if it “takes” those interests.3 When
the court’s prior cases use terms such as “equitable title,” or liken the relationships between the parties to
other equitable relationships, they do so not only on
the basis of assumptions that are inapplicable here,
but also for the purpose of answering legal questions
very different from the one that the Federal Circuit
poses. A brief survey of the questions addressed in
those cases demonstrates my point.
In Eldredge v. Mill Ditch Co., 90 Ore. 590, 177 P
939 (1919), this court concluded that a quasi-public irrigation company served as the agent of its stockholders when it delivered water for their use. The court
held that equity precluded a third-party judgment
creditor from forcing a sale of the company’s interests
to the detriment of the stockholders. Id. at 596.
Re Rights to Waters of Silvies River, 115 Ore. 27,
237 P 322 (1925), was a case in which three men posted
a notice of appropriation and then formed a corporation to serve as their agent in constructing irrigation
ditches and making water available for use. The court
held that the priority date for the water right that the
corporation acquired related back to the date of the
men’s original notice of appropriation. Id. at 98-103.
3

As we noted in Doyle v. City of Medford, 347 Ore. 564, n 4,
227 P.3d 683 (2010), the question whether a state interest
amounts to a federally protected property interest (in that case
under the Due Process Clause) is a federal question. Although we
can describe state interests, the legal conclusion as to whether
those interests constitute “vested rights” or “property” is a federal
question.

App. 380
In In re Waters of Walla Walla River, 141 Ore. 492,
16 P.2d 939 (1933), this court reached a different conclusion concerning a disputed priority date. The court
held that a private irrigation company that had appropriated water in 1903 was the principal and that landowners who were not shareholders in the company, but
who put its water to beneficial use pursuant to rental
contracts, served as the company’s agents. When some
of the landowners later formed a new irrigation company, the new water rights acquired did not relate back
to the earlier 1903 appropriation because the landowners previously had not obtained “any rights in the use
of the water supplied by [the original company] except
those given by, and to the extent of, their rental contracts.” Id. at 498.
In Fort Vannoy, the court noted that a statute that
required an irrigation district to hold all property it acquired “in trust for * * * the uses and purposes set
forth in the Irrigation District Law,” gave rise to a trust
relationship between the irrigation district and its
members, 345 Ore. at 85-86 (emphasis omitted), but
the court characterized the relationship between the
district and the landowners who put the water to beneficial use as one of principal (district) and agents
(landowners). Id. at 88-90. To resolve the particular
question before it, the court looked to the statutory allocation of rights and responsibilities between the irrigation district, on the one hand, and its members and
water users, on the other hand, and concluded that
neither the members nor the users were “holder[s] of
any water use subject to transfer.” Therefore, the court

App. 381
held, the members did not have the right to change the
point of diversion associated with the water right. Id.
at 86-93.
Although in each of those cases “the water of a
public stream [was] eventually applied to a beneficial
use, and the general purposes of such appropriations
accomplished,” Nevada Ditch, 30 Ore. at 98, factors
other than intended benefit or use determined the answers to the particular legal questions presented. And,
for the most part, those cases involved the rights of
third parties vis-a-vis the irrigation districts. Only Fort
Vannoy decided the nature of the interests acquired by
water users. In that case, it was the statutory allocation of rights and responsibilities, not whether the legislature intended that users benefit by the actions of
irrigation districts, that was determinative.
Labels and short-hand descriptions used by the
court in particular contexts for particular purposes do
not resolve other legal questions, particularly difficult
ones. In enacting and proceeding under the Reclamation Act, the United States intended, among other
things, to provide some benefit to the lands that it
helped to irrigate. Our cases, however, have not decided whether a government’s intent to bestow such a
benefit alone creates an interest of legal consequence.
Without actually resolving the threshold legal issue of
whether beneficial use is necessary to perfected appropriation by the United States, without a clear understanding of the federal standard that a “beneficial or
equitable property interest” must meet, and without
all the facts necessary to determine whether that

App. 382
standard has been met, we certainly can say that the
answer to the Federal Circuit Court’s second question
is “no,” but I emphasize that that is all that we can say.
Balmer and Linder, JJ., join in this opinion.

App. 383
FILED: January 29, 2009
IN THE SUPREME COURT
OF THE STATE OF OREGON
(Federal CC No. 2007-5115;
SC S056275)
KLAMATH IRRIGATION DISTRICT, TULELAKE
IRRIGATION DISTRICT, KLAMATH DRAINAGE
DISTRICT, POE VALLEY IMPROVEMENT DISTRICT,
SUNNYSIDE IRRIGATION DISTRICT, KLAMATH
BASIN IMPROVEMENT DISTRICT, KLAMATH HILLS
DISTRICT IMPROVEMENT CO., MIDLAND DISTRICT
IMPROVEMENT CO., MALIN IRRIGATION DISTRICT,
ENTERPRISE IRRIGATION DISTRICT, PINE GROVE
IRRIGATION DISTRICT, WESTSIDE IMPROVEMENT
DISTRICT NO. 4, SHASTA VIEW IRRIGATION DISTRICT,
VAN BRIMMER DITCH CO., FRED A. ROBISON,
ALBERT J. ROBISON, LONNY E. BALEY, MARK R.
TROTMAN, BALEY TROTMAN FARMS, JAMES L.
MOORE, CHERYL L. MOORE, DANIEL G. CHIN,
DELORIS D. CHIN, WONG POTATOES, INC., MICHAEL
J. BYRNE, DANIEL W. BYRNE, and BYRNE BROTHERS,
Plaintiffs,
v.
UNITED STATES OF AMERICA and PACIFIC COAST
FEDERATION OF FISHERMEN'S ASSOCIATIONS,
Defendants,
On certified questions from the United States
Court of Appeals for the Federal Circuit;
certification order dated July 16, 2008;
considered and under advisement on
January 6, 2009

App. 384
Counsel: Michael H. Simon, of Perkins Coie LLP, Portland, filed the response for plaintiffs Klamath Irrigation
District, Tulelake Irrigation District, Klamath Drainage
District, Poe Valley Improvement District, Sunnyside Irrigation District, Klamath Basin Improvement District,
Klamath Hills District Improvement Co., Midland District Improvement Co., Malin Irrigation District, Enterprise Irrigation District, Pine Grove Irrigation District,
Westside Improvement District No. 4, Shasta View Irrigation District, Van Brimmer Ditch Co., Fred A. Robison,
Albert J. Robison, Lonny E. Baley, Mark R. Trotman, Baley Trotman Farms, James L. Moore, Cheryl L. Moore,
Daniel G. Chin, Deloris D. Chin, Wong Potatoes, Inc., Michael J. Byrne, Daniel W. Byrne, and Byrne Brothers to
the memoranda of amicus curiae Oregon Water Resources
Department, and defendants the United States and Pacific Coast Federation of Fishermen’s Associations.
Stephanie M. Parent, Portland, filed the memorandum
of law for defendant Pacific Coast Federation of Fishermen’s Associations and amici curiae Institute for
Fisheries Resources, the Wilderness Society, Klamath
Forest Alliance, Oregon Wild, WaterWatch of Oregon,
Northcoast Environmental Center, Sierra Club, and
Natural Resources Defense Council.
Suzanne Bratis, Assistant U.S. Attorney, filed the response of defendant the United States to the memorandum of law of amicus curiae Oregon Water
Resources Department.
Denise G. Fjordbeck, Attorney-in-Charge, Salem, filed
the memorandum of law for amicus curiae Oregon
Water Resources Department. With her on the

App. 385
memorandum were Hardy Myers, Attorney General,
and Mary H. Williams, Solicitor General.
Opinion
The certified questions are accepted.
PER CURIAM
The United States Court of Appeals for the Federal Circuit has certified three state law questions to
this court. The parties in the underlying federal litigation and the Oregon Water Resources Department, appearing as an amicus curiae in this court, have filed
extensive memoranda variously opposing and supporting this court’s acceptance of those questions. See ORS
28.200 (authorizing Supreme Court to accept certified
questions under certain conditions); Western Helicopter Services v. Rogerson Aircraft, 311 Ore. 361, 364-71,
811 P.2d 627 (1991) (explaining bases for accepting or
declining to accept certified questions). After considering the parties’ arguments, we conclude that it is appropriate to accept the certified questions.
Before turning to the parties’ arguments, we first
put the three questions that the Federal Circuit has
asked in context. The Federal Bureau of Reclamation
(the Bureau) manages the Klamath Project, which
stores and supplies water to farmers, irrigation districts, and federal wildlife refuges in the Klamath
River basin.1 The plaintiffs in the underlying federal
litigation are farmers and irrigation districts that use
water from the Klamath Project for irrigation and
1

We take the facts from the parties’ statement of agreed facts.

App. 386
other agricultural purposes. As a result of drought conditions in 2001, the Bureau terminated the delivery of
water to plaintiffs in order to make water available for
three species of endangered fish.2
Claiming a property right in the water, plaintiffs
brought an action in the Court of Federal Claims alleging that the United States had unconstitutionally
taken their property. Relying on an Oregon statute, the
Court of Federal Claims ruled that plaintiffs had no
equitable right in the water that they used to irrigate
their land. See Klamath Irrigation District v. United
States (Klamath I), 67 Fed Cl 504, 526-27 (2005) (holding that, under a 1905 Oregon law, the United States
“obtained rights to the unappropriated water of the
Klamath Basin”). It followed, the Court of Federal
Claims concluded, that plaintiffs’ takings claim based
on the existence of an equitable interest in the water
necessarily failed. See id. at 540 (so concluding).3
Plaintiffs appealed to the Federal Circuit. As the
parties framed the issues in the Federal Circuit, the
2

The Bureau was able to make some water (approximately
70,000 acre feet) available in July 2001.
3
The Court of Federal Claims concluded that plaintiffs’ interests in the water were either contractual or, to the extent that
some plaintiffs acquired water rights as a result of patents issued
by the United States or permits issued by Oregon, those rights
were junior to the rights that the United States and certain tribes
held. Klamath I, 67 Fed Cl at 531-40. The court granted summary
judgment for the United States on plaintiffs’ claim that they had
a property interest in the water, which the Government took. In
a later order, the court focused on plaintiffs’ contractual rights to
receive water and held that the sovereign acts doctrine was a defense to plaintiffs’ breach of contract claim. Klamath Irrigation
District v. United States (Klamath II), 75 Fed Cl 677, 695 (2007).

App. 387
primary issue arose out of an intersection of federal
and state law. We begin by briefly describing the federal statute, which provides the context for the state
law issue. Congress passed the Reclamation Act of
1902 to provide for the “construction and maintenance
of irrigation works for the reclamation of arid and semiarid lands” in the western states and territories. Reclamation Act of 1902, ch. 1093, § 1, 32 Stat. 388. The
Act contemplates that, subject to certain conditions,
the Secretary of the Interior will make public lands,
irrigated pursuant to the Act, available to settlers and
also will make water from the irrigation projects available for privately held land. Id. §§ 3-4, 32 Stat. 389.
Section 8 of the Act provides that the Act does not affect state laws “relating to the control, appropriation,
use, or distribution of water used in irrigation, or any
vested right thereunder, and the Secretary of the Interior, in carrying out the provisions of this Act, shall proceed in conformity with such laws.” Id. § 8, 32 Stat. 390.
Section 8 then adds the following proviso: “[T]he right
to the use of water acquired under the provisions of
this Act shall be appurtenant to the land irrigated, and
beneficial use shall be the basis, the measure, and the
limit of the right.” Id.
In their briefs to the Federal Circuit, both plaintiffs and the United States explained that section 8
posed a problem for the Secretary in implementing the
Act. In most western states, a person may not appropriate water without first putting it to beneficial use.
However, the size of many of the federal reclamation
projects and the amount of time required to construct
those projects prevented the water that those projects

App. 388
were supposed to deliver from being put to beneficial
use for many years. The Secretary thus ran the risk
that other users would appropriate the water before
the Secretary completed the irrigation projects.
The Oregon legislature responded to that problem
in 1905. It enacted a law that provides, in part, that,
when an officer of the United States, “authorized by
law to construct works for the utilization of water
within this State,” files with the state engineer “a written notice that the United States intends to utilize certain [unappropriated] waters,” those waters “shall not
be subject to further appropriation under the laws of
this State, but shall be deemed to have been appropriated by the United States,” provided certain conditions
are met. Or. Laws 1905, ch. 228, § 2. The 1905 Act then
added,
“No adverse claims to the use of the water required in connection with such plans shall be
acquired under the laws of this State except
as for such amount of said waters described in
said notice as may be formally released in
writing by an officer of the United States
thereunto duly authorized.”
In 1905, an official with the United States Geological Survey posted a notice claiming “all the unappropriated waters of the Klamath River to be used
for irrigation, domestic, power, mechanical, and other
beneficial uses” and stating that the waters “hereby
appropriated [are] to be stored by means of a dam located across the Klamath River.” Later that year, the
Bureau of Reclamation filed a notice with the state

App. 389
engineer stating that “ ‘the United States intends to
utilize [a]ll of the waters of the Klamath Basin in
Oregon’ for purposes of ‘the operation of works for the
utilization of water under the provisions of the Reclamation Act.’ ” The Bureau later filed plans for the proposed works and proof of authorization of the Klamath
Project.
With that statutory background in mind, we turn
to the arguments that plaintiffs and the United States
raised in the Federal Circuit.4 In their opening brief,
plaintiffs assumed that the United States acquired
rights to water for use in the Klamath Project when it
filed notices with the state in 1905 in compliance with
state law. Plaintiffs argued, however, that whatever
rights the United States acquired in the water from
the Klamath River as a result of its compliance with
the 1905 state law, the United States did not hold the
exclusive right to use the water. Rather, relying on
three United States Supreme Court cases, plaintiffs
contended that the farmers and irrigators to whom the
United States delivered the water obtained, at a minimum, an equitable interest in the water when they put
it to beneficial use. See Nevada v. United States, 463
US 110, 126, 103 S Ct 2906, 77 L Ed 2d 509 (1983) (explaining that “the beneficial interest in the [water]
rights confirmed to the Government resided in the
owners of the land within the [reclamation] Project to
which these waters became appurtenant upon the
4

We summarize the parties’ arguments only to put the Federal Circuit’s questions in context. We express no opinion on the
merits of those arguments.

App. 390
application of Project water to the land”); Nebraska v.
Wyoming, 325 US 589, 613-14, 65 S Ct 1332, 66 S. Ct.
1, 89 L Ed 1815 (1945) (discussing the United States’
and landowners’ respective rights to use water from
reclamation projects); Ickes v. Fox, 300 US 82, 94-96, 57
S Ct 412, 81 L Ed 525 (1937) (same).
Plaintiffs also addressed a state law defense that
the United States had asserted (and that the Court of
Federal Claims had accepted) to their claimed equitable interest. Plaintiffs noted that the Court of Federal
Claims had interpreted the 1905 Oregon statute as
barring their claimed interest, but they contended that
the federal court had read that statute too broadly. In
their view, the 1905 Oregon statute did not preclude
persons who received water from a Reclamation Act
project from obtaining a property interest in the water.5
In its answering brief, the United States argued
that state law provided a complete answer to plaintiffs’
claimed property right. It emphasized that, under section 8 of the Reclamation Act, state law controls the
question of how water for federal irrigation projects
will be appropriated and who holds the water right.
The United States did not dispute that the three cases
on which plaintiffs relied recognized that the landowners who had used water from federal reclamation
5

Plaintiffs also argued, in their reply brief, that to the extent
Oregon law differed, the proviso to section 8 of the Reclamation
Act conflicted with that law and controlled. The United States, in
its answering brief, anticipated that argument and asserted that
the proviso was narrower than plaintiffs contended.

App. 391
projects had acquired a property interest in it. The
United States argued, however, that those cases did
not announce a general rule of law applicable to all
western states. In the government’s view, each of those
cases turned on and was limited to the specific facts
and state laws at issue in those cases.
The United States then turned to Oregon’s 1905
law. It contended that, under that law, it had acquired
the right to all unappropriated waters in the Klamath
River when it filed its notice of intent with the state
engineer and later met the other requirements of that
law. The United States further argued that, under the
1905 Oregon law, the United States’ formal written release was necessary before plaintiffs could acquire any
interest, equitable or otherwise, in the water rights it
had acquired. It followed, the United States concluded,
that without a written release of the water rights it
held, plaintiffs had no equitable interest in the water.
Given that debate, the Federal Circuit certified the
following three questions to this court:
“1. Assuming that Klamath Basin water for
the Klamath Reclamation Project ‘may be
deemed to have been appropriated by the
United States’ pursuant to Oregon General
Laws, Chapter 228, § 2 (1905), does that statute preclude irrigation districts and landowners from acquiring a beneficial or equitable
property interest in the water right acquired
by the United States?
“2. In light of the statute, do the landowners
who receive water from the Klamath Basin

App. 392
Reclamation Project and put the water to beneficial use have a beneficial or equitable property interest appurtenant to their land in the
water right acquired by the United States,
and do the irrigation districts that receive
water from the Klamath Basin Reclamation
Project have a beneficial or equitable interest
in the water right acquired by the United
States?
“3. With respect to surface water rights where
appropriation was initiated under Oregon law
prior to February 24, 1909, and where such
rights are not within any previously adjudicated area of the Klamath Basin, does Oregon
State law recognize any property interest,
whether legal or equitable, in the use of the
Klamath Basin water that is not subject to
adjudication in the Klamath Basin Adjudication?”
Klamath Irrigation Dist. v. United States (Klamath
III), 532 F.3d 1376, 1377-78 (Fed Cir 2008).
As we understand the first two certified questions,
they go to the state law defense that the United States
raised in its answering brief. The first question seeks
to determine whether, assuming that the United
States appropriated water rights for the Klamath Project pursuant to the 1905 Oregon statute, that statute
precludes other persons from obtaining a beneficial or
equitable interest in those rights. The second question
depends on the answer to the first. That is, assuming
that the United States appropriated water pursuant to
the 1905 statute and assuming that the 1905 statute

App. 393
is not an absolute bar to obtaining an equitable interest in those water rights, the next question is whether,
under Oregon law, beneficial use by the person who receives the water from the Klamath Project is sufficient
to give that person a beneficial or equitable interest in
the water. The third question addresses a different issue that arises because of an ongoing, separate state
adjudication of the rights to the surface water in the
Klamath River basin. As we understand that question,
it asks whether, under Oregon law, anyone may assert
either a legal or an equitable property interest in water from the Klamath Project without first having
gone through the pending state water rights adjudication.
All three questions present issues of state law that
are both preliminary to and potentially dispositive of
plaintiffs’ federal takings claim. If, for instance, the
United States is correct that the 1905 Act precludes
plaintiffs from obtaining an equitable interest in any
water right that the United States acquired under that
statute, then that could resolve plaintiffs’ takings
claim, at least as plaintiffs reportedly have litigated
that claim in federal court. Similarly, whether beneficial use by the landowners is sufficient to create an equitable interest under state law is also potentially
dispositive. Finally, if the equitable interest that plaintiffs assert in the water right may or must be litigated
in the pending state water rights adjudication and if,
as the United States argues, plaintiffs disclaimed reliance in the federal litigation on any water right that
will be determined in the pending state water rights

App. 394
adjudication, then our answer to the third question
also may dispose of plaintiffs’ federal takings claim.
At first blush, it appears that the certified questions satisfy the five statutory factors discussed in
Western Helicopter Services; that is, an appropriate
federal court has certified the questions, the questions
presented are legal, the questions present issues of
Oregon law, the answers to those questions could resolve the federal claim, and the certifying court has
concluded that there is no controlling Oregon precedent. See ORS 28.200; Western Helicopter Services, 311
Ore. at 364-65, 811 P.2d 627 (listing those factors).
That conclusion is not without objection, however. The
Oregon Water Resources Department (the state) has
appeared as an amicus in this court and raised objections to accepting the certified questions. The United
States and the Pacific Coast Federation of Fishermen’s
Associations, which intervened as a defendant in the
federal action, have filed memoranda in this court
agreeing in part with the state. Plaintiffs, for their
part, respond that the state and the opposing parties
in the federal action are attempting to relitigate issues
that the Federal Circuit already has decided against
them.
As we understand the state’s and the parties’
memoranda, they raise essentially three issues. First,
the state and others argue that, because of the litigation strategy that plaintiffs adopted in the Court of
Federal Claims, the issues raised by the Federal Circuit’s three questions are not properly before that court
and any answers that we might give to those questions

App. 395
are irrelevant to the takings claim that plaintiffs are
pursuing in federal court. We doubt, however, that the
Federal Circuit would have certified the three questions to us if it had not concluded that the state law
issues they raise are properly before it. Indeed, Judge
Gajarsa dissented from the Federal Circuit’s decision
to certify those questions for the very reason that the
state now advances. Klamath III, 532 F.3d at 1378
(Gajarsa, J., dissenting). The majority, however, certified the questions over the dissenting judge’s objection.
We are hesitant to second-guess the Federal Circuit majority’s apparent conclusion that the state law
issues it certified to us are properly before it. Beyond
that, we question the premise of the state’s argument.
The United States has asserted that the 1905 Oregon
statute provides a complete defense to plaintiffs’
claimed property interest. The Federal Circuit reasonably could conclude that plaintiffs’ reported litigation
strategy did not preclude either the United States from
relying on state law as a defense or the Federal Circuit
from addressing that defense. Moreover, the United
States has argued that plaintiffs’ reported litigation
strategy makes the third certified question material, a
proposition with which we agree.6 In short, even if we
thought that we had the authority to second-guess the
6

If, as the United States argues, plaintiffs have disclaimed
reliance in the federal action on any property interest that may
be adjudicated in the pending state water rights adjudication,
then the answer to the third question could provide an alternative
basis for resolving plaintiffs’ federal action.

App. 396
Federal Circuit’s determination of which issues are
and are not properly before it, we see no reason to exercise that authority here.
The state also argues that the parties have not
been able to agree on all the facts; it notes that the parties have disagreed regarding one paragraph, paragraph 23, in the statement of facts that the parties
submitted. That paragraph addresses plaintiffs’ litigation strategy and the resulting limitation that the
Court of Federal Claims order places on plaintiffs. In
certifying the three questions to us, the Federal Circuit
noted the parties’ disagreement on that point but expressed its conclusion that their disagreement would
not preclude us from accepting certification.
Although the Federal Circuit did not explain the
basis for its conclusion, it presumably concluded that
plaintiffs’ litigation strategy did not bar it from considering the state law issues that the United States had
raised as a defense (and on which the Court of Federal
Claims had relied) to plaintiffs’ federal takings claim.
As noted above, we think that the question of which
issues are properly before the Federal Circuit is a procedural issue for that court; it is not a disputed fact
that would preclude us from accepting the certified
questions.
Finally, the state notes that the parties to the federal proceeding, as well as other parties who are not
before that court, have invested a substantial amount
of time and effort in the pending state water rights adjudication. The state water rights adjudication has

App. 397
been ongoing since 1975 and, when completed, will provide a comprehensive determination of the right to use
the surface water in the Klamath River basin. See
United States v. Oregon, 44 F.3d 758 (9th Cir 1994) (describing Klamath Basin adjudication). The state draws
two conclusions from the existence of the pending state
water rights adjudication. First, the state and others
suggest that we should not decide the questions that
the Federal Circuit has asked us until those questions
are presented in the context of the state water rights
adjudication. Second, the state notes that, if we decide
the questions that the Federal Circuit has asked, the
United States may withdraw from participating in the
pending state water rights adjudication on the ground
that the adjudication is no longer comprehensive. See
id. at 770 (holding that the Klamath Basin adjudication was the sort of comprehensive proceeding to which
Congress had waived the United States’ sovereign immunity).7
We have no wish to interfere with or unnecessarily
anticipate the issues raised in the pending state water
7

In United States v. Oregon, the Ninth Circuit rejected the
United States’ argument that a prior determination of some individual water rights in the Klamath Basin through the permit process meant that the pending Klamath Basin adjudication was not
comprehensive within the meaning of the McCarran Amendment.
44 F.3d at 767-68. Given that holding, we do not give great weight
to the concern that the United States may withdraw from the
pending state water rights adjudication; that is, in light of the
Ninth Circuit’s holding, it is difficult to see how any issues of state
water rights law that we may decide in answering the Federal
Circuit’s questions would render the state water rights adjudication not comprehensive.

App. 398
rights adjudication. As we understand the import of
the Federal Circuit’s certification order, however, the
Federal Circuit has determined that those state law
questions are material to plaintiffs’ federal takings
claims. The certification order also implies that, if we
do not accept certification, the Federal Circuit will go
ahead and decide those state law issues in the course
of resolving plaintiffs’ federal takings claim. It follows
that the issue posed by the certification order is not
whether those state law issues should be decided; rather, the issue is which court (this court or the Federal
Circuit) should decide them. The state’s and others’
concerns, as we understand them, go to the federal
court’s refusal to stay its proceedings pending the completion of the state water rights adjudication. Whatever the merits of that decision, the decision whether
to stay the federal proceedings is a matter for the federal courts; it provides no basis for this court to decline
to accept the certified questions.
Having considered the parties’ arguments, we conclude that it is appropriate to accept the certified questions. Some of the parties have asked us, if we accept
the certified questions, either to rephrase them or to
answer them in a particular order. The state asks us to
rephrase the first and second questions to make clear
that we are not deciding whether the United States acquired any interest in the water by complying with the
1905 Oregon law. The United States, for its part, asserts that the first two questions assume that proposition; they do not ask us to decide it. The United States
also asks us, if we accept certification, to answer the

App. 399
third question first because that question would be dispositive.
At this stage of the proceeding, we decline to rephrase the questions or declare the order in which we
will decide them. Although the parties have filed extensive memoranda regarding whether we should accept the certified questions, they have not yet filed
briefs in this court addressing the merits of the state
law issues that the Federal Circuit’s questions raise.
We are hesitant to limit or rephrase the questions
without having had the benefit of the parties’ briefing
on the merits. We think that the questions are sufficiently open-ended and our procedures sufficiently
flexible that we can accommodate the parties’ concerns, if they turn out to be justified, in the course of
answering the questions on the merits. We also note a
proposition that perhaps is so obvious it needs no mention. This court always retains the discretion to decline
to provide an answer to a certified question, limit our
answer to a question, or rephrase a question if it turns
out, after full briefing, that it is appropriate to do so.
See Western Helicopter Services, 311 Ore. at 366-71
(recognizing court’s discretion).
The certified questions are accepted.

App. 400
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

2007-5115
-----------------------------------------------------------------------

Decided: July 16, 2008
-----------------------------------------------------------------------

KLAMATH IRRIGATION DISTRICT, TULELAKE
IRRIGATION DISTRICT, KLAMATH DRAINAGE
DISTRICT, POE VALLEY IMPROVEMENT
DISTRICT, SUNNYSIDE IRRIGATION
DISTRICT, KLAMATH BASIN IMPROVEMENT
DISTRICT, KLAMATH HILLS DISTRICT
IMPROVEMENT CO., MIDLAND DISTRICT
IMPROVEMENT CO., MALIN IRRIGATION
DISTRICT, ENTERPRISE IRRIGATION DISTRICT,
PINE GROVE IRRIGATION DISTRICT, WESTSIDE
IMPROVEMENT DISTRICT NO. 4, SHASTA VIEW
IRRIGATION DISTRICT, VAN BRIMMER DITCH
CO., FRED A. ROBISON, ALBERT J. ROBISON,
LONNY E. BALEY, MARK R. TROTMAN, BALEY
TROTMAN FARMS, JAMES L. MOORE, CHERYL L.
MOORE, DANIEL G. CHIN, DELORIS D. CHIN,
WONG POTATOES, INC., MICHAEL J. BYRNE,
DANIEL W. BYRNE, and BYRNE BROTHERS,
Plaintiffs-Appellants,
v.
UNITED STATES and PACIFIC COAST
FEDERATION OF FISHERMEN’S ASSOCIATIONS,
Defendants-Appellees.

App. 401
CERTIFICATION ORDER
Counsel: Roger J. Marzulla, Marzulla Law, of Washington, DC, argued for plaintiffs-appellants. With him
on the brief was Nancie G. Marzulla. Of counsel was
Gregory T. Jaeger.
Katherine J. Barton, Attorney, Appellate Section, Environment and Natural Resources Division, United
States Department of Justice, of Washington, DC, argued for all defendants-appellees. With her on the
brief for defendant-appellee United States were
Ronald J. Tenpas, Acting Assistant Attorney General,
and Kathryn E. Kovacs, Attorney, of Washington, DC,
Kristine S. Tardiff, Attorney, of Concord, New Hampshire, and Stephen M. Macfarlane, Attorney, of Sacramento, California.
Todd D. True, Earthjustice, of Seattle, Washington, for
defendant-appellee Pacific Coast Federation of Fishermen’s Associations. Of counsel was Shaun A. Goho.
Walter R. Echo-Hawk, Native American Rights Fund,
of Boulder, Colorado, for amicus curiae Klamath
Tribes. With him on the brief was Thomas P. Schlosser,
Morisset, Schlosser, Jozwiak & McGaw, of Seattle,
Washington, for amicus curiae Hoopa Valley Indian
Tribe.
John Echeverria, Georgetown Environmental Law &
Policy Institute, of Washington, DC, for amicus curiae
Natural Resources Defense Council. With him on the
brief were Hamilton Candee and Katherine S. Poole,
Natural Resources Defense Council, of San Francisco,
California.

App. 402
Judges: Before SCHALL, BRYSON, and GAJARSA,
Circuit Judges.
Order for the court filed by Circuit Judge
SCHALL. Dissent from order filed by Circuit Judge
GAJARSA.
Opinion
SCHALL, Circuit Judge.
CERTIFICATION ORDER
This case presents the question of whether an uncompensated taking of property in violation of the
Fifth Amendment to the United States Constitution
has occurred. It also presents the question of whether
the United States breached certain contracts in failing
to provide water to various irrigation districts, companies, and individual landowners in the Klamath River
Basin (“Irrigators”). In addition, it presents the question of whether the United States violated an interstate compact in failing to provide such water. The
answer to the takings question depends upon complex
issues of Oregon property law, including the interpretation of Oregon General Laws, Chapter 228, § 2
(1905). This court discerns an absence of controlling
precedent in the decisions of the Oregon Supreme
Court and the intermediate appellate courts of Oregon
on the pertinent issues of Oregon property law. At the
same time, this court believes that the Oregon Supreme Court would be in a better position than would

App. 403
this court to issue a pronouncement on the proper interpretation of the law at issue. The State of Oregon
has a procedure pursuant to which this court may certify unsettled questions of state law to the Oregon Supreme Court. See Or. Rev. Stat. §§ 28.200-28.255
(2007).
Following oral argument in this case on February
8, 2008, this court decided to certify three questions of
law to the Oregon Supreme Court. The questions of law
pertain to the 1905 Oregon statute and its effect on the
property rights of the Irrigators.
The questions of law this court hereby certifies to
the Oregon Supreme Court are:
1. Assuming that Klamath Basin water for
the Klamath Reclamation Project “may be
deemed to have been appropriated by the
United States” pursuant to Oregon General
Laws, Chapter 228, § 2 (1905), does that statute preclude irrigation districts and landowners from acquiring a beneficial or equitable
property interest in the water right acquired
by the United States?
2. In light of the statute, do the landowners
who receive water from the Klamath Basin
Reclamation Project and put the water to beneficial use have a beneficial or equitable property interest appurtenant to their land in the
water right acquired by the United States,
and do the irrigation districts that receive water from the Klamath Basin Reclamation Project have a beneficial or equitable property

App. 404
interest in the water right acquired by the
United States?
3. With respect to surface water rights
where appropriation was initiated under Oregon law prior to February 24, 1909, and where
such rights are not within any previously adjudicated area of the Klamath Basin, does
Oregon State law recognize any property interest, whether legal or equitable, in the use
of Klamath Basin water that is not subject to
adjudication in the Klamath Basin Adjudication?
Except with respect to one matter, the parties to this
case have agreed to a Joint Statement of Facts pertinent to the three certified questions. By letter dated
May 27, 2008, the parties have informed this court
that, on account of their inability to agree on that one
matter, they have submitted two versions of the Joint
Statement of Facts, marked Version 1 and Version 2.
The two versions are identical except that Version 1
has a paragraph 23, which Version 2 does not. The
third paragraph of the May 27 letter states the nature
of the difference between the parties with respect to
paragraph 23. This court does not believe that the inability of the parties to agree on paragraph 23 bears
upon the ability of the Oregon Supreme Court to address the three certified questions.
A copy of the parties’ May 27, 2008 letter to this
court and copies of Versions 1 and 2 of the Joint Statement of Facts are attached hereto. Also attached hereto

App. 405
is a copy of the Joint Appendix to the case filed in this
court.
Section 28.210 of the Oregon Revised Statutes
specifies the required contents of a certification order.
It requires that a certification order contain (a) “[t]he
questions of law to be answered” and (b) “[a] statement
of all facts relevant to the questions certified and showing fully the nature of the controversy in which the
questions arose.” Id. § 28.210. We have set forth above
the three questions of law to be answered. At the same
time, recognizing the parties’ disagreement on one
matter, Versions 1 and 2 of the Joint Statement of Facts
set forth the facts relevant to the questions certified
and necessary to illustrate the nature of the controversy in which the questions arise. In addition to the
questions certified and the facts relevant to the questions, set forth above, this court hereby acknowledges
that the Oregon Supreme Court, as the receiving court,
has the discretion to reframe the questions and is not
bound to answer the questions as certified. See W. Helicopter Servs., Inc. v. Rogerson Aircraft Corp., 311 Ore.
361, 811 P.2d 627, 633-34 (Or. 1991).
The names and addresses of the counsel of record
to the parties are set forth on page two of the parties’
May 27, 2008 letter, a copy of which is attached hereto.
To the best of this court’s knowledge, there are no parties appealing in this case without counsel. The three
questions set forth above are hereby certified to the Oregon Supreme Court.
So ordered.

App. 406
FOR THE COURT
/s/ Alvin A. Schall
Alvin A. Schall
Circuit Judge
Dated

July 16, 2008

Dissent
GAJARSA, Circuit Judge, dissenting.
Although the majority of the panel has requested
a certification of three issues to the Oregon Supreme
Court, I must respectfully dissent from such a request.
We need not certify the questions because of the
unique procedural posture of this case, and because the
answers sought, in my judgment, are not required to
decide the issues before this court. In particular, I disagree with the proposition that the effect of the 1905
Statute is a critical question with respect to the matter
of certification vel non. In my judgment, the effect of
the 1905 Statute is determinative as to the relative
property rights of the United States and the irrigators
in Klamath Basin water, that is, who owns the right to
the beneficial use of the water; however, this determination has no bearing on the property interest alleged
by the irrigators in this case. That is clearly the issue
presented in the State of Oregon’s Klamath Basin Adjudication (hereinafter “Adjudication”) under Oregon
Revised Statutes chapter 539. See, e.g., Brief of Amicus
Curiae State of Oregon Regarding Defendant’s Motion
for Stay and Plaintiff ’s Opposition Thereto at 2-3,

App. 407
Klamath Irrigation Dist. v. United States, 67 Fed. Cl.
504 (2005) (No. 01-591 L) (Doc. No. 61) (hereinafter
“State of Oregon Amicus Brief ”). Therefore, because
the claimants in this case have disclaimed any claims
pending in the Adjudication, this court need not certify
Questions One and Two.
At the outset, all water rights arising under Oregon law, including those affected by the 1905 Statute,
may be divided into two categories – those arising before the February 24, 1909 passage of the Water Rights
Act (“WRA”) and those arising after. Rights arising before the passage of the WRA are undisturbed by its
passage, but must be adjudicated in a general stream
adjudication. Or. Rev. St. § 539.010 (especially subsection 4 relating to earlier appropriations). Indeed, in
1989 the Oregon legislature imposed a deadline for the
filing of unadjudicated claims based on pre-1909 water
rights. See Or. Rev. St. § 539.240 (stating that claims
for undetermined vested rights must be filed by December 31, 1992). After the passage of the WRA, “any
person intending to acquire the right to the beneficial
use of any of the surface waters of this state shall make
an application to the Water Resources Department for
a permit to make the appropriation.” Or. Rev. St.
§ 537.130(1); see also Hannigan v. Hinton, 195 Ore.
App. 345, 97 P.3d 1256, 1258-59 (Or. App. 2004).
The water rights alleged by the claimants in this
case do not fall into either of these categories, and thus
cannot be said to arise under Oregon law. With respect
to the latter category, those arising post-1909, the
Appellants do not allege a single vested water right

App. 408
arising under the permit and certificate requirement
of the WRA. Cf. Or. Rev. St. §§ 537.250 (stating that appropriation is completed with issuance of certificate);
537.252 (stating the water right certificate which has
not been contested becomes conclusive evidence of an
appropriation). As to the former category, those arising
pre-1909, all such rights are currently pending in the
Adjudication. In particular, the record before the CFC
demonstrates that both the State of Oregon (as an amicus in this case) and the Oregon Water Resources Department (as a participant in the Adjudication)
consider the relative rights of the United States and
the irrigators with respect to the right to use Klamath
water to be a key issue in the Adjudication. See State
of Oregon Amicus Brief at 2-3; Oregon Water Resources Department’s Closing Brief on Reply at 37-41,
In re the Determination of the Relative Rights of the
Waters of the Klamath River, Lead Case No. 003 (Or.
Water Res. Dep’t July 13, 2005) (submitted as Ex. 1 to
Doc. No. 242 in Klamath Irrigation, 67 Fed. Cl. 504)
(discussing impact of 1905 Statute on conflicting water
rights claimed by the United States and the irrigators
in the Adjudication).
Moreover, additional filings in the Adjudication,
and submitted by the parties on appeal to this court,
clearly demonstrate that the ownership of the beneficial use of Klamath project water, as informed by the
effects of the 1905 Oregon Statute, is a central issue in
the Adjudication. In the addendum to its Appellee
Brief, the United States submitted a proposed order
issued by the Administrative Judge (“AJ”) in the

App. 409
Adjudication. See Proposed Order, In re Determination
of the Relative Rights of the Water of the Klamath
River, Lead Case No. 003 (Or. Water Res. Dep’t Nov. 14,
2006) (hereinafter “Proposed Order”). The Proposed
Order begins its Opinion section with an analysis of
the 1905 Oregon Statute. Id. at 19-25. It concludes that
the operation of the statute is clear and that the rights
of the United States cannot be disturbed by any beneficial use of Klamath Project Water by the irrigators.
Id. at 20, 23. This Proposed Order does not, of course,
conclusively establish the meaning of the 1905 Oregon
statute as informed by other aspects of Oregon water
rights law, and indeed, the Oregon Water Resources
Department (“OWRD”) filed its Exceptions to the Proposed Order with the AJ in the Adjudication proceeding. Or. Water Res. Dep’t’s Exceptions to Proposed
Order, In re Determination of the Relative Rights of
the Water of the Klamath River, Lead Case No. 003 (Or.
Water Res. Dep’t Mar. 30, 2007) (hereinafter “Exceptions to Proposed Order”). The OWRD argued that by
virtue of compliance with the 1905 statute, the United
States secured a priority date in a water right that
could only be converted to a vested right by application
to a beneficial use. Id. at 9. The OWRD asserted that
in this circumstance “the beneficial user ‘holds’ or
‘owns’ an interest in water rights appropriated pursuant thereto for the purpose of the beneficial use.” Id.
The position of the OWRD similarly fails to conclusively establish Oregon law on this issue, but the Adjudication filings together make clear that the AJ will
decide the exact issues sought to be addressed by the
proposed certification Questions One and Two.

App. 410
Certification is therefore unnecessary because the
record before the Court of Federal Claims (“CFC”) is
clear that all state law claims to property rights in Klamath Project waters that are currently pending in the
Adjudication are not presented to this court on appeal.
The claimants were clear in their arguments below
that the water rights which they are claiming are not
the water rights which are being adjudicated in the
State proceedings. This was the basis for claimants’ objection to the government’s motion to stay, and they
subsequently filed a motion for partial summary judgment requesting a ruling that the water rights upon
which their takings claims were predicated in the CFC
were not the water rights subject to the Adjudication.
Memorandum Supporting Plaintiffs’ Revised Motion
for Partial Summary Judgment at 10, Klamath Irrigation, 67 Fed. Cl. 504 (Aug. 29, 2003). The CFC granted
the claimants’ motion, stating as follows:
Accordingly, plaintiffs’ motion for partial summary judgment that their water interests are
not property interests at issue in the Adjudication is granted and defendant’s motion for a
stay pending the outcome of the Adjudication
is denied. Based on plaintiffs’ assertion that
no rights or interests in this case are affected
by the Adjudication (see Plaintiff ’s Revised
Motion for Partial Summary Judgment at 10),
plaintiffs are barred from making any claims
or seeking any relief in this case based on
rights, titles, or interests that are or may be
subject to determination in the Adjudication.

App. 411
Klamath Irrigation Dist. v. United States, No. 01-591L
(filed Nov. 13, 2003). This holding is now the law of the
case and is binding on the claimants.1 See, e.g., Toro Co.
v. White Consol. Indus., 383 F.3d 1326, 1337 (Fed. Cir.
2004) (“The law is well-settled; decisions once made
are not to be disregarded except for exceptional circumstances. Such circumstances are not evident
here.”).
In the absence of asserting any property right
based on state law, the claimants must argue that their
alleged property interest arises under federal law. The
claimants thus argue that the Reclamation Act itself
directly creates their property interest, that the Klamath Compact gives them a right to just compensation, and that the United States conveyed whatever
property interests it had to the irrigators via homestead patent deeds. None of these alleged property interests require certification to the Oregon Supreme
court. They should not be able to obtain a second opportunity to avoid the results of their actions, and this
court should not provide them with a second bite at the
apple of state law property rights in Klamath Basin
1

To the extent that claimants attempt to argue that they are
asserting state law property rights which are not subject to the
Adjudication, Question 3 seeks to determine whether Oregon law
recognizes any such category of rights. Before this court, claimants have not clearly articulated any theory of property rights in
the Klamath Basin water that is not pending in the Adjudication.
Thus, it is my view that a negative answer to Question Three, if
certification is accepted by the Oregon Supreme Court, ends the
inquiry as to whether the claimants can be heard to assert any
state law property interest at all in this case.

App. 412
Water. For these reasons, I do not believe that certification is proper or necessary.

App. 413
In the United States Court of Federal Claims
No. 01-591 L
(Filed: August 31, 2005)
--------------------------------------

KLAMATH IRRIGATION * Motions for partial
DISTRICT, et al.,
* summary judgment;
* Takings claims under
Plaintiffs,
* Fifth Amendment; Contract
v.
* claims; Interest in water
THE UNITED STATES, * of the Klamath Basin;
* Private property; Federal
Defendant,
* reclamation law –
* Reclamation Act of 1902;
PACIFIC COAST
* Section 8 - appurtenancy
FEDERATION OF
* and beneficial use clause;
FISHERMEN’S
* California; Water distriASSOCIATIONS,
* bution to be determined
Defendant-Intervenor. * under state law; Ickes
* line of cases; State law –
* Oregon Act of 1905;
* Pre-1905 interests;
* Post-1905 interests;
* Interests based on
* contracts; Third-party
* beneficiaries; Standing
* of districts to sue;
* Interests based on
* deeds and certificates.
--------------------------------------

OPINION
--------------------------------------

Nancie Gail Marzulla and Roger J. Marzulla,
Marzulla & Marzulla, Washington, D.C., for plaintiffs.

App. 414
Kristine Sears Tardiff, United States Department
of Justice, Washington, D.C., with whom was Assistant
Attorney General Thomas L. Sansonetti, for defendant.
Todd Dale True, Earthjustice Legal Defense Fund,
Seattle, Washington, and Robert B. Wiygul, Waltzer &
Associates, Biloxi, Mississippi, for defendant-intervenor.1
ALLEGRA, Judge:
What is property? The derivation of the word is
simple enough, arising from the Latin proprietas or
“ownership,” in turn stemming from proprius, meaning “own” or “proper.” But, this etymology reveals little.
Philosophers such as Aristotle, Cicero, Seneca, Grotius,
Pufendorf and Locke each, in turn, have debated the
meaning of this term, as later did legal luminaries
such as Blackstone, Madison and Holmes, and even
economists such as Coase.
Here, the court must give practical meaning to the
term “property” as used in a specific legal context, a
constitutional one, to wit, the Fifth Amendment’s mandate “nor shall private property be taken for public use,
without just compensation.” In the case sub judice, a
group of water districts and individual farmers seek
1

An amicus curiae memorandum was filed by John D. Echeverria, Georgetown Environmental Law & Policy Institute, Georgetown University Law School, on behalf of the Natural Resources
Defense Council and in support of defendant. Various other amici
have participated in this litigation, including the State of Oregon,
the Yurok Tribes, the Klamath Tribes, the Sierra Club, the Northcoast Environmental Center, Waterwatch of Oregon, the Oregon
Natural Resources Council, the Klamath Forest Alliance, the Wilderness Society, and the Institute for Fisheries Resources.

App. 415
just compensation under the Fifth Amendment, as well
as damages for breach of contract, owing to temporary
reductions made in 2001 by the Department of Interior’s Bureau of Reclamation (the Bureau) on the use,
for irrigation purposes, of the water resources of the
Klamath Basin of southern Oregon and northern California. At issue in the pending cross-motions for partial summary judgment is whether plaintiffs’ various
interests in the use of Klamath River Basin water constitute cognizable property interests for purposes of
the Takings Clause. Relatedly, the court must consider
the limitations, if any, inherent in such interests, particularly regarding various forms of contract rights
possessed by the plaintiffs to receive water from the
Klamath Basin reclamation project. As will be seen, it
is ultimately these contract rights, and not any independent interests in the relevant waters, that dominate the analysis here.
TABLE OF CONTENTS
I.

II.

Facts and Background .................................

3

A. Plaintiffs ................................................

3

B. The Federal Reclamation Laws ............

3

C. The Klamath Project .............................

5

D. Water Rights in Oregon and the Klamath Project ..........................................

7

E. History of this Litigation.......................

10

Discussion ....................................................

13

A. Federal Reclamation Law .....................

14

B. State Law ...............................................

24

App. 416
1. Pre-1905 Potential Interests ............

29

2. Post-1905 Potential Interests ..........

30

3. The Nature of the Interests Created
in the Post-1905 Transactions ......... 35
a. Interests based on contracts ......

35

b. Interests based upon applications
for water rights or post-1953 grants
of water rights by the State of Oregon ............................................. 46
III.

Conclusion ......................................................

48

Appendix .................................................................

49

FACTS AND BACKGROUND2

I.

A. Plaintiffs
Plaintiffs – 13 agricultural landowners and 14 water, drainage or irrigation districts in the Klamath
River Basin area of Oregon and northern California –
all receive, directly or indirectly, water from irrigation
works constructed or operated by the Bureau. They
trace their alleged interests in that water to a variety
of sources, including federal reclamation law, general
state water law principles, water-delivery contracts between the irrigation districts and the United States,
deeds to real property purporting to convey a right to
receive water, and a federal-state water law compact.
The landowning plaintiffs seek just compensation both
as beneficiaries of the district plaintiffs’ contracts with
2

These facts shall be deemed established for purposes of future proceedings in this case. RCFC 56(d).

App. 417
the United States and as owners of what they describe
as “Klamath Project water rights” that exist independently of the district contracts. The districts, in
turn, seek breach of contract damages, as well as just
compensation on behalf of their members, who are the
beneficiaries of the district contracts and the persons
ultimately harmed by the Bureau’s reduction in water
deliveries in 2001.
B. The Federal Reclamation Laws
The Reclamation Act of 1902, ch. 1093, 32 Stat.
388 (codified, as amended, at 43 U.S.C. §§ 371 et seq.)
(the Reclamation Act), directed the Secretary of the Interior (the Secretary) to reclaim arid lands in certain
states through irrigation projects and then open those
lands to entry by homesteaders. As recently recounted
by the Supreme Court, this enactment “set in motion
a massive program to provide federal financing, construction, and operation of water storage and distribution projects to reclaim arid lands in many Western
States.” Orff v. United States, 125 S. Ct. 2606, 2608
(2005); see also Nevada v. United States, 463 U.S. 110,
115 (1983); California v. United States, 438 U.S. 645,
650 (1978). Congress originally envisioned that the
United States would “withdraw from public entry arid
lands in specified western States, reclaim the lands
through irrigation projects,” and then “restore the
lands to entry pursuant to the homestead laws and
certain conditions imposed by the Act itself.” Nevada,
463 U.S. at 115. Nonetheless, Congress specifically directed, in section 8 of the Reclamation Act, that the

App. 418
United States would act in accordance with state law
to acquire title to the water used. 32 Stat. 390 (codified,
in part, at 43 U.S.C. § 383); see California, 438 U.S. at
650-51. It gave the Department of the Interior responsibility for constructing reclamation projects and for
administering the distribution of water to agricultural
users in a project service area. See Reclamation Act,
§§ 2-10, 32 Stat. 388-90.
In 1911, Congress enacted the Warren Act, ch. 141,
36 Stat. 925 (codified at 43 U.S.C. §§ 523-25), section 2
of which authorized the Secretary “to cooperate with
irrigation districts, water users’ associations, corporations, entrymen or water users . . . for impounding, delivering, and carrying water for irrigation purposes.”
43 U.S.C. § 524. Under a 1912 amendment of the Reclamation Act, individual water users served by a reclamation project could acquire a “water-right certificate”
by proving that they had cultivated and reclaimed the
land to which the certificate applied. Act of Aug. 9,
1912, ch. 278, § 1, 37 Stat. 265 (codified, as amended,
at 43 U.S.C. § 541). Congress required that the individual’s land patent and water right certificate would “expressly reserve to the United States a prior lien” for
the payment of sums due to the United States in connection with the reclamation project. § 2, 37 Stat. 266
(codified at 43 U.S.C. § 542).
In 1922, Congress enacted legislation expanding
the United States’ options to allow it to contract not
only with individual water users, but also with “any
legally organized irrigation district.” Act of May 15,
1922, ch. 190, § 1, 42 Stat. 541 (codified at 43 U.S.C.

App. 419
§ 511). In the event of such a district contract, the
United States was authorized to release liens against
individual landowners, provided that the landowners
agreed to be subject to “assessment and levy for the
collection of all moneys due and to become due to the
United States by irrigation districts formed pursuant
to State law and with which the United States shall
have entered into contract therefor.” § 2, 42 Stat. 542
(codified at 43 U.S.C. § 512).3 The Fact-Finders Act of
1924, 43 Stat. 702 (codified at 43 U.S.C. §§ 500-01), required that once two-thirds of a division of a reclamation project was covered by individual water-rights
contracts, that division was required to organize itself
into an irrigation district or similar entity in order to
qualify for certain financial incentives. The newlyformed district would, thereafter, assume the “care,
operation, and maintenance” of the project, and the

3

The legislative history of the 1922 act reflects that Congress viewed these changes as significant. See H.R. Rep. No. 662,
at 2 (1922) (“the Federal Government is dealing with the irrigation district instead of the individual owner or water users’ association”); 62 Cong. Rec. 3573 (1922) (statement of Rep. Kinkaid)
(“This language authorizes the taking of the district collectively,
taking the lands of the district collectively, for the payment of the
cost of the construction of the irrigation works, in lieu of holding
each farm unit singly for its proportionate share of the cost of the
construction.”); id. at 3575 (statement of Rep. Mondell) (“The Reclamation Service has for years encouraged the organization of irrigation districts . . . whereby the water users as a body, as a
whole, become responsible for all of the charges.”); id. at 5859
(statement of Sen. McNary) (“the Government is dealing with organized irrigation districts rather than the various individual
entrymen who take water in the projects”).

App. 420
United States would deal directly with the district instead of the individual water users. Id.
In 1926, Congress enacted additional measures
providing that, thenceforth, the United States could
enter into contracts for reclamation water only with
“an irrigation district or irrigation districts organized
under State law.” Act of May 25, 1926, ch. 383, § 46, 44
Stat. 649 (codified as amended at 43 U.S.C. § 423e).
Thereafter, the United States contracted exclusively
with irrigation districts. The exclusivity of these arrangements was reemphasized in the Reclamation Act
of 1939, ch. 418, 53 Stat. 1187, section 9(d) of which
provided that “[n]o water may be delivered for irrigation of lands . . . until an organization, satisfactory in
form and powers to the Secretary, has entered into a
repayment contract with the United States.” 53 Stat.
at 1195 (codified at 43 U.S.C. § 485h(d)).
Various provisions in these reclamation laws expressed Congress’ desire to create a financing mechanism that would allow the government to recoup the
costs of constructing and operating the reclamation
projects by requiring the irrigation districts to reimburse the United States for water delivery costs through
long-term water service contracts. See 43 U.S.C. §§ 391,
419, 423e, 423f, 461, 485a, 485b-1, 492-93. However,
there are indications that this financing mechanism
has not worked as originally anticipated, leaving significant reclamation costs unamortized. Studies conducted
by the General Accounting Office (GAO) have documented this failure and attributed it to several causes:
(i) while spreading project repayment obligations over

App. 421
several decades, Congress did not require the payment of interest on the costs of the project, see 42 U.S.C.
§ 485a; (ii) Congress generally has limited the repayment obligation to only those costs that are considered
within the irrigation district’s ability to pay, see 43
U.S.C. § 485b-1(b); and (iii) Congress has enacted chargeoffs that selectively eliminate portions of the repayment obligations in the case of certain projects. See
GAO, Rep. No. 96-109, Bureau of Reclamations: Information on Allocation and Repayment of Costs of Constructing Water Projects 15-22 (1996); GAO, Rep. No.
81-07, Federal Charges for Irrigation Projects Reviewed Do Not Cover Costs 9-12 (1981). The parties
disagree as to the existence (and, if so, extent) of such
a shortfall as to the Klamath Reclamation Project (the
Klamath Project).
C. The Klamath Project
The Klamath River Basin, naturally a semi-arid
region, has been the site of extensive water reclamation and irrigation projects since the late nineteenth
century. The Klamath Project, originally authorized in
1905, was one of the first to be constructed under
the Reclamation Act. See Bennett v. Spear, 520 U.S.
154, 158-59 (1997); Tulelake Irrigation Distr. v. United
States, 342 F.2d 447, 448 (Ct. Cl. 1965). The federal legislation authorizing the project provided, inter alia,
that “the Secretary of the Interior is hereby authorized
in carrying out any irrigation project . . . to raise or
lower the level of ” the lakes and rivers of the Klamath
River Basin “as may be necessary and to dispose of any

App. 422
lands which may come into the possession of the
United States as a result thereof.” Act of February 9,
1905, ch. 567, 33 Stat. 714 (codified at 43 U.S.C. § 601).
The Klamath Project provides water to about
240,000 acres of irrigable land, as well as several national wildlife refuges. It is operated by the Bureau to
“serve[ ] and affect[ ] a number of interests,” including
the supply of irrigation water to agricultural interests
in the Klamath River Basin and the supply of water to
the Tule Lake and Lower Klamath National Wildlife
Refuges “for permanent and seasonal marshlands and
irrigated crop lands.” Pacific Coast Federation of Fishermen’s Associations v. Bureau of Reclamation, 138
F. Supp.2d 1228, 1230 (N.D. Cal. 2001) (hereinafter
PCFFA). Water for the project is stored primarily in
Upper Klamath Lake, on the Klamath River in Oregon.
See Kandra v. United States, 145 F. Supp.2d 1192, 1196
(D. Or. 2001). The Link River Dam regulates water
flows from Upper Klamath Lake into the lower portions of the Klamath River. Id. The Klamath Project
lacks a major water storage reservoir, and because
Upper Klamath Lake is itself relatively shallow and
“unable to capture and store large quantities of water
from spring run-off,” the Bureau is unable to store up
enough water during wet years for use in subsequent
dry years – a fact that apparently makes the Klamath
Project more vulnerable to droughts. Id. at 1197.
In operating the Klamath Project, the Bureau
prepares periodic streamflow forecasts and annual operating plans “in order to provide operating criteria
and to assist water users and resource managers in

App. 423
planning for the water year.” Kandra, 145 F. Supp.2d
at 1197. In the late 1990s, the Bureau announced its
intent to establish a new, long-term operating plan
for the project. As of mid-2001, that plan was still not
in place, and the Bureau instead was operating the
Project using one-year interim plans. Id. at 1197; see
PCFFA, 138 F. Supp.2d at 1232. Those plans required
it to “manage water resources carefully in order to
meet . . . competing purposes and obligations,” a balance that was particularly difficult to strike because of
the limited storage capacity caused by the shallowness
of the lake. PCFFA, 138 F. Supp.2d at 1231.
In its operations, the Bureau must take into account its obligation, under the Endangered Species Act
(ESA), to ensure that project operations are not “likely
to jeopardize the continued existence of any endangered species.” 16 U.S.C. § 1536(a)(2). In regards to this
statute, the Supreme Court has stated: “[t]he plain intent of Congress in enacting this statute was to halt
and reverse the trend toward species extinction, whatever the cost.” Tennessee Valley Authority v. Hill, 437
U.S. 153, 184 (1978). That obligation requires the
agency to perform a biological assessment “for the purpose of identifying any endangered species which is
likely to affected” by the operations of the Klamath
Project. 16 U.S.C. § 1536(c)(1). The Bureau has delegated its authority to conduct such assessments for
two species – the coho salmon and suckerfish – to the
National Marine Fisheries Service (NMFS) and the

App. 424
Fish and Wildlife Service (FWS), respectively.4 See 50
C.F.R. §§ 17.11, 402.01(b). Under the ESA, if the Bureau determines that an endangered or threatened
species may be affected by its proposed action, it must
send the NMFS or the FWS a request for a “formal
consultation,” in response to which the appropriate
agency will produce its biological opinion. See 16 U.S.C.
§ 1536(a)(2), (b); 50 C.F.R. § 402.14. “If the Biological
Opinion concludes that the proposed action is likely to
jeopardize a protected species, the agency must modify
its proposal” to alter that result. See Natural Resources
Defense Council v. Houston, 146 F.3d 1118, 1125 (9th
Cir. 1998), cert. denied, 526 U.S. 1111 (1999). Failure to
observe this procedure has led to litigation and injunctive relief against the Bureau for violating the ESA.
See, e.g., PCFFA, 138 F. Supp.2d at 1248.
D. Water Rights in Oregon and the Klamath
Project
Shortly after passage of the 1905 federal authorization for the Klamath Project, the State of Oregon enacted legislation permitting an appropriate Federal
official to file with the State Engineer “a written notice
that the United States intends to utilize certain specified waters . . . unappropriated at the time of the filing.” Or. Gen. Laws, 1905, Ch. 228, § 2, p. 401. The filing
of such a notice would result in those waters being
4

NMFS is now part of the National Oceanographic and Atmospheric Administration (NOAA) and known as “NOAA Fisheries.”
For the sake of clarity and convenience, the court will continue to
use this agency’s old title in this opinion.

App. 425
“deemed to have been appropriated by the United
States” and “not . . . subject to further appropriation”
under state law. Id. at 401-02 On May 17, 1905, the
Bureau filed a notice indicating that “the United States
intends to utilize . . . [a]ll of the waters of the Klamath
Basin in Oregon, constituting the entire drainage basins of the Klamath river and Lost river, and all of the
lakes, streams and rivers supplying water thereto or
receiving water therefrom” for purposes of the “operation of works for the utilization of water . . . under the
provisions of the . . . Reclamation Act.” Agents of the
United States also posted notices of its appropriation
on sites along the Klamath and Link Rivers in Oregon
and in the California portions of the Basin.
In 1905, the Oregon legislature passed a second
law, providing that “for the purpose of aiding in the operations of irrigation and reclamation . . . the United
States is hereby authorized to lower the water level of ”
various Klamath Basin lakes. Or. Gen. Laws, 1905,
ch. 5, § 1, p. 63. This law ceded to the United States “all
the right, title, interest, or claim of this State to any
land uncovered by the lowering of the water levels.”
Id. The reclaimed lands were ultimately sold or ceded
by the United States to homesteaders, including predecessors to some of the plaintiffs in this action. The
Bureau required these and other homesteaders who
wished to receive deliveries of Project water to file with
the Bureau one of two “water rights applications.”
The first type, a “Form A” water rights application,
was used by homesteaders on reclaimed land and, by
its terms, generally sought sufficient water as “may be

App. 426
applied beneficially in accordance with good usage in
the irrigation of the land.” This form included a “water
shortage” clause that allowed the applicant an “equitable proportionate share . . . of the water actually available.” The second type of application, a “Form B” water
rights application, was used by existing landowners in
the Basin who were not on reclaimed lands. This form
typically provided that “the measure of the water
right” applied for was “that quantity of water which
shall be beneficially used for the irrigation” of the applicant’s land, “but in no case exceeding the share proportionate to irrigable acreage, of the water supply
actually available as determined by the Project Manager or other proper officer of the United States.”
By 1911, when the Warren Act was passed, apart
from the United States, water rights in the Klamath
Project were mostly held by individual landowners –
although as early as 1905, the Bureau entered into a
“repayment contract” with an incorporated entity, the
Klamath Water Users Association, which was made up
of owners and occupiers of lands within the Project,
some of whom were already appropriators of water
for irrigation. According to this contract, the association “guarantee[d] the payments [to the United States]
for that part of the cost of the irrigation works apportioned by the Secretary of the Interior to each shareholder” and also undertook to collect shareholders’
payments on the government’s behalf. It appears that
at least ten of the plaintiff irrigation, drainage or water

App. 427
districts in this action initially entered into contracts
with the Bureau under the auspices of the Warren Act.5
As noted above, the decades that followed saw the
reclamation laws shift away from having the Bureau
enter into individual water-rights contracts and toward district-level water delivery contracts. As part of
this trend, 13 of the 14 districts involved in this action
eventually obtained contracts with the Bureau for the
delivery of Klamath Project water.6 The fourteenth district, Klamath Hills District Improvement Company,
has no such contract. Of the 13 districts that have water delivery contracts with the Bureau, eight include
provisions holding the United States harmless for “any
damage, direct or indirect,” resulting “[o]n account of
drought or other causes” of “a shortage in the quantity
of water available” from Project sources.7 Some of those
5

Those 10 are Klamath Drainage District, Sunnyside Irrigation District, Klamath Basin Improvement District, Malin Irrigation District, Westside Improvement District No. 4, Shasta View
Irrigation District, Poe Valley Improvement District, Midland
District Improvement Co., Enterprise Irrigation District, and
Pine Grove Irrigation District.
6
Those 13 are Klamath Irrigation District, Klamath Drainage District, Tulelake Irrigation District, Sunnyside Irrigation
District, Klamath Basin Improvement District, Malin Irrigation
District, Westside Improvement District No. 4, Shasta View Irrigation District, Poe Valley Improvement District, Midland District Improvement Co., Enterprise Irrigation District, Pine Grove
Irrigation District, and Van Brimmer Ditch Company.
7
Those 8 with the same or substantially similar provisions
are Klamath Irrigation District, Tulelake Irrigation District, Klamath Drainage District, Sunnyside Irrigation District, Klamath
Basin Improvement District, Malin Irrigation District, Westside
Improvement District No. 4, and Shasta View Irrigation District.

App. 428
provisions also require the United States to “use all
reasonable means to guard against such shortage[s].”
Four other districts’ contracts include a similar provision stating that “[t]he United States shall not be
liable for failure to supply water under this contract
caused by . . . unusual drought.”8 The contract for plaintiff Van Brimmer Ditch Company includes no such shortage provision.
Certain individual water users’ application contracts with the Bureau plainly have been superseded
by the district-level contracts, under which the districts assumed both the individual water users’ repayment obligations and the Bureau’s water delivery
obligations. The Bureau’s September 10, 1956, contract
with Tulelake Irrigation District, for example, states
that “[t]he United States hereby consents to the cancellation of individual water right applications issued
pursuant to Public Notice No. 13 of September 29,
1922. . . . [u]pon the furnishing to the United States of
the written consent of the person or persons in whose
ownership said individual water right application is
vested.” Likewise, the July 20, 1953, contract between
the Bureau and the Poe Valley Improvement District
provides that “[t]he United States and the District
agree and recognize that certain lands included within
the District are subject to contracts with the United
States for water supply, and that it is the intent of the
8

Those four are Enterprise Irrigation District, Poe Valley
Improvement District, Midland District Improvement Co., and
Pine Grove Irrigation District. The Poe Valley and Midland contracts omit the word “unusual” before “drought.”

App. 429
parties to such contracts to terminate the same,” subject to enumerated conditions. And the November 29,
1954, contract with the Klamath Irrigation District provides that “[t]he District hereby assumes and agrees to
carry out . . . all the obligations imposed upon the
United States by the contracts listed on Exhibit ‘A’ . . .
for the carriage and delivery of water,” and that “the
District shall be entitled to collect and retain for its
own use . . . all revenues payable to the United States
under the hereinabove mentioned contracts.” This contract also states, however, that “[a]ll other provisions
of said contracts shall remain unaffected hereby.”
Other district contracts, however, make no mention of
the individual water users’ contracts and do not explicitly provide for the cancellation of the individual water
rights applications of the district members; several do
state that the water rights accruing to the district under the contract are “inferior and subject to prior rights
reserved for the lands of the Klamath Project.”
Several plaintiffs claim other sources of property
rights in Klamath Project water. Thus, certain plaintiffs who acquired their land as homesteaders were, after complying with a regulatory scheme, granted title
to their land in “patent deeds.” To obtain a patent deed,
homesteaders were required to file with the Bureau
two documents: an Application for Permanent Water
Right – Form A, and an affidavit “attesting to the fact
that [the homesteader] had put [the] Klamath Project
water to beneficial use.” Once an applicant met the requirements, he was issued the patent deed conveying
the land “together with the right to the use of water

App. 430
from the Klamath Reclamation Project as an appurtenance to the irrigable lands . . . subject to any vested
and accrued water rights for mining, agricultural,
manufacturing, or other purposes.” The parties disagree as to the scope of the interest in irrigation water
conveyed by the patent deeds.
Two of the plaintiffs, the Klamath Drainage District and the Klamath Hills District Improvement
Company, hold water right permits that they claim evidence their ownership of a “vested and determined
water right” under Oregon law. These permits, which
were limited both in terms of a specific cubic feet per
second of water, as well as to the amount of water that
could be applied to beneficial use, were issued after the
State of Oregon repealed the 1905 law in 1953. In addition, it should not be overlooked that a number of
Oregon tribes, including the Klamath and Yurok, hold
fishing and water treaty rights in the Klamath Project
waters. In some instances, these rights derive from
treaties, see Treaty of 1864, 16 Stat. 708; Or. Dept. of
Fish & Wildlife v. Klamath Indian Tribe, 473 U.S. 753,
766-78 (1985), while, in other instances, they were created by statute and executive order, see Hoopa-Yurok
Settlement Act of 1988, Pub. L. No. 100-580, 102 Stat.
2924 (confirming the existence of these water rights).
Oregon state law has a procedure for sorting out certain competing interests to water. Thus, the
Water Rights Act of 1909 authorizes the adjudication
of federal reserved and state law water rights initiated
prior to the passage of the Act. See Or. Rev. Stat.
§§ 539.005-240 (2003). All water rights “that had vested

App. 431
prior to 1909, but had never been subject to a judicial
determination” were “left intact as ‘undetermined vested
rights.’ ” United States v. Oregon, 44 F.3d 758, 764 (9th
Cir. 1994) (quoting Or. Rev. Stat. § 536.007(11)). Any
person holding an “undetermined vested right” or federal reserved right is required to file a “registration
statement” with the Oregon Water Resources Department that must state, among other things, the stream
from which the claimed water was diverted, the claimed
beneficial use to which it was put, and the time
the claimed used [sic] first began. See Or. Rev. Stat.
§ 539.240(2). All such claims are then entered into the
state’s records, and are made subject to a final determination of rights in a statutory adjudication process.
See Or. Rev. Stat. §§ 539.240(8), 539.10-240; see also
United States v. Oregon, 44 F.3d at 764.
An adjudication process for the Klamath River Basin (the Adjudication) was initiated in 1976 and remains pending. The Bureau, plaintiffs, and a variety of
other organizations and individuals have filed competing claims in that proceeding. No final decisions regarding those claims have been rendered.
E. History of this Litigation
For decades, Klamath Basin landowners generally
received as much water for irrigation as they needed.
In severe drought years, they simply received somewhat less. That changed in the spring of 2001, when
several federal agencies produced studies indicating that water levels in the basin were so low as to

App. 432
threaten the health and survival of certain endangered
species. Water forecasts for 2001 predicted that year
would be “critical[ly] dry,” with an inflow volume into
Upper Klamath Lake of 108,000 acre-feet from April
through September – “the smallest amount of inflow
on record.” Kandra, 145 F. Supp.2d at 1198. In January,
2001, the Bureau forwarded a biological assessment of
the Project’s operations on the coho salmon and requested the initiation of formal consultation with the
NMFS under section 7 of the ESA. Id. A similar assessment regarding the endangered shortnose and Lost
River suckerfish – two species that “live in Upper Klamath Lake and nearby Project waters and nowhere
else,” PCFFA, 138 F. Supp.2d at 1230 – was forwarded
to the FWS in March 2001. Kandra, 145 F. Supp.2d at
1198. Both assessments concluded that operation of
the Project was likely to affect adversely the three species in violation of the ESA, 16 U.S.C. § 1531, et seq.
The two agencies then performed their own analyses and delivered draft Biological Opinions in March,
2001. Both draft opinions concluded that the Project’s
operations in 2001 would jeopardize the endangered
species in question. Upon review of those opinions and
the “reasonably prudent alternatives” for the benefit of
the fish proposed in them, the Bureau advised the
agencies that “the forecasted water supplies for 2001
were not adequate to meet the needs” of the proposed
alternatives, which involved maintaining water levels
and river flows sufficient to increase water quality
for the endangered fishes’ habitat. On March 28, 2001,
the Governor of Oregon issued an executive order

App. 433
declaring a “state of Drought Emergency in Klamath
County.”
On April 5, 2001, the FWS, acting in furtherance
of its statutory duties under the ESA, issued a final biological opinion concluding that the proposed 2001 Operation Plan for Upper Klamath Lake, Link River
Dam, Tulelake, and the related irrigation delivery facilities threatened the continued existence of the
shortnose and Lost River sucker fish. Noting that 2001
was “likely to be the driest year on record,” resulting in
“extremely limited water resources” in the Basin, the
opinion concluded that the proposed operation plan for
2001 would likely result in “loss of larval and juvenile
sucker habitat at critical phases of their life cycle,” significantly increased “loss of life” among suckerfish, and
potentially lethal water quality conditions. The next
day, on April 6, 2001, the NMFS issued a final biological opinion concluding that the proposed Operation
Plan threatened the coho salmon. The opinion concluded that the proposed plan would “result in the continued decline in habitat conditions” such that “the
survival and abundance of . . . coho salmon would be
expected to decrease.” See NMFS Biological Opinion
for Klamath Project Operations 3 (May 31, 2002) (describing conclusions of Biological Opinion issued April
6, 2001).
As required by the ESA, the biological opinions
of both agencies included “reasonable and prudent

App. 434
alternatives”9 to address the threat to the three fish
species, including reducing the amount of water available during 2001 for irrigation from Upper Klamath
Lake. On April 6, 2001, the Bureau issued a revised
Operation Plan that incorporated the “reasonably prudent alternatives” proposed by the agencies. That plan
terminated the delivery of irrigation water to plaintiffs
for the year 2001.10 Three days later, on April 9, 2001,
two of the plaintiffs herein, the Klamath Irrigation
District and the Tulelake Irrigation District, filed a
breach-of-contract action in the U.S. District Court for
the District of Oregon to challenge the validity of the
biological opinions and to enjoin the Bureau from implementing the revised Operation Plan. That court denied a preliminary injunction motion, and the two
districts voluntarily dismissed their suit in early October 2001.
On October 11, 2001, plaintiffs then brought suit
in this court. Their complaint raised two claims: one
for just compensation for their water rights, which
they aver were taken by defendant’s termination of delivery of irrigation water in 2001; and another for just
9

The ESA directs the Secretary of the Interior or the Secretary of Commerce to suggest “reasonable and prudent alternatives” when consulted about Federal activities that might adversely
affect endangered species. See Tulare Lake Basin Water Storage
Dist. v. United States, 49 Fed. Cl. 313, 315 n.2 (2001) (citing 16
U.S.C. § 1536(b)(3)(A)).
10
Plaintiffs concede that defendant released 70,000 acre-feet
of Klamath Project water to users in July 2001, but assert that
this delivery came too late in the growing season to allow them to
grow crops.

App. 435
compensation for the impairment of their water rights,
which they allege were recognized and vested by the
interstate agreement known as the Klamath Basin
Compact.
In May 2002, defendant filed a motion to stay
this action, arguing that the rights claimed by plaintiffs are “a matter of state law,” and that because the
“questions at issue in the Adjudication also are required elements of Plaintiffs’ takings claims,” this
court should stay this action pending resolution of the
Adjudication. On March 24, 2003, plaintiffs filed an
amended complaint, in which, in addition to their prior
takings claims, they added a breach of contract count.
In September 2003, plaintiffs filed a motion for partial
summary judgment seeking a determination that their
interests in Klamath Project water were not property
interests at issue in the Adjudication. On October 3,
2003, defendant filed a cross-motion for summary judgment on the issue of the nature and scope of plaintiffs’
property interest in Klamath Project water and the
question whether that interest was a compensable
property interest for purposes of the Takings Clause
of the Fifth Amendment. On November 13, 2003, this
court denied defendant’s motion to stay and granted
plaintiff ’s motion for partial summary judgment, concluding that plaintiffs’ claim “assert[ed] no property
interest determinable in the Adjudication,” because
plaintiffs claim not title to, “but only ‘vested beneficial
interests’ in, the Klamath Basin Project water.” This
action was then permitted to proceed with the understanding that “plaintiffs are barred from making any

App. 436
claims or seeking any relief in this case based on
rights, titles, or interests that are or may be subject to
determination in the Adjudication.”11
On January 27, 2004, plaintiffs filed a cross-motion
for summary judgment on the issues of the nature
and scope of their property interest and whether the
United States was liable to pay just compensation for
the taking of that interest. On March 23, 2004, the
court granted defendant’s motion to hold in abeyance
the portions of plaintiffs’ brief addressing the issue of
ultimate liability. This case was transferred to the undersigned on December 9, 2004. On January 11, 2005,
plaintiffs were permitted to file a second amended
complaint, in which they reduced their damages claim.
On February 28, 2005, the court granted a motion to
intervene filed by the Pacific Coast Federation of Fishermen’s Associations. See Klamath Irrigation Dist. v.
United States, 64 Fed. Cl. 328 (2005). On March 14,
2005, the parties simultaneously filed supplemental
briefs on the property right issue. Two weeks later, on
March 30, 2005, the court held oral argument on the

11

It bears noting at this juncture that there is no per se rule
requiring this court to abstain in favor of a state water rights
adjudication. Indeed, as a general rule, “federal courts have a virtually unflagging obligation . . . to exercise the jurisdiction given
them.” Moses H. Cone Mem’l Hosp. v. Mercury Const. Corp., 460
U.S. 1, 15 (1983) (quoting Colorado River, 424 U.S. 800, 817
(1976)); see also New Orleans Public Serv., Inc. v. Council of New
Orleans, 491 U.S. 350, 358 (1989) (“The [federal] courts . . . are
bound to proceed to judgment . . . in every case to which their jurisdiction extends.”).

App. 437
parties’ cross-motions for summary judgment on the
property rights issue.12
II.

DISCUSSION

Summary judgment is appropriate when there is
no genuine dispute as to any material fact and the
moving party is entitled to judgment as a matter of law.
RCFC 56; Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
247 (1986).
The Takings Clause of the Fifth Amendment provides: “[N]or shall private property be taken for public
use, without just compensation.” U.S. Const. amend. V.
In order to prevail on their claim under this amendment, the plaintiff-irrigators must each establish that
they had a property interest in the waters of the
Klamath Basin as of the date of the alleged taking
in 2001.13 Whether their respective interests in the

12

On April 12, 2005, plaintiff filed a motion to reconsider the
court’s order granting, in part, and denying, in part, the motion
to intervene. On April 21, 2005, the court denied plaintiff ’s motion to reconsider and, by separate order, invited defendant and
defendant-intervenor to file short briefs replying to portions of
plaintiff ’s reconsideration motion that appeared to be directed
at the property-rights issue. On May 19, 2005, defendant and
defendant-intervenor filed supplemental briefs in response to the
court’s order of April 21, 2005. Additional memoranda were filed
by the parties on July 14, 2005, and July 22, 2005.
13
See Karuk Tribe v. Ammon, 209 F.3d 1366, 1374 (Fed. Cir.
2000) (stating that under a takings analysis, “[f ]irst, a court determines whether the plaintiff possesses a valid interest in the
property affected by the governmental action”); Skip Kirchdorfer,
Inc. v. United States, 6 F.3d 1573, 1580 (Fed. Cir. 1993), cert.

App. 438
waters of the Klamath Basin qualified as “private property” protected by the Fifth Amendment is ultimately
a question of federal constitutional law. Powelson, 319
U.S. at 279. However, “[b]ecause the Constitution protects rather than creates property interests,” Phillips
v. Wash. Legal Foundation, 524 U.S. 156, 164 (1998),
“property,” for purposes of the Takings Clause, is defined by law independent of the Fifth Amendment.
Thus, it has been said that “[t]he Constitution neither
creates nor defines the scope of property interests compensable under the Fifth Amendment,” which interests
instead are defined by “ ‘existing rules or understandings’ and ‘background principles’ derived from an independent source, such as state, federal, or common law.”
Maritrans Inc. v. United States, 342 F.3d 1344, 1352
(Fed. Cir. 2003) (quoting Lucas v. South Carolina
Coastal Council, 505 U.S. 1003, 1030 (1992)).14 Under
these principles, it is axiomatic that “not all economic
interests are ‘property rights’; only those economic advantages are ‘rights’ which have the law back of them.”
United States v. Willow River Power Co., 324 U.S. 499,
502 (1945); see also Thomas W. Merrill, “The Landscape
of Constitutional Property,” 86 Va. L. Rev. 885, 970-81
(2000).15
denied, 516 U.S. 870 (1995) (citing United States ex rel. Tennessee
Valley Auth. v. Powelson, 319 U.S. 266, 281 (1943)).
14
See also Palazzola v. Rhode Island, 533 U.S. 606, 626-28
(2001); Bd. of Regents of State Colls. v. Roth, 408 U.S. 564, 577
(1972); Hansen v. United States, 65 Fed. Cl. 76, 123 (2005).
15
Federal constitution law, of course, still impacts the definition of private property interests for purposes of the Takings
Clause. In Lucas, supra, for example, the Supreme Court said

App. 439
In applying these principles to water, it is important to understand that the issue here is not who
owns the water. Generally speaking, water “belongs to
the public” and is held in trust by the states involved.
See, e.g., California Oregon Power Co. v. Beaver Portland Cement Co., 295 U.S. 142 (1935); Shively v. Bowlby,
152 U.S. 1, 11-14 (1894). This is certainly true in the
two States at issue, Oregon and California. See Or. Rev.
Stat. § 537.110 (“[a]ll water within the state from all
sources of water supply belongs to the public”); Milton
v. Coast Property Corp., 151 Or. 208, 213 (Or. 1935)
(noting that Oregon statute dates to 1909); Cal. Const.,
Art. 10, § 2. Rather, at least in the first instance, this
case involves so-called “usufructuary” rights – a right
to use the water, ordinarily for a particular purpose
and with specified limitations and priorities. Rencken
v. Young, 300 Or. 352, 363 (1985); Rank v. Krug, 90
F. Supp. 773, 787 (C.D. Cal. 1950) (“Such water rights
are ‘usufructuary, and consist not so much of the fluid
itself as the advantage of its uses,’ and have been so
regarded since the earliest day.”) (quoting Eddy v.
Simpson, 3 Cal. 249 (Cal. 1853)).16

that state-law definitions of private property rights must be based
on an “objectively reasonable application of relevant precedents.”
505 U.S. at 1032 n.18. Such objectivity is vital if the integrity of
the Takings Clause is to be preserved as against entirely novel
and unprincipled definitions of property designed artificially to
defeat or buttress a takings claim. See Webb’s Fabulous Pharmacies, Inc. v. Beckwith, 449 U.S. 155, 164 (1980).
16
As explained in Rencken, 300 Or. at 363 –
“[W]aters of a natural stream or other natural body of
water are not susceptible of absolute ownership as specific tangible property. Prior to the segregation of water

App. 440
Based on these principles, the issues whether and,
if so, to what extent, the plaintiff-irrigators possess
property rights in the waters of the Klamath Basin require the court to look at three possible sources for
such rights: Federal law, apart from the Constitution;
Oregon, and to the extent relevant, California, law;
and, potentially, contract law, looking at whether the
farmers acquired rights from a third party. The court
will consider these potential sources, and the parties’
conflicting arguments with respect thereto, seriatim.
A. Federal Reclamation Law
Plaintiffs’ banner assertion is that their property
interests in the Klamath water spring from the Reclamation Act of 1902, 32 Stat. 388 (1902) (codified, as
amended, at 43 U.S.C. §§ 371 et seq.). Their view is bottomed on section 8 of that Act, which provides, in pertinent part:
[N]othing in this Act shall be construed as
affecting or intended to affect or to in any
way interfere with the laws of any State or
Territory relating to the control, appropriation,
from the general source, the proprietary right is usufructuary in character.” 1 Clark (ed.), Water and Water
Rights 349 (1967) (footnotes omitted). “According to the
modern accepted doctrine, it is the use of water, and
not the water itself, in which one acquires property in
general.” Sherred v. City of Baker, 63 Or. 28, 39, 125 P.
826 (1912).
See also Washoe County v. United States, 319 F.3d 1320, 1322
(Fed. Cir. 2003).

App. 441
use, or distribution of water used in irrigation,
or any vested right acquired thereunder, and
the Secretary of the Interior, in carrying out
the provisions of this Act, shall proceed in conformity with such laws, and nothing herein
shall in any way affect any right of any State
or of the Federal Government or of any landowner, appropriator, or use of water in, to,
or from any interstate stream or the water
thereof: Provided, That the right to use of
water acquired under the provisions of
this Act shall be appurtenant to the land
irrigated, and beneficial use shall be the
basis, the measure, and the limit of the
right.
32 Stat. 388, 390 (1902) (codified at 43 U.S.C. §§ 372,
383 (2000)) (emphasis added). Focusing on the highlighted language, the irrigators asseverate that because they own the irrigated land that is appurtenant
to the water in question, the statute confers upon them
a property interest in that water. Thus, they contend,
their interests in the water derive directly from Federal law, rather than the law of Oregon or California.
There are sundry reasons, however, why this contention is rootless.
To begin with, there is the statutory language.17
On its face, section 8 requires the Secretary, in carrying
17

“Statutory construction must begin with the language employed by Congress and the assumption that the ordinary meaning of that language accurately expresses the legislative purpose.”
Park ‘N Fly, Inc. v. Dollar Park & Fly, Inc., 469 U.S. 189, 194
(1985); see also BedRoc Ltd., LLC v. United States, 541 U.S. 176,
183 (2004). In this regard, the Supreme Court has instructed that

App. 442
out his responsibilities under the Reclamation Act, to
“proceed in conformity with” state laws relating to the
“control, appropriation, use, or distribution of water.” It
is beyond peradventure that, rather than authorizing
the Secretary to acquire his water rights independent
of state law, this section treats the Secretary as an appropriator under the states’ appropriation laws, requiring him to obtain his water rights in the same
manner as others. Nothing in this language suggests
that third parties, including irrigators, could obtain title to appropriative water rights at Bureau projects
other than through state law. Indeed, while the Reclamation Act indicates that the right to the use of certain
water “shall be appurtenant to the land irrigated,”
this language refers only to water “acquired under the
provisions of this Act,” which “provisions” require the
claimant to obtain those rights in accordance with
state law. Accordingly, the Reclamation Act does not, as
plaintiffs intimate, independently define who owns interests in the water of Bureau projects, including the
Klamath Basin. To the contrary, that question is controlled by state law, in this case, that of Oregon, or perhaps, California.
This reading of the statute is confirmed by extensive legislative history. As private and state efforts at
irrigating the arid lands of the West failed, pressure
mounted during the last decade of the 19th century for
“[t]he plainness or ambiguity of statutory language is determined
by reference to the language itself, the specific context in which
that language is used, and the broader context of the statute as a
whole.” Robinson v. Shell Oil Co., 519 U.S. 337, 341 (1997).

App. 443
some form of federal support for irrigation. Many
bills were introduced in Congress during this decade
and up until 1902.18 As reflected in these bills, a primary point of contention was whether the irrigation
projects should be built and operated by the Federal
government or instead be built by the Western States
using land ceded to them for this purpose. Ultimately,
those who supported the Reclamation Act’s passage,
particularly representatives from the Western States
that stood to benefit most from the Act’s passage, convinced a majority that reclamation was a national
function and that the projects should be built by the
federal government.19 A robust secondary debate involved whether the Federal government or the States
should control the appropriation and distribution of
project water. Opponents of what would become the
Reclamation Act espoused the view that, if the Federal
government was to build and operate the projects, it
should control the appropriation and distribution of
the water. Supporters, however, retorted that this control should reside in the Western States, each of which,
18

See, e.g., 57th Cong., 1st Sess (1902): H.R. 52, H.R. 63, H.R.
125, S. 595, H.R. 7676, H.R. 9676, and S. 3057; 56th Cong., 2d
Sess. (1901): H.R. 13846, S. 5833, H.R. 13993, H.R. 14072, H.R.
14088, H.R. 14165, H.R. 14192, H.R. 14203, H.R. 14241, H.R.
14250, H.R. 14280, H.R. 14388; 56th Cong., 1st Sess. (1900):
S. 205, H.R. 5022; 55th Cong., 3d Sess. (1899): H.R. 11795; 55th
Cong., 2d Sess. (1898): S. 4017, H.R. 9994. S. 3057 is the bill that
ultimately became, as amended, the Reclamation Act.
19
See H. Rep. No. 57-1468, at 3-4 (1902); S. Rep. No. 57-254,
at 5 (1902); see also 35 Cong. Rec. 6675-76 (1902) (Cong. Mondell);
id. at 6673, 6734 (Cong. Newlands); id. at 6673 (Cong. Shafroth);
id. at 6740 (Cong. Reeder).

App. 444
by this time, had regimes for dealing with water rights.
They noted that the creation of a Federal regime for
establishing water rights would inevitably compete
with the preexisting state regimes, threatening a lifeblood issue for the arid states and leading potentially to unintended results.20 The approach of placing
20

President Roosevelt, a main supporter of this approach,
stated in a 1901 message to Congress that “[t]he distribution of
the water, the division of the streams among irrigators, should be
left to the settlers themselves in conformity with State laws and
without interference with those laws or with vested rights.” 35
Cong. Rec. 6775 (1902). Senator Clark of Wyoming, the chief senatorial sponsor of S. 3057, which became the Reclamation Act,
disclaimed the notion that “a great Government bureau . . . shall
have control of all the . . . waters in our arid regions.” 35 Cong.
Rec. at 2222. In a floor statement, he further explained –
The question of the conservation of waters is one of national importance; the question of reservoir sites and
reservoir building is one that appeals to the Government as a matter of national import, but the question
of State or Territorial control of waters after having
been released from their bondage in the reservoirs
which have been provided is a separate and distinct
proposition. . . . [I]t is right and proper that the various
States and Territories should control in the distribution. The conditions in each and every State and Territory are different. What would be applicable in one
locality is totally and absolutely inapplicable in another. . . . [T]o take from the legislatures of the various
States and Territories, the control of this question at
the present time would be something little less than
suicidal. They are the men qualified to deal with the
question, the laws are written upon their statute books
and read of all men. . . .
Id. A parallel history is revealed by the debates in the House. See
35 Cong. Rec. 6676 (Cong. Mondell) (asserting that section should
“reserv[e] control of the distribution of water for irrigation to the
respective States and Territories”); id. at 6678 (Cong. Mondell);

App. 445
control in the States, these legislators emphasized,
had been adopted by Congress in passing the Mining
Acts of 1866 and 1870, and the Desert Land Act of
1877.21
The legislative history – not to mention the statutory language – reflects that the latter view won out.
In this regard, the relevant Senate Report provided
that “[b]y section 8 there is to . . . be no interference
with State or Territorial laws on the subject of irrigation.” S.Rep. No. 254, supra, at 2. The accompanying
House Report, in much greater detail, adumbrates
that “[s]ection 8 recognizes State control over waters of
nonnavigable streams such as are used in irrigation,
and instructs the Secretary of the Interior in carrying
out the provisions of the act to conform to such laws.”
H. Rep. No. 1468, supra, at 6. It emphasizes that “nothing in the act shall be held as changing the rule of
id. at 6672-73 (Cong., Shafroth); id. at 6748 (Cong. Glenn); id. at
6752 (Cong. Jones); id. at 6763 (Cong. Mercer); id. at 6770 (Congressman Sutherland) (“if the appropriation and use were not under the provisions of the State law the utmost confusion would
prevail”); id. at 6728 (Cong. Burkett).
21
See Mining Act of 1866, ch. 262, 14 Stat. 251, 253, (1866),
as amended by Act of July 9, 1870, ch. 235, 16 Stat. 217, 218
(1870) (protecting a miner’s claim to water to the extent based on
“local customs, laws, and the decisions of the courts”); Desert
Land Act of 1877, 19 Stat. 377 (1877) (settlers’ water right “shall
depend upon bona fide prior appropriation”); see also 35 Cong.
Rec. 6678 (Cong. Mondell) (noting the desire to “follow[ ] the wellestablished precedent in national legislation of recognizing local
and State laws relative to the appropriation and distribution of
water”); California, 438 U.S. at 656-58 (observing this point in
construing these statutes); California Oregon Power Co. v. Beaver
Portland Cement Co., 295 U.S. 142, 153-58 (1935) (same).

App. 446
priorities on interstate streams,” id. at 6, noting further that “[u]nder this section uniformity of record of
the rights is secured and the rules of priorities of rights
are not disturbed,” id. at 7. Describing the Federalism
balance struck by the legislation, this same report reveals that the portions of section 8 requiring appurtenancy and beneficial use, together with those in section
5 of the Reclamation Act, limiting, for example, the size
of certain irrigated parcels to 160 acres, were designed
not to supplant state water law, but rather to ensure
that under that law, monopolistic ownership of public
waters (and eventually the lands associated therewith)
would not occur. Id. at 6-7 (noting that these provisions
were designed to “absolutely insure the user in his
right and prevent the possibility of speculative use of
water rights”).22 Indeed, the House Report anticipated that the Secretary would not begin construction
of works for the irrigation of lands in any State or
22

See also 35 Cong. Rec. 6679 (1902) (Cong. Mondell) (provision designed to prevent “the evils which come from recognizing
a property right in water with power to sell and dispose of the
same elsewhere and for other purposes than originally intended”);
35 Cong. Rec. 2222-23 (1902) (Sen. Clark) (indicating that these
provisions were designed to prevent “large areas of public domain”
from being “placed in the hands of the larger corporate interests”).
Subsequent Supreme Court cases construed these limitations
consistent with this legislative history. See, e.g., Bryant v. Yellen,
447 U.S. 352, 368 n.19 (1980) (noting that the 160 acres limitation
“helps open project lands to settlement by farmers of modest
means, insures wide distribution of the benefits of federal projects, and guards against the possibility that speculators will earn
windfall profits from the increase in value of their lands resulting
from the federal project”); Ivanhoe Irrig. Dist. v. McCracken, 357
U.S. 275, 297 (1958) (“The project was designed to benefit people,
not land”).

App. 447
Territory “until satisfied that the laws of said State or
Territory fully recognized and protected water rights
of the character contemplated.” Id. at 7.
Recounting this legislative history, the Supreme
Court, in California, supra, concluded that “the Act
clearly provided that state water law would control in
the appropriation and later distribution of the water.”
438 U.S. at 664. Writing on behalf of the majority, then
Justice, now Chief Justice, Rehnquist emphasized that
“[f ]rom the legislative history of the Reclamation Act
of 1902, it is clear that state law was expected to control in two important respects.” Id. at 665. “First,” he
noted, “the Secretary would have to appropriate, purchase, or condemn necessary water rights in strict conformity with state law.” Id. Repudiating dicta in earlier
cases, Justice Rehnquist then dismissed the notion
that state law control over the appropriation of water
was a mere technicality, in the process making short
shrift of the argument that “§ 8 merely require[s] the
Secretary of the Interior to file a notice of his intent to
appropriate but to thereafter ignore the substantive
provisions of state law.” Instead, he found that the legislative history made it “abundantly clear that Congress intended to defer to the substance, as well as the
form, of state water law.” Id. at 675; see also Nebraska
v. Wyoming, 295 U.S. 40, 42-43 (1935). “Second,” Justice
Rehnquist continued, “once the waters were released
from the Dam, their distribution to individual landowners would again be controlled by state law.” California, 438 U.S. at 667. The only exceptions to these
rules, he indicated, were two specific provisions of the

App. 448
Reclamation Act that were to govern to the extent inconsistent with state law: section 5, which forbade the
sale of reclamation water to tracts of land of more than
160 acres, and section 8 of the Act, which required that
the water right must be appurtenant to the land irrigated and governed by beneficial use. Id. at 668 n.21.
California thus authoritatively teaches that defining property rights as to the water in question is
a matter of state, not federal, law. Consistent with
this view and the statute’s legislative history, courts
and commentators alike have viewed the appurtenancy/
beneficial use clause at the end of section 8 merely as
an overlay to state law, designed to prohibit monopolistic control over western waters.23 If the law were
otherwise, a property owner could claim water rights
under section 8 solely based upon appurtenancy and
beneficial use, even without a contract or some other
arrangement to receive project water. Yet, such naked
claims have been rejected by courts holding that the
23

See, e.g., Peterson v. United States Dept. of Interior, 899
F.2d 799, 802 (9th Cir.), cert. denied, 498 U.S. 1003 (1990) (“Congress was particularly concerned that the reclamation projects
not fuel land speculation in the West or contribute in any way to
the monopolization of land in the hands of a few private individuals.”); Joseph L. Sax, “Problems of Federalism in Reclamation
Law,” 37 U. Colo. L. Rev. 49, 67 (1964-65) (appurtenancy/beneficial
use was “designed to insure that the benefits of federal irrigation
programs went to, and stayed with, small family farmers, and
that water did not fall into the hands of large speculators and corporations”); Paul S. Taylor, “The Excess Land Law: Execution of
a Public Policy,” 64 Yale L.J. 477, 483-86 (1955) (the Reclamation
Act was “drawn with unusual care to prevent monopoly of water
on reclaimed public lands”).

App. 449
appurtenancy and beneficial use concepts of section 8
only apply to properties otherwise entitled to receive
distributions of project water. Thus, for example, in
United States v. Alpine Land & Reservoir Co., 878 F.2d
1217 (9th Cir. 1989), the Ninth Circuit explained –
[T]he beneficial use requirement occurs only
in the context of determining how much water
duty is appropriate for lands already entitled
to receive Project water. Section 8 of the Act
strictly limits the beneficial use concept to
properties that are entitled to receive Project
water. Section 8 explains that beneficial use is
the measure of the right to the use of water
acquired under the provisions of this Act.
The critical defect with the transferee properties involved in this case, however, is that they
generally have no right to receive Project water. The landowners do not hold contracts or
certificates entitled their properties to be irrigated. The beneficial use discussion . . . is
therefore of no consequence to the presumed
right of transferee properties to receive transferred water rights.
Id. at 1228-29 (emphasis in original); see also United
States v. Clifford Matley Family Trust, 354 F.3d 1154,
1163 (9th Cir .2004); Reed D. Benson, “Whose Water
Is It? Private Rights and Public Authority Over Reclamation Project Water,” 16 Va. Envtl. L.J. 363, 397-98
(1997).
Seeking to sidestep the California case, plaintiffs
place heavy reliance on a triumvirate of cases – Ickes

App. 450
v. Fox, 300 U.S. 82 (1937), Nebraska v. Wyoming, 325
U.S. 589 (1945) and Nevada v. United States, 463 U.S.
110 (1983). They claim that these cases hold that the
Reclamation Act establishes a federal property right to
the use of water in the case of irrigation appurtenant
to the land, subject to beneficial use. But, even a cursory review of these cases reveals that they hold nothing of the sort, but rather merely reflect the perceived
result of the interaction between the Reclamation Act
and the particular laws of the states involved. Given
the importance of this point, a few words of elaboration
are in order.
Plaintiffs cite statements in these cases describing
water rights associated with reclamation projects and
arising out of appurtenancy as “the property of the
land owners,” Ickes, 300 U.S. at 95, or a “property
right,” Nebraska, 325 U.S. at 614, or conversely, recognizing that the United States ownership of certain water rights was “at most nominal,” Nevada, 463 U.S. at
126. But, read in context and in their entirety, these
statements only describe either: (i) the impact of section 8 on water rights that were deemed established
under state law; or (ii) the fact that that section does
not confer independently any significant interest in the
reclamation waters upon the United States. In Ickes,
supra, for example, the Supreme Court held that the
United States was not an indispensable party to a lawsuit brought by farmers in Washington against the Bureau. Ickes, 300 U.S. at 96-97. In concluding that the
United States did not become the owner of the water
rights at issue, the Court rejected the government’s

App. 451
reliance upon the Reclamation Act and instead relied
on contracts and a Washington state law that provided
that “[t]he right to the use of water which has been applied to a beneficial use in the state shall be and remain appurtenant to the land or place upon which the
same is used.” 300 U.S. at 94 n.3 (citing Laws of Wash.,
1917, c. 117, § 39, p. 465; Laws of Wash., 1929, c. 122,
§ 6, p. 274; Rem. Rev. Stat. § 7391, vol. 8, p. 425). Likewise in Nebraska, supra, an original proceeding to apportion the waters of the Platt River, the Supreme
Court again refused to find that section 8 granted the
United States any water rights, and instead looked to
state law on appropriation to determine the existence
and nature of the property interest at issue in those
cases. Nebraska, 325 U.S. at 612-15. Applying Nebraska
and Wyoming law, the Court noted the Reclamation
Act’s “direction . . . to the Secretary of the Interior to
proceed in conformity with state laws in appropriating
water for irrigation purposes,” and stated that it “intimate[d] no opinion whether a different procedure
might have been followed so as to appropriate and reserve to the United States all of these water rights,”
noting that “[n]o such attempt was made.” Id. at 61415. Finally in Nevada, supra, the Court, reaffirming its
decision in California, focused on “the law of the relevant State [i.e., Nevada] and the contracts entered into
by the landowners and the United States” in deciding
that beneficial use gave rise to private rights in water.
463 U.S. at 122. Nonetheless, it ultimately resolved
this case, which involved an attempted reallocation of
reclamation water rights, based upon res judicata principles. Id. at 145.

App. 452
While these cases certainly hold that section 8
does not confer water rights on the United States, that
conclusion did not spring from the notion that section
8, rather than state law, somehow grants those rights
to other parties. Indeed, few, if any, broad principles
can be distilled from the Court’s comments on the state
water rights at issue in these cases because those comments depended upon several key assumptions. In
Ickes, those assumptions derived from the procedural
posture of the case – the sovereign immunity question
presented involved a motion to dismiss, requiring the
Court, under familiar rules, to treat the allegations
made in plaintiffs’ amended bills of complaint as true,
including those involving their claimed water rights
and those of the United States. The latter principle so
drove the analysis in Ickes that, later in California, the
Supreme Court characterized Ickes as not involving a
construction of section 8. See California, 438 U.S. at
651 (“so far as we can tell, the first case to come to this
Court involving the Act at all was Ickes . . . and the first
case to require construction of § 8 of the Act was United
States v. Gerlach Live Stock Co., supra, decided nearly
half a century after the enactment of the 1902 statute”). Likewise, in both Nebraska and Nevada, the genuinely operative portions of those opinions focused
not on whether the parties competing with the United
States had perfected interests in the subject water
under state law, but rather on how those rights were
affected by the Reclamation Act (and the Desert Land
Act before it) and whether the United States had

App. 453
somehow obtained a priority interest in such waters.24
Neither of these cases undertook a comprehensive review of the laws of the states in question, nor addressed
whether the United States could have obtained an
overriding interest in the waters under some other
state procedure. See, e.g., Nebraska, 325 U.S. at 615.
To the extent that these cases may be viewed as
construing the interrelationship between state laws
and the overlaying principles of section 8, they say virtually nothing about the interaction between section 8
and the underlying provisions of Oregon and California law that are at issue here. Suggestions in the Ickes
line that there is a uniform body of western water
24

In Ickes, 300 U.S. at 96, the case came before the Supreme
Court on defendant’s motion to dismiss, which “concede[d] the
truth of ” plaintiff ’s allegations that “their water-rights ha[d] become vested” under state law. The Court indicated that given
the procedural posture, even if those allegation [sic] had been
denied, “we should still be obliged to indulge the presumption . . .
that respondents might be able to prove them.” Id. Similarly, in
Nebraska, 325 U.S. at 612, the Court based its decision, in part,
on the premise that “the water rights on which the North Platte
[Reclamation] Project and the Kendrick [Reclamation] Project
rest have been obtained in compliance with state law.” The Court
found that Congress, in passing section 8, had chosen to require
the Secretary to ensure that “projects were designed, constructed
and completed according to the pattern of ” state appropriation
laws, and found that the Secretary, indeed, had complied with
these laws by obtaining permits from state officials. Id. at 612-14.
Finally, in Nevada, supra, the Court concluded that the “beneficial interest in the rights confirmed to the Government resided in
the owners of the [appurtenant] land,” observing “[a]s in Ickes v.
Fox and Nebraska v. Wyoming, the law of the relevant State and
the contracts entered into by the landowners and the United
States make this point very clear.” 436 U.S. at 126.

App. 454
rights law must be viewed cautiously, recognizing that
the laws in these States largely, but not completely,
overlap. Because those differences sometimes are pronounced – particularly, as they apply to the United
States, and especially, in terms of reclamation – any
attempt to extrapolate the reclamation water rights
owned by an individual in one state from cases involving the laws of another state is perilous, at least until
relevant congruencies between the two regimes have
been established. The Court had no need to make the
latter type of comparison in any of the Ickes line of
cases, and did not do so. Nor did any of these cases
mention, even in passing, the laws of Oregon or California. Indeed, while plaintiffs blithely claim otherwise, there is not the slightest hint that any of those
cases remotely considered laws similar to those specifically governing reclamation in the two states at issue here.25 Perhaps for these reasons, in trumpeting
25

At oral argument, plaintiffs’ counsel asserted that the laws
of Oregon mirrored, in pertinent respects, the laws of the states
involved in Ickes, Nebraska and Nevada. That proposition, however, is not borne out by the copies of the state statutes which
plaintiffs provided subsequent to the argument. Any notion that
the water laws of the Western States are uniform can be readily
dispelled by even a cursory review of Wells A. Hutchins’s seminal
treatise Water Rights Laws in the Nineteen Western States, which
dedicates three volumes and approximately 2,000 pages to describing, in magisterial detail, the many variations in water laws
and water rights in those states. Notably, Hutchins divides the
Western States and their approaches to water into three broad
groups – Oregon and California are placed in a different category
than Nevada, Colorado, Wyoming, and Nebraska. The latter, of
course, were the states sub judice in the triumvirate of Supreme
Court cases on which plaintiffs rely. See Wells A. Hutchins, I Water Rights Laws in the Nineteen Western States 2-3 (1971); see also,

App. 455
certain [statements from the Ickes line of cases,
plaintiffs gloss over the associated references to individual state laws, not to mention the many qualifiers
and caveats that the Supreme Court employed in indicating, for example, that a given rule “generally” applied in Western States or represented an approach
held “in common with most other states.”26 With these
qualifications restored, the Ickes troika hardly provides an analytical stepping stone from which to leap
to the conclusion that Congress, in passing the reclamation laws, intended to create usufructuary rights independent of state law.
Finally, plaintiff ’s construction of the Ickes line of
cases runs headlong into a wide range of precedent.
Certainly, nothing in these cases conflicts with the
Supreme Court’s holding in California, that, under
the Reclamation Act, state water law controls the
e.g., 1 Waters and Water Rights § 8.02 (Robert E. Beck, ed. 1991)
(providing “a State-by-State account of the adoption of appropriative rights or of dual [appropriation and riparian] systems” in
the Western States, and dividing those states’ water laws as falling into three broad categories); 6 Waters and Water Rights, Part
XI, Subpart B (Robert E. Beck, ed. 1991) (summarizing the differences and similarities among the water laws of all 50 states); David Getches, Water Law In a Nutshell 192 (1984).
26
See (with emphasis added): Nevada, 463 U.S. at 126 (“[t]he
law of Nevada, in common with most other western States,
requires for the perfection of a water right for agricultural purposes that the water must be beneficially used by actual application on the land”); Ickes, 300 U.S. at 95-96 (in Western states
“generally . . . it long has been established law that the right to
the use of water can be acquired only by appropriation for beneficial use”); see also Arizona v. California, 460 U.S. 605, 620 (1983)
(“the prevailing law in the western states”).

App. 456
appropriation and later distribution of water, and any
rights inherent in these functions. Plaintiffs are left to
argue that Ickes and Nebraska were inconsistent with
the California case, yet somehow survived the latter
(and later) decision. That bit of ipse dixit is dubious
enough on its face, let alone if one gives those cases the
broad compass plaintiffs would afford them – a compass that would inevitably bring them all the more
into conflict with California. And, even though Nevada
was decided five years after California, any notion that
the former, sub silentio, overruled the latter can best
be described as unrealistic – 70 years of decisions
in the Supreme Court27 and elsewhere,28 which have
27

See Bryant v. Yellen, 447 U.S. 352, 371 n.22 (1980) (“the
source of present perfected rights is to be found in state law”); City
of Fresno v. California, 372 U.S. 627, 630 (1963) (“the effect of § 8
in such a case is to leave to state law the definition of the property
interests, if any, for which compensation must be made”); United
States v. Gerlach Live Stock Co., 339 U.S. 725, 734 (1950) (under
the reclamation laws, “Congress proceeded on the basis of full
recognition of water rights having valid existence under state
law”); Silas Mason Co. v. Tax Comm’n of State of Wash., 302 U.S.
186, 199 (1937) (section 8 “directed the Secretary of the Interior
to proceed in conformity with the state laws in carrying out the
provisions of the act and provided that nothing therein contained
should be construed as interfering with the laws of the State relating to the control, appropriation, use or distribution of water
used in irrigation”); Nebraska v. Wyoming, 295 U.S. 40, 42 (1935)
(“[a]ll of the acts of the Reclamation Bureau in operating the reservoirs so as to impound and release waters of the river are subject to the authority of Wyoming”); see also California v. FERC,
495 U.S. 490, 504 (1990) (discussing the holding of California as
it applies to the Reclamation Act of 1902).
28
See, e.g., Westlands Water Dist. v. Natural Resources Defense
Council, 43 F.3d 457, 461 (9th Cir. 1994) (subjecting the United
States, as owner of water rights in California, to provisions of

App. 457
consistently construed the Reclamation Act as deferring to state law in determining who has interests in
reclamation waters, prove that notion false. In the last
analysis, to rule in plaintiffs’ favor on this issue, this
court would not only have to defenestrate this authority, contraindications in the Ickes cases themselves, see,
e.g., Nevada, 463 U.S. at 121 (reaffirming the ruling in
California) and a wealth of legislative history, but also
be prepared to flip the statute onto its head, treating
the majority of the language therein not as the embodiment of an important principle of cooperative Federalism, but rather as an empty formalism.29 While
California water law restricting the location and use of that water); United States v. Alpine Land and Reservoir Co., 887 F.2d
207, 212 (9th Cir. 1989) (concluding that “[s]tate law regarding
the acquisition and distribution of reclamation water applies if it
is not inconsistent with congressional directives”); Jicarilla
Apache Tribe v. United States, 657 F.2d 1126, 1133 (10th Cir.
1981) (“[i]t generally can be said that state law governs the distribution of water from federal projects unless Congress expresses
a different approach”); Grey v. United States, 21 Cl. Ct. 285, 295
(1990) (quoting California, supra, for the proposition that the Reclamation Act provides that “state water law would control in the
appropriation and later distribution of [Reclamation Project] water”); Kandra v. United States, 145 F. Supp. 2d 1192, 1201 (D. Or.
2001) (“[u]nder federal reclamation law, the Secretary of the Interior is required to proceed in conformity with state laws with
respect to the control, appropriation, use, or distribution of water
used in irrigation”); Westlands Water Dist. v. United States, 805
F. Supp. 1503, 1509 (E.D. Cal. 1992) (“federal reclamation projects must be operated in accordance with state water law, when
not inconsistent with congressional directives” and requires the
United States to “respect [the state’s] appropriative water rights
hierarchy”).
29
In searching vainly for evidence of a more sweeping interpretation of the Ickes line of cases, plaintiffs rely on documents

App. 458
plaintiffs may cling to such a res ficta, it remains that
Congress enacted no such fantasy.
As such, it is apparent that this court must proceed to consider state law in determining whether
plaintiffs have property rights in the waters of the Klamath Project.
B. State Law
Under the umbrella of the prerogatives created
by the Reclamation Act, the States, in the years following the passage of the Act, began to pass reclamation
legislation, often prompted by the desire of luring a
issued by the Solicitor and a Regional Solicitor of the Department
of the Interior in 1989 and 1995, respectively. But, even these documents recognize that the determination and distribution of water rights in reclamation projects is dependent upon state law.
See, e.g., Memorandum from the Regional Solicitor, Pacific Southwest Region to the Regional Director, Bureau of Reclamation,
Pacific Southwest Region 2 (Jul. 25, 1995). Moreover, in a 1933
decision, the Department of Interior opined that the United States
rights to the waters of the Klamath Basin were based upon Oregon law. See Water Rights on Lower Klamath Lake, 53 Interior
Dec. 693, 695-98 (1932). At all events, by all appearances, the documents cited by plaintiff were not arrived at through formal adjudication or notice-and-comment rule making and thus do not
represent any agency’s formal position on this issue. See United
States v. Mead Corp., 533 U.S. 218, 234 (2001); see also Cuyahoga
Metr. Hous. Auth. v. United States, 65 Fed. Cl. 534, 551 n.19
(2005). Even were these documents indicative of the agency’s formal position, it is beyond peradventure that an agency may
change its mind, provided, critically, its new position is supported
by the law. Good Samaritan Hosp. v. Shalala, 508 U.S. 402, 41617 (1993); Automobile Club of Mich. v. Commissioner, 353 U.S.
180, 180-86 (1957). In the court’s view, the latter requirement has
been met here.

App. 459
project within their borders. Defendant claims that it
owns controlling rights to the Klamath Project water
based upon one such statute, the Act of the Oregon legislature of February 22, 1905, which read, in relevant
part, as follows:
Whenever the proper officers of the United
States, authorized by law to construct works
for the utilization of water within this State,
shall file in the office of the State Engineer a
written notice that the United States intends
to utilize certain specified waters, the waters
described in such notice and unappropriated
at the time of the filing thereof shall not be
subject to further appropriation under the
laws of this state, but shall be deemed to have
been appropriated by the United States; provided, that within a period of three years from
the date of filing such notice the proper officer
of the United States shall file final plans of the
proposed works in the office of the State Engineer for his information; and provided further,
that within four years from the date of such
notice the United States shall authorize the
construction of such proposed work. No adverse claims to the use of the water required
in connection with such plans shall be acquired under the laws of this State except as
for such amount of said waters described in
such notice as may be formally released in writing by an officer of the United States thereunto
duly authorized, which release shall also be
filed in the office of the State Engineer.
Or. Gen. Laws, 1905, Chap. 228, § 2, p. 401-02. In a separate 1905 law, the Oregon Legislature also authorized

App. 460
the raising and lowering of Upper Klamath Lake in
connection with the Project, allowed the use of the bed
of Upper Klamath Lake for storage of water for irrigation; this law “ceded to the United States all the right,
title, interest, or claim of this State to any land uncovered by the lowering of the water levels, or by the
drainage of any or all of said lakes not already disposed
of by the State.” Or. Gen. Laws, 1905, ch. 5, §§ 1-2, p.
63-64.30
In February of 1905, the Congress authorized the
development of the Klamath Irrigation Project. Act of
February 9, 1905, ch. 567, 33 Stat. 714. Pursuant to
that legislation, on May 17, 1905, the United States
filed a notice of intention to appropriate Klamath River
water, stating:
Notice is hereby given that the United States
intends to utilize certain specified waters, as
follows, to-wit: All of the waters of the Klamath Basin in Oregon, constituting the entire
drainage basins of the Klamath River and
Lost River, and all of the lakes, streams and
30

On February 3, 1905, California enacted a statute similar
to this provision. It stated – “[t]hat for the purpose of aiding in
the operations of irrigation and reclamation conducted by the Reclamation Service of the United States . . . the United States is
hereby authorized to lower the water levels of any or all of the
following lakes: Lower or Little Klamath lake, Tule or Rhett lake,
Goose lake, and Clear lake, . . . and to use any part or all of the
beds of said lakes for the storage of water in connection with such
operations.” 1905 Cal. Stat., p. 4. The statute also “ceded to the
United States all the right, title, interest, or claim of this State to
any lands uncovered by the lowering of the water levels, of any or
all of said lakes, not already disposed of by this state.” Id.

App. 461
rivers supplying water thereto or receiving
water therefrom, including the following and
all their tributaries . . . [listing tributaries].
It is the intention of the United States to completely utilize all the waters of the Klamath
Basin in Oregon, and to this end this notice
includes all lakes, springs, streams, marshes
and all other available waters lying or flowing
therein.
That the United States intends to use the
above described waters in the operation of
works for the utilization of water in the state
of Oregon under the provisions of the act of
Congress approved June 17, 1902 (32 Stat,
388), known as the Reclamation Act.
In addition, the Bureau posted notices of appropriation
for the Lost River system, which flowed from California to Oregon and back to California. The record reflects that it also acquired, by purchase from private
parties, water rights with earlier priorities for the benefit of the Klamath Project.
Every indication is that the May 1905 notice triggered the provisions of the 1905 Oregon legislation,
thereby vesting in the United States, as of that time,
the appropriative water rights associated with the
Klamath project that were unappropriated as of the
date of the filing.31 This conclusion is confirmed by
31

It should be noted that the United States met the other
two requirements imposed by the 1905 Oregon law. Thus, on May
6, 1908, the Bureau filed plans and specifications for the Klamath
Irrigation Project with the State Engineer. And, on May 8, 1909,

App. 462
In re Waters of the Umatilla River, 168 P. 922, 925 (Or.
1917), in which the Oregon Supreme Court held that,
under the 1905 legislation, a similar notice by the
United States “vested the United States with title to
all the then unappropriated water of the Umatilla
River.” On rehearing, that court reaffirmed its prior
conclusion, explaining further –
By the statute quoted in the previous opinion
the Legislature withdrew from further appropriation the waters of such streams as the
United States should elect to utilize in the
manner therein pointed out. The United
States has accepted the grant and conformed
to the terms thereof. The Legislature could
not displace water rights which had vested
prior to the acceptance by the United States
of the provisions of the statute, but the plain
precept of the law vests the United States
with title to all waters not theretofore appropriated. The claim of the government . . . must
be sustained, regardless of the diligence of the
government in matters not specified in the
statute, and regardless of the amount of water
required to irrigate the lands served by the
government ditches.
In re Waters of Umatilla River, 172 P. 97, 100 (Or.
1918); see also Paul S. Simmons, “Klamath Basin: Endangered Species Act and Other Water Management
Issues,” SJ023-ALI-ABA 127, 133 (2003) (hereinafter
the Bureau filed proof of authorization to construct the necessary
works. On May 17, 1909, the Bureau filed supplemental plans
with the State Engineer.

App. 463
“Simmons”) (noting that via the notice, “under Oregon
law, water was thus ‘deemed appropriated’ and unavailable for other uses”). Commenting on these opinions, as
well as the 1905 Act, a 1933 decision of the United
States Department of the Interior stated – “This section of Oregon law was considered by the Supreme
Court of Oregon in Re Waters of Umatilla River . . . in
which it was held that the right of the United States
through compliance with this act to all the waters not
then appropriated is not affected by its lack of diligence
in completing its project or by the fact of all the waters
not being required to irrigate the lands served by its
ditches, these matters not being conditions of the statute.” Water Rights on Lower Klamath Lake, 53 Interior
Dec. at 698. This decision concluded that “[t]he right
conferred upon the United States by the State of
Oregon to appropriate unappropriated waters in that
State for agricultural purposes was plenary as to its
use. . . .” Id. at 698.32
32

Although research reveals no other case that has directly
examined this issue, a number of prior opinions proceeded from
the uncontested assumption that the United States, in 1905,
appropriated all unappropriated water rights in the Basin. See
Klamath Water Users Protective Ass’n v. Patterson, 204 F.3d 1206,
1209 (9th Cir. 2000) (“In 1905, in accordance with state water law
and the Reclamation Act, the United States appropriated all
available water rights in the Klamath River and Lost River and
their tributaries in Oregon and began constructing a series of water diversion projects.”); Kandra, 145 F. Supp.2d at 1196 (same);
PCFFA, 138 F. Supp.2d at 1230 (same); Klamath Water Users
Ass’n v. Patterson, 15 F. Supp.2d 990, 991-92 (D. Or. 1998) (same).
Moreover, other state courts construing state law provisions identical to the Oregon law have similarly concluded that the United
States obtained all available appropriative water rights in given

App. 464
In arguing to the contrary, plaintiffs place stock in
a 1950 Oregon Attorney General opinion, which found
that the United States, by filing its notice under the
1905 Act, acquired the unappropriated water of the
Klamath Basin “reasonably necessary” to the Project,
but only to the extent the United States put those waters to “beneficial use.” See Oregon Attorney General
Opinion No. 1583, 25 Op. Atty. Gen. 62 (Nov. 10, 1950).
Plaintiffs intimate that this “beneficial use” concept
limits the scope of the rights obtained by the United
States under the 1905 Act, paving the way for them to
assert contrary interests under state law. Per contra.
To the extent the 1950 opinion may be viewed as applying such a use limitation to the United States, it
is inconsistent not only with the plain language of
the 1905 Act,33 but also with the holding in Umatilla,
supra, that the United States had “vested” rights in
the subject water “regardless of the amount of water
reclamation water simply by filing an appropriate notice. See
Oklahoma Water Resources Bd. v. Foss Reservoir Master Conservancy Distr., 527 P.2d 162, 163-65 (Okla. 1974); City of Stillwater
v. Oklahoma Water Resources Bd., 524 P.2d 938, 943 (Okla. Civ.
App. 1974) (federal government granted “appropriative water
rights to unappropriated water simply by filing notice of intent to
utilize it”).
33
In holding that interests adverse to those of the United
States could arise independently under state law, the 1950 opinion not only clashes with the portion of 1905 Act that provides
waters appropriated via the notice “shall not be subject to further
appropriation under the laws of this state,” but also with the portion that states “[n]o adverse claims to the use of the water required in connection with such plans shall be acquired under the
laws of this State” except as “may be formally released in writing
by an officer of the United States.”

App. 465
required to irrigate the lands served by the government ditches.” 172 P. at 100.34 Perhaps not coincidentally, the 1950 opinion clashes with at least four
earlier opinions of the Oregon Attorney General. The
first of these, issued in 1925, ordered the State Engineer to revoke a water permit that had been provided
to a power company, finding, based upon the 1905 Act,
that “[i]t is clear, therefore, that the waters of Upper
Klamath Lake are thereby withdrawn in favor of the
federal government and that no private person or corporation can acquire the right to the use of any thereof
except such as may be hereafter specifically released
by the federal government.” Op. Or. Atty. Gen. 321, 322
(Jul. 1, 1925). Five years later, the Attorney General,
in opining against a power company’s application for a
34

The 1950 opinion appears to proceed from the mistaken
view that the Ickes line of cases somehow overruled the opinions
in Umatilla, supra, thus adopting the same overly-expansive interpretation of the Ickes line that underlies plaintiffs’ claims here.
See 25 Op. Atty. Gen. at 64. While the opinion also makes a glancing reference to the “beneficial use” language in section 8, id. at
63, any notion that the latter section somehow trumps the 1905
Act ignores not only the legislative history of that section, which
focuses on preventing monopolistic control by private entities, but
also the Supreme Court’s admonition that, in implementing the
reclamation laws, the Secretary should “follow state law in all respects not directly inconsistent with the[ ] directives” of section 8.
California, 438 U.S. at 678. Indeed, if the 1905 Oregon law were
viewed as being “directly inconsistent” with the “beneficial use”
requirement of section 8, it also would be directly inconsistent
with section 8’s requirement that water rights be “appurtenant to
the land irrigated.” The result would be to render the entire 1905
Act invalid. Plaintiffs do not make this argument, perhaps recognizing that Congress did not intend the appurtenancy/beneficial
use clause of section 8 to be wielded in this disruptive fashion.

App. 466
water appropriation, discussed, at length, the 1905 Act
and the Umatilla opinions, finding that “based upon
the statute as interpreted by the supreme court,” “without release by the federal government,” there was no
water “subject to appropriation at this time.” Op. Or.
Atty. Gen. 43, 47 (Nov. 14, 1930). Lastly, on two occasions in 1931, when requested to comment on bills involving the Klamath waters pending before the Oregon
legislature, the Attorney General responded – “As a
matter of law, as decided by the supreme court in the
case of In re Waters of Umatilla River . . . it seems clear
that no such appropriations subsequent to the act of
1905, above cited, are valid, until the United States
government releases a portion of the waters above
mentioned from the appropriation made by it under
the provisions of said act of 1905.” Op. Or. Atty. Gen.
134-35 (Feb. 25, 1931) and Op. Or. Atty. Gen. 143, 144
(Mar. 5, 1931). Forced to choose between the solitary
1950 opinion, on the one hand, and the opinions of the
Oregon Supreme Court, as well as others of the Oregon
Attorney General, on the other, the court opts for the
latter, particularly since the analysis therein comports
with the plain language of the 1905 Act.35
Accordingly, the court concludes that, pursuant
to relevant Oregon law, in 1905, the United States
obtained rights to the unappropriated water of the
35

Flaws similar to those found in the 1950 opinion are exhibited in the position the Oregon Attorney General has taken in the
Adjudication. See In the Matter of the Determination of the Relative Rights of the Waters of the Klamath River, a Tributary of the
Pacific Ocean, Oregon Water Resources Department’s Closing
Brief on Reply 36-41 (Jul. 14, 2005).

App. 467
Klamath Basin and associated tributaries. Of course,
this conclusion only goes so far – at least initially. It
does not answer whether any of the individual plaintiffs hold water rights that predate the 1905 notice –
in other words, that were already appropriated as of
the date of the filing. Nor does it reveal whether any of
the individual plaintiffs hold water rights that postdate the 1905 notice – that were obtained from the
United States. The court will consider these possibilities seriatim.
1. Pre-1905 Potential Interests
“Prior to 1909, there was no comprehensive state
regulatory system in Oregon for water.” Simmons, supra, at 130. Under Oregon law, to establish a right to
the use of water prior to the adoption of the Water
Rights Act of 1909, three elements had to be proven:
(1) An intent to apply [the water] to a beneficial use, existing at the time or contemplated
in the future; (2) a diversion from the natural
channel by means of a ditch, canal or other
structure; and (3) an application of it within a
reasonable time to some useful industry.
In re Water Rights in Silvies River, 237 P. 322, 336
(Or. 1925); see also In re Rights of Deschutes River and
Tributaries, 286 P. 563, 567 (Or. 1930); Low v. Rizor,
37 P. 82, 84 (Or. 1894). The Oregon Water Rights Act
of 1909 essentially preserves rights obtained in this
fashion prior to February 24, 1909, when that statute
took effect – such rights are vested, but undetermined

App. 468
pending an adjudication. See Or. Rev. Stat. 539.010(4)
(“[t]he right of any person to take and use water shall
not be impaired or affected by any provisions of the
Water Rights Act” where various conditions are met);
see also Staub v. Jensen, 178 P.2d 931 (Or. 1947).
Defendant asserts that “to the extent that any
waters in the Klamath Basin were ‘unavailable’ because such water already had been appropriated under
state law to be used on lands identified as part of the
Klamath Project, [the Bureau] acquired all of these
‘pre-Project’ water rights and integrated them into the
Project.” These acquisitions are detailed in various documents, including a 1911 report of the Board of Army
Engineers,36 as well as a stipulation of facts filed in the
Klamath Basin Adjudication, which involves many of
the plaintiffs here and defendant.37 Plaintiffs do not
seriously contest that this occurred and, indeed, have
provided no pre-1905 documentary evidence of water
rights that they claim are still existing. However, they
asseverate that the alleged pre-1905 rights of at least
seven parties38 were exchanged by them (or their
36

See “Fund for Reclamation of Arid Lands: Message of the
President of the United States Transmitting a Report of the
Board of Army Engineers in Relation to the Reclamation Fund,”
H.R. Doc. No. 61-1262, at 119-20 (1911).
37
See In the Matter of the Determination of the Relative
Rights of the Waters of the Klamath River, a Tributary of the Pacific Ocean, Statement of Stipulated Facts (hereinafter “Adjudication Stipulation of Facts”) 49, 54, 58, 63, 66, 73, 77 (Aug. 4, 2003).
38
The affected parties are the Van Brimmer Ditch Company,
Mike J. Byrne, Daniel W. Byrne, Deloris Chin, Daniel G. Chin,
Cheryl M. Moore and James L. Moore.

App. 469
antecedents) for a perpetual right to receive water
from the Klamath Project, thereby creating, in their
view, beneficial interests in the water. In fact, these exchanges appear to have taken the form of a series of
post-1905 contracts between the United States and
various entities, under which the former made various
commitments regarding the Klamath Project waters.
It appears that whatever property interests may still
exist in those waters derive from, and are limited by,
those commitments, a subject to which the court now
turns.
2. Post-1905 Potential Interests
The 1909 Oregon Water Rights Act established a
procedure under which persons could obtain a certificate to divert and use water for specified purposes. See
Or. Rev. Stat. §§ 537.120, et seq. The water rights created under this law were generally characterized by a
priority date, an authorized point of diversion, an authorized rate of diversion, a place of use, purpose of use,
season of use and a “duty” expressed in acre-feet per
acre. Id. at § 537.140; Tudor v. Jaca, 164 P.2d 680, 68687 (Or. 1945); see also Simmons, supra, at 130. But,
these provisions did not apply to the Klamath Project
water, given the 1905 Oregon law’s admonition that
“[n]o adverse claim to the use of the water required in
connection with such plans shall be acquired under
the laws of this state except as for such amount of said
waters described in such notice as may be formally released in writing by an officer of the United States
thereunto duly authorized which release shall also be

App. 470
filed in the office of the state engineer.” Instead, it appears that whatever interests were obtained by the
plaintiffs after 1905 were obtained – necessarily so –
directly from the United States, as the Klamath Project was constructed.39 See Israel v. Morton, 549 F.2d
128, 132-33 (9th Cir. 1977) (“Project water” is “not
there for the taking (by the landowner subject to state
law), but for the giving by the United States. The terms
upon which it can be put to use, and the manner in
which rights to continued use can be acquired, are for
the United States to fix.”).
These transactions – a subset of the approximately 250 Klamath water distribution arrangements
still being administered by the Bureau – occurred at
different times and took various forms. Since plaintiffs’
rights under Oregon law appear to be inextricably
linked to these transactions, it is appropriate to examine them at greater length.
Distribution of interests in the water of the Klamath Project began even before the works were constructed. Early on, owners of riparian or littoral rights
to certain water bodies exchanged those rights for
a right to receive water from the Klamath Project.
39

A detailed description of the construction of the various
phases of the Klamath Project is provided in the Adjudication
Stipulation of Facts, supra, at 76-86. This summary states, in
part, that: “[a]s part of the development of the Klamath Project,
lands and rights of way were acquired for facilities. In addition,
waivers of riparian rights were secured from a large number of
landowners on the Lost River, Tule Lake and along Klamath
River.” Id. at 77.

App. 471
Among the earliest such agreements was a November
6, 1909, contract between one of the plaintiffs, the Van
Brimmer Ditch Company, and the United States, in
which the former agreed to –
waive[ ] and renounce[ ] to the use and benefit
of the United States any and all of its riparian
rights, in relation to the waters and shores of
Lower Klamath Lake appurtenant or incident
to the lands now being irrigated by the Company, or any other lands now owned or controlled by the Company, and also waives and
renounces any and all claims for damages consequent upon or arising from any change of
the course or water-level of the said Lower
Klamath Lake, and its tributaries, due to the
operations of the United States.
In exchange, the United States agreed to “deliver to the
Company during each and every irrigation season . . .
a quantity of water, not to exceed fifty second feet, in
which the Company claims the right to the exclusive
use to irrigate sufficiently” certain defined pieces or
parcels of land.40 The contract further provided that
“[n]o interest in this agreement shall be transferred to
any other party, and any such transfer shall cause annulment of the contract so far as the United States is
concerned. . . .” Nonetheless, the United States agreed
40

Plaintiffs assert that this contract recognized the ditch
company’s prior vested right to use the water for irrigation purposes. It did not. Instead, it merely recited that “the Company
claims that is [sic] has established a vested right to the use of fifty
second feet of water for irrigation purposes from the water of
Lower Klamath Lake . . . ”

App. 472
to recognize “the right as existing in the Company to
the perpetual use of said fifty (50) second-feet of water,
according to the provisions herein set forth, subject,
however, to any possible established priority to the use
of said fifty (50) second-feet of water, other than such
as may be claimed by the United States or those claiming thru it.”
While there are indications that other individuals
exchanged pre-1905 water rights for a right to receive
water from the Klamath Project, the record reveals no
details of any such agreements as to any of the plaintiffs, other than the Van Brimmer Ditch Company.
More commonly, the United States or the Bureau
agreed to provide water to certain irrigators in exchange for payments designed to cover the cost of the
project. On November 6, 1905, the United States entered into such an agreement with the Klamath Water
Users Association, an Oregon corporation, whose incorporators and shareholders were owners of land within
the Klamath Basin. The agreement, again executed
prior to the time the irrigation works were constructed,
did not purport to ascertain or determine “the extent
of the individual appropriation of such water,” or the
“relative priority and extent of their several appropriations.” Rather, these issues were to be determined
under the rules and principles adopted by the Association. The agreement provided that only those who became members of the Association could be “accepted as
applicants for rights to the use of water available by
means of [the] proposed irrigation works.” It further
stated that “the aggregate amount of such rights to be

App. 473
issued shall, in no event, exceed the number of acres of
land capable of irrigation by the total amount of water
available for the purpose,” and that “the Secretary of
the Interior shall determine the number of acres so capable of such irrigation as aforesaid . . . ”41 Payments
were to be made for the water rights to be issued to
the shareholders of the Association, with the “cost of
said proposed irrigation works [to be] apportioned
equally per acre among those acquiring such rights.”
In the agreement, the Association guaranteed these
payments and agreed to take various steps to collect
them on behalf of the United States.
Following the execution of this contract, various
landowners entered into stock subscription agreements and contracts with the Association, which provided for the issuance of one share of stock for each
41

Regarding these water rights, the agreement further provided –
That in all the relations between the United States and
this Association and the members of the Association,
the rights of the members of the Association to the use
of water where the same have vested, are to be defined,
determined and enjoyed in accordance with the provisions of [the Reclamation Act of 1902] and of other acts
of Congress on the subject of the acquisition and enjoyment of the right to use water; and also by the laws of
the States of Oregon and California where not inconsistent therewith, modified, if modified at all, by the
provisions of the articles of incorporation and by-laws
of said Association.
It also indicated that any rules or regulations subsequently promulgated by the Secretary for the administration of the water to be
supplied were to be treated as if they expressly had been incorporated in the agreement.

App. 474
acre of irrigable land owned by the water user within
the Klamath Project boundaries. Each such landowner
desiring to receive water through Project facilities
filed a Water-Right Application for Land in Private
Ownership with the Department of Interior. These socalled “Form B” applications typically provided that
“the measure of the water right” applied for was “that
quantity of water which shall be beneficially used for
irrigation” of the applicant’s land, “but in no case exceeding the share of proportionate to irrigable acreage,
of the water supply actually available as determined
by the Project Manager or other proper officer of the
United States.”
The United States also entered into various water
arrangements in conveying or leasing land reclaimed
under the Klamath Project to homesteaders. Under
Oregon and California law, this land was ceded to the
United States and was opened to homesteaders over
several decades, beginning in the late 1910s. See
United States Department of the Interior, “Klamath
Project: Historic Operation” 6 (Nov. 2000). The homesteaders obtained a right to the use of water through
the Klamath Project in a multi-step process. Upon initial entry, the homesteaders generally filed a temporary water right application in which they agreed to
include the land within an irrigation district and to
repay a proportionate cost of the construction of the
Klamath Project. Upon fulfilling the requirements for
a homestead, the settlers filed an application for a
permanent water right. In this so-called “Form A” water rights application, the homesteader applied “for a

App. 475
permanent water right for the irrigation of and to be
appurtenant to all of the irrigable area now or hereafter developed” on the applicant’s land. The application
further stated that “[t]he quantity of water to be furnished hereunder shall be that quantity which may be
applied beneficially in accordance with good usage in
the irrigation of the land.” However, in case of water
shortages, the amount to be delivered would be “an equitable proportionate share . . . of the water actually
available at the time,” with that proportionate share
“to be determined by the project manager,” who, “[i]n
distributing and apportioning the water,” was permitted “to take into consideration the character and necessities of the land.” The application further
cautioned that “[o]n account of drought, inaccuracy in
distribution, or other cause, there may occur at times
a shortage in the water supply,” and that “such shortages” would in no event result in liability on the part
of the United States “for any damage direct or indirect
arising therefrom.” It was anticipated that certificates
would be issued to these homesteaders, but there is no
indication that any of the plaintiffs actually received
such certificates. Several of the individual irrigators
possess patent deeds apparently stemming from these
applications, which grant to them a tract described,
“together with the right to the use of water from the
Klamath Reclamation Project as an appurtenance to
the irrigable lands in said tract.”
Additional contracts between the United States
and certain individuals and entities were entered into
under the Warren Act of 1911, ch. 141, 36 Stat. 925

App. 476
(codified at 42 U.S.C. §§ 523-35), which authorized
the Secretary to sell surplus water to non-project irrigators. These contracts provided for a water supply
at a given point, but placed the responsibility on the
contractor to construct all the necessary conveyance
facilities. These contracts typically included clauses
holding the United States not liable for the failure to
supply water caused by drought.42
Over time, many of the above-referenced contracts
were subsumed and supplanted by contracts between
the United States or the Bureau and various water districts. For example, in 1917, the stockholders of the Association desired to form irrigation districts that would
assume the debt to the United States and, on December 8, 1917, created the Klamath Irrigation District
(KID). On July 6, 1918, the United States, the KID and
the Association entered into an agreement whereby
the KID assumed the obligations of the Association
and its stockholders.43 Later, on April 10, 1922, the
United States entered into another contract with the
KID in which the latter assumed the liability for the
annual cost of carrying and delivering water to the
Van Brimmer Ditch Company. The Klamath Irrigation
42

Examples of such provisions may be found, for example,
in a 1952 contract between the United States and the Midland
District Improvement Company.
43
The Contract between KID and the United States was
amended six times between 1920 and 1950. In 1954, a seventh
amendment of the contract provided that KID would assume the
obligation of the United States for the delivery of water to other
districts and private Warren Act contractors who received water
through the delivery system that served KID.

App. 477
District continues to deliver water to Van Brimmer. On
November 29, 1954, the United States entered into an
“amendatory contract” with KID that restated the parties’ obligations regarding the delivery of water and
payments therefor. Paragraph 26 of this agreement
provided:
On account of drought or other causes, there
may occur at times a shortage in the quantity
of water available in Project reservoirs and,
while the United States will use all reasonable means to guard against such shortage, in
no event shall any liability accrue against the
United States or any of its officers, agents, or
employees for any damage, direct or indirect,
arising therefrom and the payments to the
United States provided for herein shall not be
reduced because of any such shortage.
Virtually identical clauses absolving the United States
from liability associated with “drought or other causes”
appeared in contracts between the United States and
various other districts in Oregon, including the Sunnyside Irrigation District (entered into in 1922), the
Malin Irrigation District (1922), the Shasta View Irrigation District (1948), and the Klamath Basin Improvement District (1962). Somewhat similar, although not
identical, “shortage” clauses appeared in other district
contracts, including those with the Pine Grove Irrigation
District (entered into in 1918), the Enterprise Irrigation District (1920), the Midland District Improvement

App. 478
Co. (1952), and the Poe Valley Improvement District
(1953).44
In 1956, as authorized by the Act of August 1,
1956, Pub. L. 877, the Bureau also entered into a contract with the Tulelake Irrigation District (TID), which
had been formed in 1952 by landowners in Modoc and
Siskiyou Counties, California. As with similar contracts, under this contract, TID assumed the responsibility for the operation and maintenance of certain (but
not all) project works within the Klamath Project and
for delivering water within the district. The contact
provided for the collection by TID, and payment to the
United States, of outstanding repayment obligations of
landowners within the district. As in many of the other
district contracts, paragraph 26 of this contract provided –
On account of drought or other causes, there
may occur at times a shortage in the quantity
of water available by means of the Project
and, while the United States will use all reasonable means to guard against such shortage, in no event shall any liability accrue
against the United States or any of its officers,
agents, or employees for any damage, direct or
indirect, arising therefrom and the payments

44

Commonly, these contracts included a water shortage
clause stating that “[t]he United States shall not be liable for failure to supply water under this contract caused by hostile diversion, drought, interruption of service made necessary by repairs,
damages caused by floods, unlawful acts, or unavoidable accidents.”

App. 479
to the United States provided for herein shall
not be reduced because of any such shortage.
In addition, the contract provided that “[i]n the event
a shortage of water available from the Klamath Project
arises as a result of drought or other unavoidable
causes, the United States may apportion the available
supply among the District and others having rights of
priority equal to the rights of the District.” The repayment obligations subsumed by this contract included
those of certain of the homesteaders discussed above,
as well as those associated with the Warren Act contract lands.
Finally, it appears that two of the plaintiffs, the
Klamath Drainage District and the Klamath Hills District Improvement Company, hold water right permits
that evidence their ownership of a “vested and determined water right” under Oregon law. These permits,
which were limited both in terms of a specific cubic feet
per second of water, as well as to the amount of water
that could be applied to beneficial use, were issued after the State of Oregon repealed the 1905 law in 1953.
3. The Nature of the Interest Created in the
Post-1905 Transactions
Based on the foregoing, it appears that the various
plaintiffs’ interests in the Klamath Project water fall
into five basic categories: (i) interests based upon an
exchange agreement, in which preexisting water rights
were exchanged for an interest in the Project water;
(ii) interests deriving from district contracts with the

App. 480
United States or the Bureau, claimed by the districts;
(iii) interests deriving from the district contracts with
the United States, claimed by individual irrigators as
alleged third-party beneficiaries; (iv) interests based
upon application for the beneficial use of water filed
either by homesteaders on reclaimed lands (Form A),
or by homesteaders or other landowners whose property does not involve reclaimed lands (Form B), and the
patent deeds issued allegedly in response thereto; and
(v) interests based upon alleged water rights permits
granted by the State [sic] Oregon after the repeal of
the 1905 Oregon legislation in 1953. As detailed in the
accompanying Appendix A, at least one of these categories covers each of the plaintiffs.
a. Interests based on contracts
The first three categories listed above all involve
claims based upon contracts with the United States. It
is, of course, well-established that “[r]ights against
the United States arising out of a contract with it are
protected by the Fifth Amendment.” Lynch v. United
States, 292 U.S. 571, 579 (1934).45 Nonetheless, the
Federal Circuit “has cautioned against commingling
takings compensation and contract damages.” Hughes
Communications Galaxy, Inc. v. United States, 271 F.3d
1060, 1070 (Fed. Cir. 2001). In Hughes, the plaintiff
45

See also Bass Enter. Prod. Co. v. United States, 133 F.3d
893, 896 (Fed. Cir. 1998); Sun Oil Co. v. United States, 572 F.2d
786, 818 (Ct. Cl. 1978); Franconia Assocs. v. United States, 61 Fed.
Cl. 718, 737 (2004); see generally Ruckelshaus v. Monsanto Co.,
467 U.S. 986, 1003 (1984).

App. 481
asserted that NASA’s breach of a contract to launch its
satellites amounted to a takings, entitling it to prejudgment interest. The Federal Circuit rejected this
claim, reasoning –
If, as Hughes, asserts, the Government’s
breach of the [contract] was a taking under
the Fifth Amendment, then nearly all Government contract breaches would give rise to
compensation under the Fifth Amendment . . .
Indeed, “the concept of taking as a compensable claim theory has limited application to the
relative rights of party litigants when those
rights have been voluntarily created by contract. In such instances, interference with
such contractual rights generally gives rise to
a breach claim not a taking claim.” . . . Taking
claims rarely arise under government contracts because the Government acts in its
commercial or proprietary capacity in entering contracts, rather than in its sovereign capacity. . . . Accordingly, remedies arise from
the contracts themselves, rather than from
the constitutional protection of private property rights . . .
Hughes, 271 F.3d at 1070 (quoting Sun Oil Co. v.
United States, 572 F.2d 786, 818 (Ct. Cl. 1978)). These
principles have been applied by the Federal Circuit
and this court in rejecting a wide range of Fifth
Amendment takings claims deriving from the alleged
interference with contract rights. See J.J. Henry Co. v.
United States, 411 F.2d 1246, 1249 (Ct. Cl. 1969); Detroit Edison Co. v. United States, 56 Fed. Cl. 299, 303
(2003) (noting that it is inappropriate to permit a

App. 482
plaintiff “to pursue a takings remedy in order to circumvent the limitations inherent in its contractual relationship with the Government”); Home Sav. of Am.,
F.S.B. v. United States, 51 Fed. Cl. 487, 494 (2002)
(same).
In the Winstar context, the refusal to invoke takings principles has been explained as directly resulting
from the availability of contract remedies. As Justice
Scalia wrote in his concurrence in Winstar, “[v]irtually
every contract operates, not as a guarantee of particular future conduct, but as an assumption of liability in
the event of nonperformance: ‘The duty to keep a contract at common law means a prediction that you must
pay damages if you do not keep it, – and nothing else.’ ”
United States v. Winstar Corp., 518 U.S. 839, 919 (1996)
(Scalia, J., concurring) (citations omitted) (emphasis in
original); see also Glendale Fed. Bank, FSB v. United
States, 239 F.3d 1374, 1379-80 (Fed. Cir. 2001). More
recently, in Castle v. United States, 301 F.3d 1328 (Fed.
Cir. 2002), the Federal Circuit opined that “despite
breaching the contract, the government did not take
the plaintiffs’ property because they retained ‘the
range of remedies associated with the vindication of a
contract.’ ” Id. at 1342 (quoting Castle v. United States,
48 Fed. Cl. 187, 219 (2000)). Instead of conferring a
right protected from a taking, “the contract promised
either to regulate [plaintiffs] consistently with the contract’s terms, or to pay damages for breach.” Id.; see
also Baggett Transp. Co. v. United States, 969 F.2d
1028, 1034 (Fed. Cir. 1992); Franconia, 61 Fed. Cl. at
737-38; Fifth Third Bank of West. Ohio v. United States,

App. 483
57 Fed. Cl. 586, 588-89 (2003); McNabb v. United
States, 54 Fed. Cl. 759, 778-79 (2002). Under this approach, the availability of contract remedies is sufficient to vitiate a takings claim, even if it ultimately is
determined that no breach occurred. See, e.g., Baggett
Transp. Co., 969 F.2d at 1034 (no breach of contract and
no takings); Canal Elec. Co. v. United States, 65 Fed.
Cl. 650, 656 (2005) (takings claim dismissed, contract
claim allowed to proceed).46
Both of the rationales favoring the use of contractual remedies over takings remedies apply here – that
is, the United States may be viewed as acting in its
proprietary capacity in entering into the water contracts in question, and it appears that the affected
plaintiffs retain the full range of remedies with which
46

To be sure, some cases suggest that, under this rule, a takings claim is resurrected if a breach of contract is not found, see
System Fuels, Inc. v. United States, 65 Fed. Cl. 163, 172-73 (2005).
But such suggestions reflect a misunderstanding of the rationale
for this rule. At least as described in Winstar and Castle, the rule
favoring contract remedies depends upon there being symmetry
between the contract rights to be enforced and the contract damages that are potentially available. Once this symmetry is established, a finding on the merits that no breach occurred does not
break that relationship, but merely reflects that the contract
rights that were asserted either never existed or were not adversely affected by the government’s actions. Under either scenario, those same contract rights cannot provide the predicate for
a takings because the government cannot take what the claimant
does not have. See, e.g., Yankee Atomic Elec. Co. v. United States,
112 F.3d 1569, 1579-80 (Fed. Cir. 1997); see also B & B Trucking,
Inc. v. U.S. Postal Serv., 406 F.3d 766, 769 (6th Cir. 2005) (no
taking of a contract right where that right did not exist); McNabb
v. United States, 54 Fed. Cl. 759, 779 (2002) (same).

App. 484
to vindicate their contract rights. It follows that while
the contracts between the districts and the United
States, as well as that between Van Brimmer and the
United States, gave rise to private property rights
within the meaning of the Fifth Amendment, the
proper remedy for the alleged infringement lies in a
contract claim, not one for a takings. See Franconia, 61
Fed. Cl. at 739-40; Allegre Villa v. United States, 60
Fed. Cl. 11, 18-19 (2004); Detroit Edison Co., 56 Fed. Cl.
at 303. The situation here is distinguishable from
those encountered by the Federal Circuit in Cienega
Gardens v. United States, 331 F.3d 1319 (Fed. Cir. 2003)
and Chancellor Manor v. United States, 331 F.3d 891
(Fed. Cir. 2003), in which the court allowed takings
claims to proceed. In both those cases, plaintiffs entered into loan agreements with private lenders that
were insured by HUD. The government subsequently
restricted the plaintiffs’ prepayment right, which the
appeals court ruled was a takings. However, because
their contracts were with private lenders, the plaintiffs
in Cienega Gardens and Chancellor Manor were not in
privity with the Government; thus, no contract claim
against the Government was available to address the
subsequent prepayment limitations by the Government. Such is not the case here as to the contracts involving the districts and Van Brimmer. See Franconia,
61 Fed. Cl. at 740 n.34; Allegre Villa, 60 Fed. Cl. at 19.
The foregoing analysis, of course, applies to the
individual irrigators only to the extent that they actually have contract claims against the United States.
For that to be true, “there must be privity of contract

App. 485
between the plaintiff and the United States.” Chancellor Manor, 331 F.3d at 899.47 Such privity would exist
if the irrigators are properly viewed as third-party
beneficiaries to the district contracts. See Chancellor
Manor, 331 F.3d at 901; First Hartford Corp. Pension
Plan & Trust v. United States, 194 F.3d 1279, 1289
(Fed. Cir. 1999). “In order to prove third party beneficiary status,” the Federal Circuit has instructed, “a
party must demonstrate that the contract not only reflects the express or implied intention to benefit the
party, but that it reflects an intention to benefit the
party directly.” Glass v. United States, 258 F.3d 1349,
1354 (Fed. Cir. 2001), amended on reh’g, 273 F.3d 1072
(Fed. Cir. 2001); Anderson v. United States, 344 F.3d
1343, 1352 (Fed. Cir. 2003). “The intended beneficiary
need not be specifically or individually identified in the
contract, but must fall within a class clearly intended
to be benefited thereby.” Montana v. United States, 124
F.3d 1269, 1273 (Fed. Cir. 1997). The cases thus have
distinguished between those instances where a party
“show[s] that [the contract] was intended for his direct
benefit,” German Alliance Ins. Co. v. Home Water Supply Co., 226 U.S. 220, 230 (1912), and those in which
it is shown only that an individual was an “incidental
and indirect beneficiar[y],” Schuerman v. United States,
30 Fed. Cl. 420, 433 (1994); see also Castle, 301 F.3d at
47

See also, e.g., Cienega Gardens v. United States, 194 F.3d
1231, 1239 (Fed. Cir. 1998) (“The effect of finding privity of contract between a party and the United States is to find a waiver of
sovereign immunity.”); Katz v. Cisneros, 16 F.3d 1204, 1210 (Fed.
Cir. 1994) (“Absent privity between [plaintiffs] and the government, there is no case.”).

App. 486
1337-38; Restatement (Second) of Contracts (Restatement) § 302 & illus. 2 (distinguishing between intended
and incidental beneficiaries).48 The requisite intent
may be ascertained by “ask[ing] whether the beneficiary would be reasonable in relying on the promise as
manifesting an intention to confer a right on him.”
Montana, 124 F.3d at 1273.
Plaintiffs assert that under the plain language of
the various district contracts, a number of the irrigators are third-party beneficiaries and thus entitled to
enforce those contracts’ terms. See Restatement § 304;
cf. id. at § 315. None of the parties disagree that this
question may be resolved by reference to the language
of the relevant contracts.49 A review of the relevant
48

The Restatement explains, in pertinent part –
(1) Unless otherwise agreed between promisor and
promisee, a beneficiary of a promise is an intended beneficiary if recognition of a right to performance in the
beneficiary is appropriate to effectuate the intention of
the parties and . . . (b) the circumstances indicate that
the promisee intends to give the beneficiary the benefit
of the promised performance.
(2) An incidental beneficiary is a beneficiary who is
not an intended beneficiary.
Restatement § 302; see also Klamath Water Users Protective
Assn., 204 F.3d at 1211.
49
It is, of course, axiomatic that this court must construe a
Federal contract in terms of the parties’ intent, primarily based
on the plain meaning of the language employed. See, e.g., Winstar
Corp., 518 U.S. at 911 (Breyer, J., concurring); Gould, Inc. v.
United States, 935 F.2d 1271, 1274 (Fed. Cir. 1991); Franconia,
61 Fed. Cl. at 729-30. While the question whether a given individual is a third-party beneficiary is a mixed question of law and fact,
it has, in appropriate circumstances, been resolved in the context

App. 487
district contracts reveals that they each express the
intent of the relevant district and the United States
to benefit the irrigators directly by having the district assume the primary responsibility for providing
water within the district in exchange for collecting
amounts owed by the irrigator in payment for their
water. For example, the 1956 contract between the
Tulelake Irrigation District and the United States provides –
Contracts between the United States and
landowners within the District in effect at the
time of the execution of this contract are set
forth in Exhibit ‘2’ attached to and by this reference made a part of this contract. Said contracts . . . shall remain in full force and effect,
except as otherwise modified herein, and the
District shall perform, in accordance with the
true intent and meaning of such contracts, the
obligations of the United States described
therein and shall recognize all of the rights as
set forth in said contracts.
Similar provisions may be found in each of the district
contracts. Moreover, some of these contracts specifically indicate that the district is the “duly authorized
representative” of the water users within the district,
and provide that the Secretary shall maintain oversight over water deliveries and shall resolve disputes
between the districts and the individual irrigators. All
of these provisions, of course, are evidence that the
of a motion for summary judgment. See, e.g., Guardsman Elevator
Co., Inc. v. United States, 50 Fed. Cl. 577, 582 (2001).

App. 488
purpose of the contracts was to provide benefits to the
latter users.
Beyond this, several cases in this circuit have
found that similarly-situated irrigators were thirdparty beneficiaries under drainage district agreements
apparently like those at issue here. Principal among
these is H.F. Allen Orchards v. United States, 749 F.2d
1571 (Fed. Cir. 1984), in which the Federal Circuit reversed a decision of this court which had held that irrigators similarly situated to the irrigators in this case
were not third-party beneficiaries. There, the court
concluded –
Finally, we disagree with the Claims Court’s
determination that appellants were not correct parties to sue under the consent decree
and subsequent alleged implied contracts. It
is undisputed that appellants have a property
right in the water to the extent of their beneficial use thereof. Fox v. Ickes, supra. The irrigation districts, which contracted with the
Bureau, act as a surrogate for the aggregation
of farmers. They use no water themselves. The
farmers ultimately pay for all the services
which the government supplies. It is clear
that the appellants, owners of the property at
issue, the water, also are intended third-party
beneficiaries of the 1945 Consent Decree. Under the rules of the Claims Court “every action
shall be prosecuted in the name of the real
party in interest.” Claims Court R. 17(a). Here
the farmers, owners of the water and beneficiaries of the irrigation projects, are the true
parties in interest.

App. 489
Id. at 1576.50 While defendant correctly notes that H.F.
Allen Orchards is distinguishable in some regards –
most notably in terms of the interests the irrigators
had in the pertinent water under Washington law – it
appears that the Federal Circuit’s decision also was
grounded on provisions in the district contract that
were viewed as directly benefitting the irrigators there.
Indeed, the opinion of this court that was reversed by
the Federal Circuit contained a detailed analysis of the
provisions of that contract – one with which the Federal Circuit eventually disagreed. See H.F. Allen Orchards v. United States, 4 Cl. Ct. 601, 609-13 (1984).
Moreover, several other decisions of this court have
concluded that irrigators in similar situations had enforceable rights against the United States as thirdparty beneficiaries. See Henderson County Drainage
Dist. No. 3. v. United States, 53 Fed. Cl. 48, 52 (2002)
(“The court finds that the plaintiff landowners ‘would
be reasonable in relying on the promise’ to the drainage districts, if any, made in the releases and are therefore third party beneficiaries of any contractual
undertakings by defendant in the releases.”); see also
Barcellos & Wolfsen, Inc. v. Westlands Water Dist., 899
F.2d 814, 816-17 (9th Cir. 1990); Henderson County
50

The Fox decision cited in H.F. Allen Orchards was that of
the D.C. Circuit, on remand from the Supreme Court. See H.F.
Allen Orchards, 749 F.2d at 1575 (citing Fox v. Ickes, 137 F.2d 30
(D.C. Cir. 1943)). Consistent with the construction of the Ickes
line of cases outlined above, this D.C. Circuit opinion heavily relied upon Washington State law. Fox, 137 F.2d at 33 (Secretary
“must distribute the available water according to the priorities
among the different users which are established by the law of the
State of Washington.”).

App. 490
Drainage Dist. No. 3 v. United States, 60 Fed. Cl. 748,
756 n.9 (2004), aff ’d, 2005 WL 1395109 (Fed. Cir. Jun.
14, 2005); Schuerman v. United States, 30 Fed. Cl. 420,
430 (1994); Benson, supra, at 394 (“[A]s third party
beneficiaries of such contracts water users can sue to
protect their rights to receive project water.”).51
Accordingly, the court must conclude that the
individual irrigators here are third-party beneficiaries
of the district contracts. Because of this, their claims
against the United States also sound in contract, not
in takings. This result makes particular sense in the
context of this case, in which, from a contracts perspective, the irrigators claiming interests based upon their
contracts with the districts cannot possibly have rights
to water that exceed the limitations found in the contracts between those districts and the United States.
51

To be sure, the Ninth Circuit reached a different conclusion in Orff v. United States, 358 F.3d 1137 (9th Cir. 2004). The
Supreme Court recently affirmed that decision – not based upon
the Ninth Circuit’s third-party beneficiary analysis, but rather
based upon the conclusion that Congress had not waived the sovereign immunity of the United States to allow such a suit to proceed in the district courts. See Orff, 125 S. Ct. at 2609-11. While
defendant relies upon the Ninth Circuit’s decision in Orff, as well
as several other Ninth Circuit cases, see, e.g., Klamath Water Protective Ass’n, 204 F.3d at 1211-12, this court, of course, is bound
to follow the contrary decision of the Federal Circuit. See also
Christopher Village, L.P. v. United States, 360 F.3d 1319, 132930 (Fed. Cir. 2004) (holding void a regional circuit’s ruling in a
case in which that court lacked jurisdiction). Moreover, the circumstances of this case certainly are different from those in which
individual members of the public were deemed incidental beneficiaries of government contracts. Cf. Restatement § 313; see also
Schuerman, 30 Fed. Cl. at 429-30.

App. 491
Simply put, plaintiffs could not obtain an interest
from the districts better than what the districts themselves possessed or once possessed – “nemo dat qui non
habet,” the venerable maxim provides, “one who does
not have cannot give.”52 Indeed, while “rights that arise
independently from the contract may be brought
through a takings action,” Allegre Villa, 60 Fed. Cl. at
18,53 such is not the case as to the third-party beneficiaries here. Rather, even to the extent that they may
claim that there was a taking of their contract rights
vis a vis the districts, it remains that those rights are
entirely subsumed within the contract claim based
on the alleged breach, by the United States, of the district contracts. Benson, supra, at 397 (“Because users’
rights to project water arise from reclamation contracts, the contracts necessarily limit those rights.”).
As such, the irrigators qualifying as third-party beneficiaries must proceed in contract. See Commonwealth
Edison Co. v. United States, 56 Fed. Cl. 652, 656 (2003);
Coast Federal Bank, FSB v. United States, 48 Fed. Cl.

52

See Black’s Law Dictionary 1736 (8th ed. 2004). This common sense principle and a corollary – nemo plus juris ad alienum
transferre potest quam ipse haberet – have been applied in a variety of contractual contexts. See, e.g., Wilbur v. Almy, 53 U.S. 180,
181 (1851); United States v. Harris, 246 F.3d 566, 574-76 (6th Cir.
2001); Commerce Bank, N.A. v. Chrysler Realty Corp., 244 F.3d
777, 783 (10th Cir. 2001); United States v. Lavin, 942 F.2d 177,
185-86 (3d Cir. 1991); see also 3 E. Allan Farnsworth, Farnsworth
on Contracts § 11.5 (2d ed. 2001).
53
See also, e.g., Integrated Logistics Support Sys. Int’l, Inc. v.
United States, 42 Fed. Cl. 30, 34-35 (1998).

App. 492
402, 443-44 (2000); Medina Constr. Ltd. v. United
States, 43 Fed. Cl. 537, 560 (1999).54
So where does this leave us? Before this case was
reassigned, briefing was stayed on the ultimate issue
whether the Bureau breached the district contracts
in question in 2001. Accordingly, that issue must
await another day. But, based upon arguments fully
briefed by the parties, several observations regarding
the nature of the contract rights at issue are appropriate.
First, for most of the district contracts sub judice,
plaintiffs’ “beneficial interest” in the Klamath Project
water is not, as they claim, an absolute right, limited
only by appurtenancy and beneficial use. This is particularly true as to those contracts which provide, either in exact or similar terms, that the government
shall not be liable for “water shortages” resulting from
“drought or other causes.” The plain language of these
54

In a separate motion for partial summary judgment filed
on March 14, 2005, plaintiffs asserted that the various districts
in this case had the constitutional and prudential standing to assert not only the claims they have in their own right, but also to
assert, in a representational fashion, claims on behalf of the individual landowners. While defendant, in its opposition to this motion filed on May 4, 2005, disagreed that the districts had such
standing to assert any takings claims, it agreed that the districts
had the ability to assert contract claims on their own behalf and
on behalf of the individual landowners, provided this court concluded that the landowners were third-party beneficiaries to the
district contracts. Based upon its rulings above, as well as defendant’s concessions, the court concludes that the districts have
standing to assert not only their contract claims, but, to the extent
relevant, those of the third-party irrigators.

App. 493
provisions expressly absolves the United States from
liability for all types of water shortages – not only the
hydrologic causes, as claimed by plaintiffs, but also
any other cause that impacts the availability of water
through the system. See Barcellos and Wolfsen, Inc. v.
Westlands Water Dist., 849 F. Supp. 717, 723-24 (E.D.
Cal. 1993) (“The express language of [the shortage
clause] negates any absolute contract right in Movants
to the unqualified delivery of irrigation water.”); Brian
Gray, “The Property Right in Water,” 9 Hastings W. –
Nw. J. Envtl. L. & Pol’y 1, 26 (2002) (“The Klamath Project water contracts . . . expressly absolve the United
States of liability for all types of water shortages – hydrologic, regulatory, or hybrid – that may occur within
the system.”). From a contractual standpoint, the shortage clauses thus limit plaintiffs contractual rights and
thus become the focus of whether a breach occurred
when water deliveries were strictly limited in 2001.
Notably, various courts have construed similar water shortage clauses as protecting the United States
from damages based upon the enforcement of the ESA.
In O’Neill v. United States, 50 F.3d 677, 682-84 (9th Cir.
1995), for example, the Ninth Circuit held that the
terms of the water delivery contract did not obligate
the Bureau to deliver the full contractual amount of
water if such delivery would not be consistent with the
ESA and a second statute, the Central Valley Project
Improvement Act, Pub. L. No. 102-575, 106 Stat. 4706.
Id. at 681. In terms reminiscent of several of the district contracts here, Article 11(a) of the water service
contract at issue provided that the government would

App. 494
not be held liable for “any damage, direct or indirect,
arising from a shortage on account of errors in operation, drought, or any other causes.” 50 F.3d at 682. The
Ninth Circuit concluded that this language absolved
the Bureau of any liability for complying with the Congressional mandates, observing that –
[T]he terms of Article 11(a) admit of one
meaning and are internally consistent. On its
face, Article 11(a) unambiguously disclaims
any liability for damages in the event the
United States is unable to supply water in
times of shortage. Clearly captioned “United
States Not Liable for Water Shortage,” Article
11 explicitly recognizes that “[t]here may occur at times during any year a shortage in the
quantity of water available for furnishing to
the District” and provides that “in no event
shall any liability accrue against the United
States . . . for any damages . . . arising from a
shortage on account of errors in operation,
drought, or any other causes.” . . . As the district court duly noted, there are no enumerated exceptions to this provision . . .
Id. at 683 (emphasis in original). The court concluded
that “the contract’s liability limitation is unambiguous
and that an unavailability of water resulting from the
mandates of valid legislation constitutes a shortage
by reason of ‘any other causes.’” Id. at 684. Other
cases, involving shortage clauses like those in various

App. 495
of the district contracts at issue. have reached similar
conclusions.55
Second, even as to the contracts that do not contain broad water shortage clauses, it is at least arguable that any reductions ordered by the Bureau here did
not result in a breach under the so-called sovereign
acts doctrine. This doctrine recognizes that “the Government-as-sovereign must remain free to exercise its
powers,” Yankee Atomic, 112 F.3d at 1575, and shields
the United States from contract liability based upon its
“public and general acts as a sovereign,” Horowitz v.
55

See, e.g., Rio Grande Silvery Minnow v. Keys, 333 F.3d
1109, 1127-31 (10th Cir. 2003), vacated on other grounds, 355
F.3d 1215 (10th Cir. 2004) (“the plain terms of the shortage
clauses provide the basis for [the Bureau’s] retaining discretion
to allocate available water to comply with the ESA”); Klamath
Water Users Protective Ass’n, 204 F.3d at 1213; Natural Res. Def.
Council v. Houston, 146 F.3d at 1118 (under shortage clause, “the
total amount of available project water could be reduced in order
to comply with the ESA or state law”); Peterson v. United States
Dept. of Interior, 899 F.2d 799, 812 (9th Cir.), cert. denied, 498
U.S. 1003 (1990); Barcellos and Wolfsen, Inc., 849 F. Supp. at 72324 (water shortage clause “negates any absolute contract right . . .
to the unqualified delivery of irrigation water”); see also Westlands Water District v. U.S. Dept. of Interior, 805 F. Supp. 1503,
1512-13 (E.D. Cal. 1992). A number of these cases analyzed the
shortage clauses in reviewing whether the water delivery contracts prohibited the Bureau from modifying its deliveries to
make water available for endangered species. Traditional water
users insisted that since the requirements of the ESA only apply
to discretionary federal actions, see 16 U.S.C. § 1536(a)(1), and
the contracts precluded such discretion, the Bureau lacked the
ability to reallocate the already-committed water. See, e.g., Rio
Grande Silvery Minnow, 333 F.3d at 1131, 1133-34. This claim
was rejected based, inter alia, upon the language of the shortage
clauses.

App. 496
United States, 267 U.S. 458, 461 (1925); see also Winstar, 518 U.S. at 893-96; Atlas Corp. v. United States,
895 F.2d 745, 754 (Fed. Cir. 1990).56 The Federal Circuit
has indicated that determining whether the government, in passing legislation, is acting as a contractor or a sovereign, requires “a case-specific inquiry that
focuses on the scope of the legislation in an effort to
determine whether, on balance, that legislation was designed to target prior governmental contracts.” Yankee
Atomic, 112 F.3d at 1575. An act of government will be
considered to be sovereign so long as its impact on a
contract is “merely incidental to the accomplishment of
a broader governmental objective.” Winstar, 518 U.S. at
898. But, such an act will not be held to be “public and
56

The sovereign acts doctrine dates back to one of the earliest decisions of the Court of Claims, Deming v. United States, 1
Ct.Cl. 190, 1865 WL 2004 (1865). In that case, the court, noting
the twin character of the United States as contracting party and
sovereign, observed that “[t]he United States as a contractor are
not responsible for the United States as a lawgiver.” Id. at 191,
1865 WL 2004. In Jones v. United States, 1 Ct.Cl. 383, 1865 WL
1976 (1865), the court extended the doctrine to executive branch
actions in concluding that the government was not liable when
the presence of federal troops hindered a surveyor under contract
to the government. It stated: “Whatever acts the government may
do, be they legislative or executive, so long as they be public and
general, cannot be deemed specially to alter, modify, obstruct or
violate the particular contracts into which it enters with private
persons.” Id. at 384, 1865 WL 1976. The “public and general” language in Jones was eventually adopted by the Supreme Court in
Horowitz. See Cuyahoga Metr. Housing Auth. v. United States, 57
Fed. Cl. 751, 763 n.18 (2003). For a further discussion of the history of, and policies underlying, the sovereign acts doctrine, see
Edward A. Fitzgerald, “Conoco, Inc. v. United States: Sovereign
Authority Undermined by Contractual Obligations on the Outer
Continental Shelf,” 27 Pub. Cont. L.J. 755, 777-81 (1998).

App. 497
general if it has the substantial effect of releasing the
Government from its contractual obligations.” Id. at
899; see also Centex Corp. v. United States, 395 F.3d
1283, 1308 (Fed. Cir. 2005); Precision Pine & Timber,
Inc. v. United States, 50 Fed. Cl. 35, 72 (2001).
Several courts have concluded that the enactment
and subsequent enforcement of the ESA should be
viewed as sovereign acts that override the Bureau’s obligations to provide water under various contracts. See,
e.g., Klamath Water Users Protective Ass’n, 204 F.3d at
1213 (noting “[i]t is well settled that contractual arrangements can be altered by subsequent Congressional legislation”); see also Madera Irr. Dist. v. Hancock, 985
F.2d 1397, 1406-07 (9th Cir. 1993) (Hall, J., concurring).
Other cases in this court have likewise held that the
suspensions of contracts under the ESA qualify as
“public and general acts.” See, e.g., Precision Pine &
Timber, Inc., 50 Fed. Cl. at 72-73 (suspension of timber
sales contracts under the ESA); Croman Corp. v.
United States, 44 Fed. Cl. 796, 806-07 (1999) (same),
withdrawn in part, 49 Fed. Cl. 776, 782-84 (2001).
While these cases suggest that plaintiffs face an uphill
battle in showing that the ESA was designed to abrogate their various contracts, that issue, as well as other
aspects of the applicability of the sovereign acts doctrine, have not been adequately briefed and, in the
court’s view, should be decided only in the context of

App. 498
determining whether, in fact, a breach of the various
water contracts here occurred in 2001.57
In arguing, despite the foregoing, that the Bureau effectuated a taking of their contract rights,
plaintiffs harken to this court’s decision in Tulare
Lake Basin Water Storage District v. United States, 49
Fed. Cl. 313 (2001). In that case, various districts in
California argued that their contractually conferred
water rights were taken as a result of the Bureau’s restrictions on water use as required by the ESA. Id. at
314. This court ruled that a physical taking had occurred as a result of the restrictions and granted the
57

Other courts have examined the language of district contracts and concluded that the United States did not, in unmistakable terms, surrender its rights to exercise its sovereign powers.
See, e.g., O’Neill, 50 F.3d at 686. These cases, in particular, have
noted that most of the district contracts contain language indicating that they were entered into pursuant to the reclamation laws
and “all acts amendatory or supplementary thereto.” Rio Grande
Silvery Minnow, 333 F.3d at 1130. Like the sovereign acts doctrine, the so-called “unmistakability doctrine” recognizes that
“ ‘sovereign power, even when unexercised, is an enduring presence that governs all contracts subject to the sovereign’s jurisdiction, and will remain intact unless surrendered in unmistakable
terms.’ ” Bowen v. Pub. Agencies Opposed to Social Security Entrapment, 477 U.S. 41, 52 (1986) (quoting Merrion v. Jicarilla
Apache Tribe, 455 U.S. 130, 148, (1982)); see also Cuyahoga Metr.
Hous. Authority, 57 Fed. Cl. at 764-74. Of course, a prerequisite
for invoking the unmistakability doctrine is that a sovereign act
must be implicated. See Centex Corp., 395 F.3d at 1307; Cuyahoga
Metr. Housing Authority, 57 Fed. Cl. at 774-75. Whether the unmistakability doctrine applies here depends, in the first instance,
upon whether the passage of the ESA may be viewed as a sovereign act and thus must also be resolved in determining whether
an actual breach of the district contracts occurred here.

App. 499
plaintiffs summary judgment. Id. at 319, 324. But,
with all due respect, Tulare appears to be wrong on
some counts, incomplete in others and, distinguishable, at all events.
For one thing, Tulare failed to consider whether
the contract rights at issue were limited so as not to
preclude enforcement of the ESA. Rather, the court
treated the contract rights possessed by the districts
essentially as absolute, without adequately considering whether they were limited in the case of water
shortage, either by prior contracts, prior appropriations or some other state law principle. Tulare, 49
Fed. Cl. at 318 (“[t]hose contracts confer on plaintiffs a
right to the exclusive use of prescribed quantities of
water”). Thus, although the court noted that there
were agreements between the United States and the
State of California creating a coordinated pumping
system, id. at 315 n.1, it did not examine those agreements to see whether they, like the district contracts
here, limited the plaintiffs’ rights derivatively. Id. at
320-21. Rather, it focused on the districts’ contracts
with state agencies as if they were free-standing. Id.
Nor did the court consider whether the plaintiffs’
claimed use of water violated accepted state doctrines,
including those designed to protect fish and wildlife,
finding that issue to be reserved exclusively to the
state courts. Id. at 321. Because the state courts had
not ruled on those issues, this court refused to rule on
them, as well. As a result, it awarded just compensation for the taking of interests that may well not exist
under state law. Moreover, because it did not view the

App. 500
districts as having a third-party beneficiary contract
claim against the United States, the court never
reached the issue whether the violations of the contract rights should be analyzed as breaches, not takings, and, as a result, never considered the potential
application of the sovereign acts and unmistakability
doctrines.58 On these counts, this court disagrees with
the approach taken in Tulare and concludes that decision lends no support to the views espoused by plaintiffs here.59
58

If the contract rights possessed by the district were subject
to the sovereign acts doctrine, and the ESA were viewed as a sovereign act under that doctrine, then the ESA could not effectuate
a taking here, as it did not take a right that the district possessed
(i.e., the right to water as against the enforcement of the ESA).
The Federal Circuit reached a similar conclusion in Yankee Atomic,
supra. There, the court first held that the sovereign acts and unmistakability doctrines precluded the plaintiff utility from claiming that the assessment of an excise tax breached its prior
contracts with the government for decommissioning services. 112
F.3d at 1579-80. It then went on to reject the utility’s takings
claim, stating, id. at 1580 n.8 –
Our conclusion on this point also resolves Yankee Atomic’s
takings argument. Because the contracts did not contain an unmistakable promise against a future assessment, Yankee Atomic had no property right (via a
vested contract right) which was subsequently taken
by the assessment. At most, Yankee Atomic has a
vested right to be immune from later attempts to retroactively increase the prices charged. This right has
not been taken because, as explained in the sovereign
acts discussion, the assessment is a general, sovereign
act rather than a retroactive price increase.
59
Tulare has been the subject of intense criticism by commentators who, inter alia, have challenged the court’s application
of a physical taking theory to what was a temporary reduction in

App. 501
b. Interests based upon Patent Deeds and
State Permits
Recall that the fourth and fifth categories of interests in the Klamath Project waters described above derive from two sources: (i) patent deeds for property
located in Oregon that were received from the United
States by homesteaders and other property owners
in response to the filing of various applications; and
(ii) state water permits that were received from the
State of Oregon by at least two of the districts involved
here that were issued by the State after the 1905 legislation was repealed.
Notably, both the patent deeds and water permits
contain appropriation dates well after the 1905 period
that marks the appropriation of the Klamath waters
by the United States. This is significant, as, under its
1909 Water Act, Oregon recognizes the prior appropriation doctrine – “qui prior in tempore, prior in jure
est” or “first in time, first in right.”60 Under this system,
water. See, e.g., Michael C. Blumm, Lucas Ritchie, “Lucas’s Unlikely Legacy: The Rise of Background Principles as Categorical
Takings Defenses,” 29 Harv. Envtl. L. Rev. 321, 329 (2005); Cari
S. Parobek, “Of Farmers’ Takes and Fishes’ Takings: Fifth Amendment Compensation Claims When the Endangered Species Act
and Western Water Right Collide,” 27 Harv. Envtl. L. Rev. 177,
212-23 (2003); Brittany K.T. Kauffman, “What Remains of the
Endangered Species Act and Western Water Rights after Tulare
Lake Basin Water Storage District v. United States,” 74 U. Colo.
L. Rev. 837 (2003).
60
See Or. Rev. Stat. §§ 537.120, 537.160, 537.250; United
States v. State of Or. Water Resources Dept., 774 F. Supp. 1568,
1573 (D. Or. 1991), aff ’d, in part, and rev’d, in part, on other
grounds, 44 F.3d 758 (9th Cir. 1994) (“Under the laws of the State

App. 502
“[t]he person holding the most senior (oldest) right is
entitled to have his or her entitlement fully satisfied
before the next most senior person receives water,
and so on.” Simmons, supra, at 130. Thus, “in times of
shortage, the most senior right holder is entitled to insist that junior users curtail their use in order that the
senior have sufficient water to satisfy his senior right.”
Id.61 Hence, any water rights provided through these
deeds and permits are subservient to the prior interests not only of the United States, but of the various
tribes at issue here, whose interests “carry a priority
date of time immemorial.” Klamath Water Protective
Ass’n, 204 F.3d at 1214; see also United States v. Adair,
723 F.2d 1394, 1414 (9th Cir. 1984). Therefore, assuming arguendo that the patent deeds and water permits

of Oregon, the principle upon which claims of rights to water are
based is the doctrine of prior appropriation, which prioritizes
claims of rights to water according to a simple rule: first in time,
first in right.”); Tudor v. Jaca, 164 P.2d 680, 686 (Or. 1945); see
also 1 Waters and Water Rights §§ 348-49, 351-56 (Robert E. Beck
ed. 1991).
61
See Fitzstephens, 344 P.2d at 227; Phillips v. Gardner, 469
P.2d 42, 44 (Or. Ct. App. 1970); Henry B. Lacey, “New Approach
or Business as Usual: Protection of Aquatic Ecosystems under the
Clinton Administration’s Westside Forests Plan,” 10 J. Envtl. L.
& Litig. 309, 351 n.202 (“Under the prior appropriation doctrine
of water law which prevailed in . . . Oregon . . . a diverter of water
from a stream who applies the water to a ‘beneficial use’ is
granted priority for his uses in times of shortage over other appropriators who made later diversions.”); see also Colorado River
Water Conserv. Dist. v. United States, 424 U.S. 800, 805 (1976)
(under the doctrine of prior appropriation, “[i]n periods of shortage, priority among confirmed rights is determined according to
the date of initial diversion”).

App. 503
actually reflect perfected interests in water,62 they give
rise to interests that could not have been taken or infringed by the failure of the Bureau to deliver water in
2001.63
Nor is this reality altered, as plaintiffs claim, by
the Klamath River Basin Compact, Pub. L. No. 85-222,
71 Stat. 497 (1957), which was entered into between
Oregon and California for the division of the Klamath
River water. Although Congress consented to this compact, the United States was not a party thereto. Plaintiffs emphasize Congress’ adoption of Article XIII of
the Compact, providing that “[t]he United States shall
not, without payment of just compensation, impair any
rights to the use of water [for domestic or irrigation
purposes] within the Upper Klamath River Basin.” 71
Stat. at 507. However, Article III of the Compact, 71
Stat. at 498, generally states, in relevant part, that
“[t]here are hereby recognized vested rights to the use
of waters originating in the Upper Klamath River Basin validly established and subsisting as of the effective date of this compact under the laws of the state in
62

There are other potential problems with these deeds and
permits. For one thing, the permits may not yet been [sic] perfected under state law, as there is no evidence that Oregon has
issued a water rights certificate. Further, the permit of the Klamath
Drainage District indicates that it is entitled to water between
October 1 and March 1 of a given year, a period that appears to
be outside that during which the suspension of water occurred in
2001.
63
Indeed, apart from state appropriations law, the patent
deeds in question specifically provided that the water rights
granted thereunder were “subject to any vested and accrued water rights.”

App. 504
which the use or diversion is made, including rights to
the use of waters for domestic and irrigation uses within
the Klamath Project.” More specifically, as to the United
States, the Compact provides that “[n]othing in this
compact shall be deemed: [t]o impair or affect any rights,
powers or jurisdictions in the United States, its agencies or those acting by or under its authority, in, over
and to the waters of the Klamath River Basin.” Id. at
Art. XI, 71 Stat. at 505. The Ninth Circuit construed
this language in accordance with its plain meaning, as
“preserv[ing] all federal rights, powers and jurisdiction
except as explicitly conceded.” Adair, 723 F.2d at 1419.
As such, nothing in the Compact enhances the rights
of any of the plaintiffs here as against the United
States.
III. CONCLUSION
Concluding this tour d’horizon, the court is mindful that, despite the potential for contractual recovery
here, this ruling may disappoint a number of individuals who have long invested effort and expense in developing their lands based upon the expectation that the
waters of the Klamath Basin would continue to flow,
uninterrupted, for irrigation. But, those expectations,
no matter how understandable, do not give those landowners any more property rights as against the United
States, and the application of the Endangered Species
Act, than they actually obtained and possess. Like it or
not, water rights, though undeniably precious, are subject to the same rules that govern all forms of property
– they enjoy no elevated or more protected status. In

App. 505
the case sub judice, those rights, such as they exist,
take the form of contract claims and will be resolved as
such.
Based upon the foregoing, the court, GRANTS, IN
PART, and DENIES, IN PART, the parties’ cross-motions for partial summary judgment (including the motion filed on March 14, 2005). On or before October 4,
2005, the parties shall file a joint status report indicating how this case should proceed.
IT IS SO ORDERED.
s/ Francis M. Allegra
Francis M. Allegra
Judge

App. 506
APPENDIX
Klamath Irrigation District, et al, v. United States
Case No. 01-591
Basis of Plaintiffs’ Claimed Property Rights
Plaintiff

Basis of Claim

Klamath
Contract with
Irrigation District United States
Tulelake
Contract with
Irrigation District United States
Sunnyside
Contract with
Irrigation District United States
Malin Irrigation Contract with
District
United States
Westside Improve- Contract with
ment District No. United States
4 (formerly Colonial
Realty Company)
Shasta View
Contract with
Irrigation District United States

Shortage
Provision
Drought or “other
causes” – see ¶ 26
Drought or “other
causes” – see ¶ 26
Drought or “other
cause” – see ¶ 9
Drought or “other
cause” – see ¶ 11
Drought or “other
causes” – see ¶ 13

Drought or “other
causes” – see ¶ 18
(of 1948 contract)
Klamath Drainage 1. Contract with 1. Drought or
District
United States
“other causes” –
2. State permit see ¶ 24
dated Sept. 5, 1978
Klamath Hills
1. Contract with Drought or “other
District
Klamath Drainage cause” – see ¶ 4
Improvement Co. District
2. State permit
dated May 30, 1984
Poe Valley
Contract with
Drought only –
Improvement
United States
see Art. 11
District

App. 507
Midland District Contract with
Improvement
United States
Company
Enterprise
Contract with
Irrigation District United States
Pine Grove
Contract with
Irrigation District United States
Klamath Basin
Improvement
District
Van Brimmer
Ditch Company
Fred A. Robison

Contract with
United States

Drought only –
see ¶ 5
“Unusual”
drought only –
see ¶ 10
“Unusual”
drought only –
see Art. 10
Drought or “other
cause” – see ¶ 4

Contract with
None
United States
1. Beneficiary of Drought or “other
Tulelake Irrigation cause”
District contract
2. Form A Water
Right Application
dated Nov. 29, 1951
3. Patent deed
dated May 14, 1952
Fred A. Robison 1. Beneficiary of Drought “or other
and Albert RobisonTulelake Irrigation cause”
District contract
2. Form A Water
Right Application
dated July 15, 1940
3. Patent deed
dated Feb. 25, 1941

App. 508
Mark Trotman
and Lonny Baley
and Baley
Trotman Farms

1. Beneficiary of
Tulelake Irrigation
District contract
2. Patent deeds
dated January 13,
1928, August 13,
1929, and August
21, 1936
Michael and
1. Beneficiary of
Daniel Byrne and Klamath Irrigation
Byrne Brothers District contract
2. Pre-1905 right
subsequently
exchanged or
surrendered
Daniel and
1. Beneficiary of
Deloris Chin
Klamath Irrigation
District contract
2. Pre-1905 right
subsequently
exchanged or
surrendered
Wong Potatoes, 1. Beneficiary of
Inc.
Klamath Basin
Improvement
District contract
and Klamath
Irrigation District contract
2. Pre-1905 right
subsequently
exchanged or
surrendered

App. 509
James and
Cheryl Moore

1. Beneficiary of
Van Brimmer
Ditch Company
contract
2. Pre-1905 right
subsequently
exchanged or
surrendered.

App. 510
Reclamation Act of 1902 – Section 8
43 U.S.C. §§ 372, 383
§372. Water right as appurtenant to land and
extent of right
The right to the use of water acquired under the provisions of this Act shall be appurtenant to the land
irrigated, and beneficial use shall be the basis, the
measure, and the limit of the right. (June 17, 1902, ch.
1093, §8, 32 Stat. 390.)
REFERENCES

IN

TEXT

This Act, referred to in text, is act June 17, 1902,
popularly known as the Reclamation Act, which is
classified generally to this chapter. For complete classification of this Act to the Code, see Short Title note
set out under section 371 of this title and Tables.
CODIFICATION
Section is comprised of the proviso in section 8 of act
June 17, 1902. Remainder of section 8 is classified to
section 383 of this title.
SECTION

AS

UNAFFECTED

BY

SUBMERGED LANDS ACT

Provisions of this section as not amended, modified or
repealed by the Submerged Lands Act, see section
1303 of this title.

App. 511
§383. Vested rights and State laws unaffected
Nothing in this Act shall be construed as affecting or
intended to affect or to in any way interfere with the
laws of any State or Territory relating to the control,
appropriation, use, or distribution of water used in irrigation, or any vested right acquired thereunder, and
the Secretary of the Interior, in carrying out the provisions of this Act, shall proceed in conformity with such
laws, and nothing herein shall in any way affect any
right of any State or of the Federal Government or of
any landowner, appropriator, or user of water in, to, or
from any interstate stream or the waters thereof. (June
17, 1902, ch. 1093, §8, 32 Stat. 390.)
REFERENCES

IN

TEXT

This Act, referred to in text, is act June 17, 1902,
popularly known as the Reclamation Act, which is
classified generally to this chapter. For complete classification of this Act to the Code, see Short Title note
set out under section 371 of this title and Tables.
CODIFICATION
Section is comprised of section 8 (less proviso) of act
June 17, 1902. The remainder of section 8 is classified
to section 372 of this title.
SECTION

AS

UNAFFECTED

BY

SUBMERGED LANDS ACT

Provisions of this section as not amended, modified or
repealed by the Submerged Lands Act, see section
1303 of this title.

App. 512
McCarren Amendment
(Department of Justice Appropriation Act, 1953)
43 U.S.C. §§ 666
§666. Suits for adjudication of water rights
(a)

Joinder of United States as defendant; costs

Consent is given to join the United States as a defendant in any suit (1) for the adjudication of rights to the
use of water of a river system or other source, or (2) for
the administration of such rights, where it appears
that the United States is the owner of or is in the process of acquiring water rights by appropriation under
State law, by purchase, by exchange, or otherwise, and
the United States is a necessary party to such suit. The
United States, when a party to any such suit, shall
(1) be deemed to have waived any right to plead that
the State laws are inapplicable or that the United
States is not amenable thereto by reason of its sovereignty, and (2) shall be subject to the judgments, orders, and decrees of the court having jurisdiction, and
may obtain review thereof, in the same manner and
to the same extent as a private individual under like
circumstances: Provided, That no judgment for costs
shall be entered against the United States in any such
suit.
(b)

Service of summons

Summons or other process in any such suit shall be
served upon the Attorney General or his designated
representative.

App. 513
(c) Joinder in suits involving use of interstate
streams by State
Nothing in this section shall be construed as authorizing the joinder of the United States in any suit or controversy in the Supreme Court of the United States
involving the right of States to the use of the water of
any interstate stream.
(July 10, 1952, ch. 651, title II, §208(a)–(c), 66 Stat.
560.)
CODIFICATION
Section is comprised of subsections (a) to (c) of section 208 of act July 10, 1952. Subsection (d) of section
208 is omitted as it referred to the limitation on the
use of any appropriation in act July 10, 1952 to prepare
or prosecute the suit in the U.S. District Court for the
Southern Division of California, by the United States
v. Fallbrook Public Utility Corporation.

App. 514
Oregon Revised Statutes (2019)
Chapter 539—Before February 24, 1909;
Determination of Water Rights of
Federally Recognized Indian Tribes
Determination of Water Rights Initiated
539.005 Purpose of chapter; rules. (1) The Legislative Assembly declares that it is the purpose of this
chapter to set forth the procedures for carrying out a
general stream adjudication in Oregon.
(2) In accordance with the applicable provisions
of ORS chapter 183, the Water Resources Director shall
adopt rules necessary to carry out the provisions of this
chapter. [1989 c.691 §§2,3]
539.010 Protection of water rights vested or
initiated prior to February 24, 1909. (1) Actual application of water to beneficial use prior to February
24, 1909, by or under authority of any riparian proprietor or the predecessors in interest of the riparian
proprietor, shall be deemed to create in the riparian
proprietor a vested right to the extent of the actual application to beneficial use; provided, such use has not
been abandoned for a continuous period of two years.
(2) Where any riparian proprietor, or any person
under authority of any riparian proprietor or the predecessor in interest of the riparian proprietor, was, on
February 24, 1909, engaged in good faith in the construction of works for the application of water to a beneficial use, the right to take and use such water shall
be deemed vested in the riparian proprietor; provided,
that the works were completed and the water devoted

App. 515
to a beneficial use within a reasonable time after February 24, 1909. The Water Resources Director, in the
manner provided in subsection (5) of this section, may
determine the time within which the water shall be devoted to a beneficial use. The right to water shall be
limited to the quantity actually applied to a beneficial
use within the time so fixed by the director.
(3) Nothing contained in the Water Rights Act
(as defined in ORS 537.010) shall affect relative priorities to the use of water among parties to any decree of
the courts rendered in causes determined or pending
prior to February 24, 1909.
(4) The right of any person to take and use water
shall not be impaired or affected by any provisions
of the Water Rights Act (as defined in ORS 537.010)
where appropriations were initiated prior to February
24, 1909, and such appropriators, their heirs, successors or assigns did, in good faith and in compliance
with the laws then existing, commence the construction of works for the application of the water so appropriated to a beneficial use, and thereafter prosecuted
such work diligently and continuously to completion.
However, all such rights shall be adjudicated in the
manner provided in this chapter.
(5) The director shall, for good cause shown upon
the application of any appropriator or user of water under an appropriation of water made prior to February
24, 1909, or in the cases mentioned in subsections (2)
and (4) of this section, where actual construction work
was commenced prior to that time or within the time

App. 516
provided in law then existing, prescribe the time
within which the full amount of the water appropriated shall be applied to a beneficial use. In determining
said time the director shall grant a reasonable time after the construction of the works or canal or ditch used
for the diversion of the water, and in doing so, the director shall take into consideration the cost of the appropriation and application of the water to a beneficial
purpose, the good faith of the appropriator, the market
for water or power to be supplied, the present demands
therefor, and the income or use that may be required
to provide fair and reasonable returns upon the investment. For good cause shown the director may extend
the time.
(6) Where appropriations of water attempted before February 24, 1909, were undertaken in good faith,
and the work of construction or improvement thereunder was in good faith commenced and diligently
prosecuted, such appropriations shall not be set aside
or voided in proceedings under this chapter because
of any irregularity or insufficiency of the notice by law,
or in the manner of posting, recording or publication
thereof.
(7) In any proceeding to adjudicate water rights
under this chapter, the Water Resources Department
may adjudicate federal reserved rights for the water
necessary to fulfill the primary purpose of the reservation or any federal water right not acquired under ORS
chapter 537 or ORS 540.510 to 540.530.

App. 517
(8) All rights granted or declared by the Water
Rights Act (as defined in ORS 537.010) shall be adjudicated and determined in the manner and by the tribunals provided therein. The Water Rights Act shall
not be held to bestow upon any person any riparian
rights where no such rights existed prior to February
24, 1909. [Amended by 1989 c.691 §6; 1993 c.157 §1]
539.015 Certification of statements of claimants; oaths. Each claimant or owner who files a
statement and proof of claim form or a registration
statement shall be required to certify to the statements of the claimant or owner under oath. The Water
Resources Director or the authorized assistant of the
director may administer such oaths, which shall be
done without charge, as also shall be the furnishing of
blank forms for the statement. [1989 c.691 §4]
539.020 [Repealed by 1987 c.541 §1 (539.021 enacted in lieu of 539.020)]
539.021 Determination by Water Resources
Director of rights of claimants; transfer of action
to director. (1) The Water Resources Director upon
the motion of the director or, in the discretion of the
director, upon receipt of a petition from one or more
appropriators of surface water from any natural watercourse in this state shall make a determination of the
relative rights of the various claimants to the waters
of that watercourse.
(2) If an action is brought in the circuit court for
determination of rights to the use of water, the case
may, in the discretion of the court, be transferred to the

App. 518
director for determination as provided in this chapter.
[1987 c.541 §2 (enacted in lieu of 539.020)]
539.030 Notice of investigation of stream. The
Water Resources Director shall prepare a notice, setting forth the date when the director or the assistant
of the director will begin such investigation as may be
necessary for a proper determination of the relative
rights of the various claimants to the use of the waters
of the stream. The notice shall be published in two issues of one or more newspapers having general circulation in the counties in which the stream is situated,
the last publication of the notice to be at least 10 days
prior to the date set in the notice for the beginning of
the investigation by the director or the assistant of the
director. [Amended by 1955 c.669 §1; 1979 c.53 §1; 1987
c.541 §8]
539.040 Notice of hearing by director. (1) As
soon as practicable after the examination and measurements are completed, as described in ORS 539.120,
the Water Resources Director shall prepare a notice
setting forth a place and time certain when the director or the authorized assistant of the director shall
begin taking testimony as to the rights of the various
claimants to the use of the waters of the stream or its
tributaries. The notice shall be published in two issues
of one or more newspapers having general circulation
in the counties in which the stream is situated, the last
publication of the notice to be at least 30 days prior to
the beginning of taking testimony by the director or
the authorized assistant of the director.

App. 519
(2) The director shall also send by registered
mail or by certified mail with return receipt to each
claimant or owner who filed with the director a registration statement as provided in ORS 539.240 and to
the Attorney General of the United States or the designated representative of the Attorney General of the
United States, on behalf of the United States and its
agencies and as trustee for the Indian tribes, a notice
similar to that provided in subsection (1) of this section
setting forth the date when the director or the authorized assistant of the director will take testimony as to
the rights to the use of the water of the stream. The
notice must be mailed at least 30 days prior to the date
set therein for taking testimony.
(3)(a) For purposes of the Klamath Basin adjudication, the Water Resources Department will provide
notice, substantially like that specified in subsection
(2) of this section, to claimants or owners who desire to
claim a water right under this chapter, or to contest the
claims of others, and have so notified the director. The
notice shall be accompanied by a blank form on which
the claimant or owner shall present in writing all of
the particulars necessary for determination of the
right of the claimant or owner to contest the claims of
others or to the use of the waters of a stream to which
the claimant or owner lays claim. That form shall require substantially the same information required in a
registration statement, as provided in ORS 539.240
(2), except that the map need not be prepared by a
certified water right examiner, as required by ORS
539.240 (2)(d).

App. 520
(b) In the already adjudicated areas of the Klamath Basin, the notice provided to holders of permitted or certificated surface water rights acquired under
ORS chapter 537 will specify that they may contest the
statement and proof of claims of others made under
this chapter, but only in the unadjudicated areas of the
Klamath Basin. [Amended by 1955 c.669 §2; 1987 c.541
§9; 1989 c.691 §7; 1991 c.249 §45; 1993 c.157 §2; 2013
c.1 §77]
539.050 [Amended by 1955 c.669 §3; repealed by
1987 c.541 §10]
539.060 [Repealed by 1987 c.541 §10]
539.070 Hearing by director; adjournments.
Upon the date named in the notice for taking testimony, the Water Resources Director or the authorized
assistant of the director shall begin taking testimony
and shall continue until completed. But the director
may adjourn the taking of testimony from time to time
and from place to place, to suit the convenience of those
interested.
539.080 [Amended by 1971 c.621 §37; 1975 c.607
§40; 1979 c.67 §3; 1981 c.627 §2; 1983 c.256 §2; repealed
by 1987 c.541 §6 (539.081 enacted in lieu of 539.080)]
539.081 Fees for registration statement or
statement and proof of claim; exemption; disposition. (1) At the time the owner or registrant submits
a registration statement under ORS 539.240 or, if a
registration statement is not filed, when a statement
and proof of claim is filed pursuant to notice by the Water Resources Director under ORS 539.030, the owner
or registrant shall pay a fee as follows:

App. 521
(a) If for irrigation use, $2.30 for each acre of irrigated lands up to 100 acres and $1.20 for each acre
in excess of 100 acres. The minimum fee for any owner
or registrant for irrigation use shall be $120.
(b) If for power use, $2.30 for each theoretical
horsepower up to 100 horsepower, 90 cents for each
horsepower in excess of 100 up to 500 horsepower, 60
cents for each horsepower in excess of 500 horsepower
up to 1,000 horsepower and 40 cents for each horsepower in excess of 1,000 horsepower, as set forth in the
proof. The minimum fee for any owner or registrant for
power use shall be $350.
(c) If for mining or any other use, $580 for the
first second-foot or fraction of the first second-foot and
$120 for each additional second-foot.
(2) The fees under subsection (1) of this section
shall not apply to any federally recognized Indian
tribe, or to the United States acting as trustee for such
a tribe, claiming, under ORS 539.010, an undetermined vested right to the use of surface water for any
nonconsumptive and nondiverted in-stream use to satisfy tribal hunting, fishing or gathering rights.
(3) If the registration statement shows that the
water right was initiated by making application for a
permit under the provisions of ORS chapter 537, the
owner or registrant shall be given credit for the money
paid as examination and recording fees. A credit under
this subsection shall be allowed only if the application
under ORS chapter 537 was for a permit to appropriate

App. 522
water to be applied to the same parcel of land or for the
same use as set forth in the registration statement.
(4) All fees paid under this section shall be deposited into the General Fund of the State Treasury
and credited to an account of the Water Resources Department. The fees shall be used to pay for the expenses of the department to:
(a) Register claims to undetermined vested rights
or federal reserved rights under ORS 539.230 and
539.240; and
(b) Determine claims filed or registered under
ORS 539.230 and 539.240.
(5) No registration statement or statement and
proof of claim shall be accepted for filing unless the
registration statement or claim is accompanied by the
fee in the amount set forth in this section. If the federal
government is determined to be immune from the payment of such fees, the director may elect to accept a
federal claim for filing without the accompanying fees.
[1987 c.541 §7 (enacted in lieu of 539.080); 1989 c.691
§8; 1993 c.157 §3; 1993 c.535 §1; 2013 c.644 §§11,12;
2017 c.571 §§9,10]
539.090 Notice of right to inspect evidence,
and of place of court hearing. Upon the completion
of the taking of testimony by the Water Resources Director, the director shall at once give notice by registered mail or by certified mail with return receipt to
the various claimants and to any party who has notified the director that the party wishes to contest the

App. 523
claims of others, that all of the evidence will be open to
inspection of the various claimants or owners. The notice shall specify the times when and the places where
the evidence will be open to inspection, and the director shall keep the evidence open for inspection at the
specified times and places. The earliest time for inspection shall be at least 10 days after mailing the notice;
and, in the aggregate, the hours during which the director is to keep the evidence open to inspection shall
at least equal 80 hours, counting only the hours between 8 a.m. and 5 p.m. during any day of the week
except Sunday. The director shall also state in the notice the county in which the determination will be
heard by the circuit court; provided, that the cause
shall be heard in the county in which the stream or
some part thereof is situated. [Amended by 1955 c.191
§1; 1989 c.691 §9; 1991 c.249 §46]
539.100 Contest of claims submitted to director; notice by contestant; service on contestee.
Any person owning any irrigation works, or claiming
any interest in the stream involved in the determination shall be a party to, and bound by, the adjudication.
Any party who desires to contest any of the rights of
the persons who have submitted their evidence to the
Water Resources Director as provided in ORS 539.021
to 539.090 shall, within 15 days after the expiration of
the period fixed in the notice for public inspection, or
within such extension of the period, not exceeding 20
days, as the director may allow, notify the director in
writing, stating with reasonable certainty the grounds
of the proposed contest, which statement shall be

App. 524
verified by the affidavit of the contestant, the agent
or attorney of the contestant. A party not claiming an
undetermined vested right under this chapter or not
contesting the claim of another need not participate
further in the proceeding, nor be served with further
notices or documents regarding the adjudication. Upon
the filing of a statement of contest, service thereof shall
be made by the contestant upon the contestee by mailing a copy by registered mail or by certified mail, return receipt requested, addressed to the contestee or to
the authorized agent or attorney of the contestee at the
post-office address of the contestee as stated in the
statement and proof of claim of the contestee. Proof
of service shall be made and filed with the Water Resources Department by the contestant as soon as possible after serving the copy of statement of contest.
[Amended by 1989 c.691 §10; 1991 c.102 §5; 1991 c.249
§47]
539.110 Hearing of contest; notice of; procedure. The Water Resources Director shall fix the time
and a convenient place for hearing the contest, and
shall notify the contestant and the person whose rights
are contested to appear before the director or the authorized assistant of the director at the designated
time and place. The date of hearing shall not be less
than 30 nor more than 60 days from the date the notice
is served on the parties. The notice may be served personally or by registered or certified mail, return receipt
requested, addressed to the parties at their post-office
addresses as stated in the statement and proof of
claimant. The director may adjourn the hearing from

App. 525
time to time upon reasonable notice to all the parties
interested; may issue subpoenas and compel the attendance of witnesses to testify, which subpoenas shall
be served in the same manner as subpoenas issued out
of the circuit court; may compel the witnesses so subpoenaed to testify and give evidence in the matter; and
may order the taking of depositions and issue commissions therefor in the same manner as depositions are
taken in the circuit court. The witnesses shall receive
fees as provided in ORS 44.415 (2), the costs to be taxed
in the same manner as are costs in suits in equity. The
evidence in the proceedings shall be confined to the
subjects enumerated in the notice of contest. The burden of establishing the claim shall be upon the claimant whose claim is contested. The evidence may be
taken by a duly appointed reporter. [Amended by 1989
c.980 §14d; 1991 c.249 §48]
539.120 Examination by director of stream
and diversions in contest; record; map. The Water
Resources Director, or a qualified assistant, shall proceed at the time specified in the notice to the parties
on the stream given as provided in ORS 539.030, to
make an examination of the stream and the works diverting water therefrom used in connection with water
rights subject to this chapter, for which a registration
statement has been filed as provided in ORS 539.240.
The examination shall include the measurement of the
discharge of the stream and of the capacity of the various diversion and distribution works, and an examination and approximate measurement of the lands
irrigated from the various diversion and distribution

App. 526
works. The director shall take such other steps and
gather such other data and information as may be essential to the proper understanding of the relative
rights of the parties interested. The observations and
measurements shall be made a matter of record in the
Water Resources Department. The department shall
make or have made a map or plat on a scale of not less
than one inch to the mile, showing with substantial accuracy the course of the stream, the location of each
diversion point and each ditch, canal, pipeline or other
means of conveying the water to the place of use, and
the location of lands irrigated, or in connection with
which the water is otherwise used, within each legal
subdivision. [Amended by 1955 c.669 §4; 1989 c.691
§11; 1991 c.102 §6]
539.130 Findings of fact and determination
of director; certification of proceedings; filing in
court; fixing time for hearing by court; notice;
force of director’s determination. (1) As soon as
practicable after the compilation of the data the Water
Resources Director shall make and cause to be entered
of record in the Water Resources Department findings
of fact and an order of determination determining and
establishing the several rights to the waters of the
stream. The original evidence gathered by the director,
and certified copies of the observations and measurements and maps of record, in connection with the determination, as provided for by ORS 539.120, together
with a copy of the order of determination and findings
of fact of the director as they appear of record in the
Water Resources Department, shall be certified to by

App. 527
the director and filed with the clerk of the circuit court
wherein the determination is to be heard. A certified
copy of the order of determination and findings shall
be filed with the county clerk of every other county in
which the stream or any portion of a tributary is situated.
(2) Upon the filing of the evidence and order with
the court the director shall procure an order from the
court, or any judge thereof, fixing the time at which the
determination shall be heard in the court, which hearing shall be at least 40 days subsequent to the date of
the order. The clerk of the court shall, upon the making
of the order, forthwith forward a certified copy to the
department by registered mail or by certified mail with
return receipt.
(3) The department shall immediately upon receipt thereof notify by registered mail or by certified
mail with return receipt each claimant or owner who
has appeared in the proceeding of the time and place
for hearing. Service of the notice shall be deemed complete upon depositing it in the post office as registered
or certified mail, addressed to the claimant or owner at
the post-office address of the claimant or owner, as set
forth in the proof of the claimant or owner theretofore
filed in the proceeding. Proof of service shall be made
and filed with the circuit court by the department as
soon as possible after mailing the notices.
(4) The determination of the department shall
be in full force and effect from the date of its entry in
the records of the department, unless and until its

App. 528
operation shall be stayed by a stay bond as provided by
ORS 539.180. [Amended by 1991 c.102 §7; 1991 c.249
§49]
539.140 Water right certificates. Upon the final determination of the rights to the waters of any
stream, the Water Resources Department shall issue
to each person represented in the determination a certificate setting forth the name and post-office address
of the owner of the right; the priority of the date, extent
and purpose of the right, and if the water is for irrigation purposes, a description of the legal subdivisions of
land to which the water is appurtenant. The original
certificate shall be mailed to the owner and a record of
the certificate maintained in the Water Resources Department. [Amended by 1971 c.621 §38; 1975 c.607 §41;
1979 c.67 §4; 1991 c.102 §8]
539.150 Court proceedings to review determination of director. (1) From and after the filing of
the evidence and order of determination in the circuit
court, the proceedings shall be like those in an action
not triable by right to a jury, except that any proceedings, including the entry of a judgment, may be had in
vacation with the same force and effect as in term time.
At any time prior to the hearing provided for in ORS
539.130, any party or parties jointly interested may
file exceptions in writing to the findings and order of
determination, or any part thereof, which exceptions
shall state with reasonable certainty the grounds and
shall specify the particular paragraphs or parts of the
findings and order excepted to.

App. 529
(2) A copy of the exceptions, verified by the exceptor or certified to by the attorney for the exceptor,
shall be served upon each claimant who was an adverse party to any contest wherein the exceptor was a
party in the proceedings, prior to the hearing. Service
shall be made by the exceptor or the attorney for the
exceptor upon each such adverse party in person, or
upon the attorney if the adverse party has appeared by
attorney, or upon the agent of the adverse party. If the
adverse party is a nonresident of the county or state,
the service may be made by mailing a copy to that
party by registered mail or by certified mail with return receipt, addressed to the place of residence of that
party, as set forth in the proof filed in the proceedings.
(3) If no exceptions are filed the court shall, on
the day set for the hearing, enter a judgment affirming
the determination of the Water Resources Director. If
exceptions are filed, upon the day set for the hearing
the court shall fix a time, not less than 30 days thereafter, unless for good cause shown the time be extended
by the court, when a hearing will be had upon the exceptions. All parties may be heard upon the consideration of the exceptions, and the director may appear on
behalf of the state, either in person or by the Attorney
General. The court may, if necessary, remand the case
for further testimony, to be taken by the director or by
a referee appointed by the court for that purpose. Upon
completion of the testimony and its report to the director, the director may be required to make a further determination.

App. 530
(4) After final hearing the court shall enter a
judgment affirming or modifying the order of the director as the court considers proper, and may assess such
costs as it may consider just except that a judgment for
costs may not be rendered against the United States.
An appeal may be taken to the Court of Appeals from
the judgment in the same manner and with the same
effect as in other cases in equity, except that notice of
appeal must be served and filed within 60 days from
the entry of the judgment. [Amended by 1979 c.284
§165; 1989 c.691 §12; 1991 c.249 §50]
539.160 Transmittal of copy of decree to department; instructions to watermasters. The clerk
of the circuit court, upon the entry of any decree by
the circuit court or judge thereof, as provided by ORS
539.150, shall transmit a certified copy of the decree to
the Water Resources Department where a record of the
decree shall be maintained. The Water Resources Director shall issue to the watermasters instructions in
compliance with the decree, and in execution thereof.
[Amended by 1991 c.102 §9]
539.170 Division of water pending hearing.
While the hearing of the order of the Water Resources
Director is pending in the circuit court, and until a certified copy of the judgment, order or decree of the court
is transmitted to the director, the division of water
from the stream involved in the appeal shall be made
in accordance with the order of the director.

App. 531
Note: Sections 1 and 2, chapter 445, Oregon Laws
2015, provide:
Sec. 1. Leasing or temporary transfer of determined claim. (1) As used in this section, “determined
claim” means a water right in the Upper Klamath Basin determined and established in an order of determination certified by the Water Resources Director under
ORS 539.130.
(2) Except as provided in subsections (3) and (4)
of this section, during the period that judicial review of
the order of determination is pending, a determined
claim is:
(a) An existing water right that may be leased for
a term as provided under ORS 537.348; and
(b) A primary water right that is subject to temporary transfer for purposes of ORS 540.523.
(3)

Subsection (2) of this section:

(a) Does not apply to a water right determined
and established in an order of determination that has
been stayed by the filing of a bond or irrevocable letter
of credit under ORS 539.180;
(b) Does not apply to a water right transfer that
includes changing the point of diversion upstream; and
(c) Does not allow a person to purchase, lease
or accept a gift of a determined claim for conversion
to an in-stream water right as described in ORS
537.348 (1).

App. 532
(4) For purposes of determining under ORS 537.348
(5) or 540.523 (2) whether the Water Resources Department may approve a lease or temporary transfer of a
determined claim, an injury to another determined
claim is an injury to an existing water right. Notwithstanding ORS 537.348 (6) or 540.523 (5), the department shall deny, modify or revoke the lease or
temporary transfer of a determined claim if the department determines that the lease or temporary transfer
has resulted in, or is likely to result in:
(a) Injury to another determined claim or other
existing water right; or
(b)

Enlargement of the determined claim.

(5) The department shall revoke the lease or
temporary transfer of a determined claim if a court
judgment stays the determined claim.
(6) If a determined claim is removed from land
by lease or temporary transfer, the land from which the
determined claim is removed may not receive water
during the term of the lease or temporary transfer.
[2015 c.445 §1]
Sec. 2. (1) Section 1 of this 2015 Act is repealed
January 2, 2026.
(2) Notwithstanding the repeal of section 1 of
this 2015 Act by subsection (1) of this section, subject
to modification or revocation under section 1 of this
2015 Act, a lease or temporary transfer of a determined
claim under section 1 of this 2015 Act for a term beginning prior to January 2, 2026, may continue in effect

App. 533
for the term of the lease or temporary transfer. If a
court judgment results in a modification of the determined claim, the parties may continue the lease or
temporary transfer of all or part of the water right as
modified for all or part of the original term of the lease
or temporary transfer. [2015 c.445 §2]
539.180 Bond or irrevocable letter of credit
to stay operation of director’s determination;
notice to watermaster. At any time after the determination of the Water Resources Director has been entered of record, the operation thereof may be stayed in
whole or in part by any party by filing a bond or an
irrevocable letter of credit issued by an insured institution as defined in ORS 706.008 in the circuit court
wherein the determination is pending, in such amount
as the judge may prescribe, conditioned that the party
will pay all damages that may accrue by reason of the
determination not being enforced. Upon the filing and
approval of the bond or letter of credit, the clerk of the
circuit court shall transmit to the Water Resources Department a certified copy of the bond or letter of credit,
which shall be recorded in the department records, and
the department shall give notice thereof to the watermaster of the proper district. [Amended by 1991 c.102
§10; 1991 c.331 §79; 1997 c.631 §486]
539.190 Rehearing by circuit court. Within
six months from the date of the decree of the circuit
court determining the rights upon any stream, or if
appealed, within six months from the date of the
decree of the circuit court on the decision of the Supreme Court, the Water Resources Director or any

App. 534
party interested may apply to the circuit court for a
rehearing upon grounds to be stated in the application.
If in the discretion of the court the application states
good grounds for the rehearing, the circuit court or
judge shall make an order fixing a time and place when
the application shall be heard. The clerk of the circuit
court shall, at the expense of the petitioner, forthwith
mail written notice of the application to the director
and to every party interested, and state in the notice
the time and place when the application will be heard.
[Amended by 1981 c.178 §15]
539.200 Conclusiveness of determinations as
to water rights. The determinations of the Water Resources Director, as confirmed or modified as provided
by this chapter in proceedings, shall be conclusive as
to all prior rights and the rights of all existing claimants upon the stream or other body of water lawfully
embraced in the determination.
539.210 Duty of claimants to appear and submit proof; nonappearance as forfeiture; intervention in proceedings. Whenever proceedings are
instituted for determination of rights to the use of any
water, it shall be the duty of all claimants interested
therein to appear and submit proof of their respective
claims, at the time and in the manner required by law.
Any claimant who fails to appear in the proceedings
and submit proof of the claims of the claimant shall be
barred and estopped from subsequently asserting any
rights theretofore acquired upon the stream or other
body of water embraced in the proceedings, and shall
be held to have forfeited all rights to the use of the

App. 535
water theretofore claimed by the claimant. Any person
interested in the water of any stream upon whom
no service of notice has been had of the pendency of
proceedings for determination of the rights to the use
of water of the stream, and who has had no actual
knowledge or notice of the pendency of the proceedings
may, at any time prior to the expiration of one year after entry of the determination of the Water Resources
Director, file a petition to intervene in the proceedings.
The petition shall contain, among other things, all matters required by this chapter of claimants who have
been duly served with notice of the proceedings, and
also a statement that the intervenor had no actual
knowledge or notice of the pendency of the proceedings.
Upon the filing of the petition in intervention, the petitioner shall be allowed to intervene upon such terms
as may be equitable and thereafter shall have all
rights vouchsafed by this chapter to claimants who
have been duly served.
539.220 Procedure when rights to same stream
have been determined in different proceedings.
Whenever the rights to the waters of any stream have
been determined as provided in this chapter and it appears by the records of such determination that it had
not been at one and the same proceeding, then the Water Resources Director may open to public inspection
all proofs or evidence of rights to the water, and the
findings of the director in relation thereto, in the manner provided in ORS 539.090. Any person who then desires to contest the claims or rights of other persons, as
set forth in the proofs or established by the director,

App. 536
shall proceed in the manner provided for in ORS
539.100 and 539.110; provided, that contests may not
be entered into and shall not be maintained except between claimants who were not parties to the same adjudication proceedings in the original hearings.
539.230 Notice of need to file registration
statement; publication requirements; additional
methods of providing notice. (1) In order to preserve information relating to claims to undetermined
vested rights as described in ORS 539.010 and federal
reserved rights, the Water Resources Director shall
prepare a general notice stating the need for any person, corporation or governmental agency claiming an
undetermined vested right, federal reserved right or a
right derived from such rights to file a registration
statement as required under ORS 539.240. The notice
shall outline the process for obtaining a blank registration statement and shall describe the rights that may
be claimed under this chapter.
(2) The notice required under subsection (1) of
this section shall be published at least two times in one
or more newspapers having general circulation in each
county in which streams with potentially vested rights
or reserved rights that have not been adjudicated under this chapter are located.
(3) In addition to the notice described under subsection (2) of this section, in any rural county in which
there is not a newspaper having general circulation,
the director shall use additional methods of providing notice of the requirement to file a registration

App. 537
statement. These methods may include but need not
be limited to holding public meetings, inserting announcements in trade or organization newsletters,
public service announcements on local radio stations
and informing the county extension agent of the requirement. [1987 c.541 §4; 1989 c.691 §13; 1991 c.67
§154]
539.240 Claim to undetermined right to appropriate surface water; registration statement;
contents; effect of failure to file; recognizing
changes to right; rules. (1) Any person, corporation
or governmental agency claiming an undetermined
vested right, federal reserved right or right derived
from such rights to appropriate surface water under
ORS 539.010 shall file in the office of the Water Resources Department, on or before December 31, 1992,
a registration statement of the claim.
(2) Upon request, the Water Resources Director
shall make available a blank registration statement
required under subsection (1) of this section. The
claimant shall complete the registration statement by
providing the information necessary for determination
of the claimed vested or reserved right. The registration statement shall include at least the following:
(a)

The name and mailing address of the claim-

ant.
(b) The claimed beneficial use of the water and
the amount used.

App. 538
(c) The stream from which the water is diverted.
(d) A map from a survey prepared by a water
right examiner certified under ORS 537.798 showing:
(A) The location of the point of diversion in reference to an established corner of the United States Public Lands Survey or, if within a platted and recorded
subdivision, from an established lot corner of the subdivision.
(B) The location of the place of use by quarterquarter section of the United States Public Lands Survey. If the use is for irrigation, the number of acres
irrigated within each quarter-quarter section.
(e) The time of commencement of the claimed use
of water.
(f ) The times of beginning and completion of any
division and distribution works used to appropriate
the claimed use of water and the water carrying capacity of such works, if known.
(g) The location of the place of use by quarterquarter section of the United States Public Lands Survey. If the use is for irrigation, the number of acres irrigated within each quarter-quarter section during the
first year of use and during each subsequent year until
the full amount of claimed use was accomplished.
(h) The period of the year during which the
claimed use of water is usually made.

App. 539
(3) The failure of any person, corporation or governmental agency to file a registration statement for
an undetermined vested right or federal reserved right
shall create a rebuttable presumption that the claim
has been abandoned.
(4) For good cause shown, any person who fails
to file a registration statement within the period set
forth in subsection (1) of this section may file within
one year after December 31, 1992, a petition with the
director requesting that the person be given an opportunity to rebut the presumption that the person has
abandoned the claim. Upon the filing of such a petition,
the director may schedule a hearing to take testimony
and evidence on the date the water was applied to beneficial use or the director may accept sworn statements
in writing in support of such petition. The director
shall not deny a petition without first holding a contested case hearing. If it appears after hearing or from
such sworn statements that the person has a use of
water that would be subject to registration under this
chapter, the director shall issue an order authorizing
the person to file a registration statement as described
under subsection (1) of this section. A person who files
a petition under this subsection shall submit with the
petition a fee, the amount of which shall be one and
one-half times the amount the person would have submitted under ORS 539.081 with a timely registration
statement.
(5) The director shall accept for filing all registration statements described in subsections (1) and
(4) of this section made in proper form when the

App. 540
statements are accompanied by the fees prescribed in
ORS 539.081. The director shall indorse the date of receipt on each registration statement.
(6) The director shall examine each registration
statement to insure that the statement is complete and
in proper form. If the director determines the information required under subsection (2) of this section is
complete and in proper form, the director shall:
(a) Enter the indorsed statement in the record of
the department;
(b) Mail a copy of the indorsed statement to the
person filing the registration statement; and
(c) Include the person or the properly designated
assignee of the person in any further proceeding to adjudicate the water rights represented by the indorsed
registration statement.
(7) Upon entry of the indorsed statement in the
department’s records, the registrant is entitled to continue to appropriate the surface water and apply it to
beneficial use to the extent and in the manner disclosed in the recorded registration statement. However, the registrant shall not be entitled to the benefits
of an existing water right of record under ORS 540.045.
(8) No registration statement recorded under this
section shall be construed as a final determination of
any matter stated therein, nor shall the act of indorsement by the director constitute a determination of the
validity of the matters contained in the registration
statement. The right of the registrant to appropriate

App. 541
surface water under a recorded registration statement
is subject to determination under ORS 539.010 to
539.240, and is not final or conclusive until so determined. A right to appropriate surface water under a
recorded registration statement has a tentative priority from the date claimed in the indorsed registration
statement.
(9) Any indorsed registration statement may be
assigned, subject to the conditions in the registration
statement, but no such assignment will be binding, except upon the parties to the assignment, unless filed
with the department.
(10) Notwithstanding the filing deadline prescribed under subsection (1) of this section, and the
late filing period allowed under subsection (4) of this
section, if any person submitted, before December 31,
1994, a registration statement or other similar documentation claiming a right to appropriate surface
water under ORS 539.010, the director shall examine
the material submitted to determine if the documents
filed would substantially comply with the requirements of subsection (2) of this section. If the director
determines that the documents substantially comply
with the surface water registration filing requirements
of subsection (2) of this section, the director may accept
the registration. If the director determines that the
documents filed under this subsection are incomplete
or if additional information is required to comply with
subsection (2) of this section, or fees required under
ORS 539.081 have not been submitted, the director
shall notify the claimant of the deficiency, setting a

App. 542
date certain for submittal of the information or fees.
The time for submittal of additional information or
fees shall be not less than 30 days nor more than 180
days after the director notifies the claimant of the deficiency. If the additional information or fees are not
submitted on or before the date certain, the registration statement shall be considered void and shall be
returned to the claimant.
(11) The director shall adopt by rule a process
and standards for recognizing changes in the place of
use, type of use or point of diversion of water uses registered pursuant to this section. [1987 c.541 §5; 1989
c.691 §14; 1993 c.157 §4; 1995 c.365 §7; 1999 c.860 §1]
WATER RIGHTS OF FEDERALLY
RECOGNIZED INDIAN TRIBES
539.300 Legislative findings. The Legislative
Assembly of the State of Oregon finds it is desirable to
provide a procedure for conducting negotiations to determine the water rights of any federally recognized
Indian tribe that may have a federal reserved water
right claim in Oregon. [1987 c.81 §2; 1993 c.67 §1]
539.310 Negotiation for water rights. (1) The
Water Resources Director may negotiate with representatives of any federally recognized Indian tribe that
may have a federal reserved water right claim in Oregon and representatives of the federal government as
trustee for the federally recognized Indian tribe to define the scope and attributes of rights to water claimed
by the federally recognized Indian tribe to satisfy tribal

App. 543
rights under treaty between the United States and
the tribes of Oregon. All negotiations in which the director participates under this section shall be open to
the public.
(2) During negotiations conducted under subsection (1) of this section, the director shall:
(a)

Provide public notice of the negotiations;

(b)

Allow for public input through the director;

and
(c) Provide regular reports on the progress of the
negotiations to interested members of the public. [1987
c.81 §3; 1993 c.67 §2]
539.320 Agreement; submission to court. When
the Water Resources Director and the representatives
of any federally recognized Indian tribe that may have
a federal reserved water right claim in Oregon and
the federal government have completed an agreement,
the Water Resources Director shall submit an original
copy of the agreement to the appropriate court. The
copy shall be signed by the Water Resources Director
on behalf of the State of Oregon and by authorized representatives of the Indian tribe and the federal government as trustee for the Indian tribe. [1987 c.81 §4; 1993
c.67 §3]
539.330 Notice to persons affected by agreement. (1) Upon filing of the agreement with the appropriate court under ORS 539.320, the Water Resources
Director shall notify owners of water right certificates
or permits that may be affected by the agreement:

App. 544
(a) That the agreement has been filed with the
court; and
(b) Of the time and manner specified by the court
for filing an exception to the agreement.
(2) Unless notice by registered mail is required
by the court, the notice required under subsection (1)
of this section may be given by:
(a)

Publication; or

(b) Any other method the director considers necessary. [1987 c.81 §5]
539.340 Court decree; effective date of agreement; remand. (1) An agreement negotiated under
ORS 539.310 to 539.330 shall not be effective unless
and until incorporated in a final court decree, after the
court has provided an opportunity for an owner of a
water right certificate or permit that may be affected
by the agreement or for a claimant in an adjudication
that may be affected by the agreement to submit an
exception to the agreement.
(2) If the court does not sustain an exception, the
court shall issue a final decree incorporating the agreement as submitted without alteration.
(3) If the court sustains an exception to the
agreement, the court shall remand the agreement to
the Water Resources Director for further negotiation
according to the provisions of ORS 539.300 to 539.350,
if desired by the parties to the agreement. [1987 c.81
§6; 1997 c.708 §1]

App. 545
539.350 Procedures after remand of agreement. Within 180 days after the court remands the
agreement under ORS 539.340, the Water Resources
Director shall file with the court:
(1) An amended agreement complying with ORS
539.320, which shall be subject to the procedure specified by ORS 539.330;
(2) A motion to dismiss the proceedings, which
shall be granted by the court; or
(3) A stipulated motion for a continuance for a
period not to exceed 180 days, within which period the
parties shall submit to the court an amended agreement, a motion to dismiss or a motion for further continuance. [1987 c.81 §7]
539.360 Participation in management of Upper
Klamath Basin Comprehensive Agreement. (1) As
used in this section:
(a) “Joint management entity” means the entity
that is:
(A) Composed of the landowner entity, the Klamath Tribes, the United States and the State of Oregon; and
(B) Responsible for overseeing the implementation of the settlement agreement.
(b) “Landowner entity” means the entity formed
by eligible landowners as provided in section 8 of the
settlement agreement.

App. 546
(c) “Settlement agreement” means the Upper
Klamath Basin Comprehensive Agreement dated April
18, 2014.
(2) The Water Resources Department may participate in activities related to the joint management
entity that are consistent with the terms of the settlement agreement. The activities may include, but need
not be limited to:
(a) Providing assistance in the formation of an
Oregon tax-exempt nonprofit corporation to function
as the joint management entity for the settlement
agreement;
(b) Drafting and giving approval of the articles of
incorporation and bylaws of the corporation;
(c) Participating as a voting member of the board
of directors for the corporation; and
(d) Participating as a member of the technical
team for the corporation. [2015 c.449 §1]
Note: The Upper Klamath Basin Comprehensive
Agreement terminated December 28, 2017, following a
negative determination by the United States Secretary
of the Interior.
Note: 539.360 was enacted into law by the Legislative Assembly but was not added to or made a part of
ORS chapter 539 or any series therein by legislative
action. See Preface to Oregon Revised Statutes for further explanation.

App. 547
Oregon Revised Statutes (2019)
Chapter 540—Distribution and Storage
of Water; Watermasters; Water Right
Changes, Transfers and Forfeitures
540.010 Water districts; creation; purposes.
The Water Resources Commission shall divide the
state into water districts, which shall be so constituted
as to secure the best protection to the claimants for water and the most economical supervision on the part of
the state. Water districts shall not be created until necessary. [Amended by 1985 c.673 §82]
540.045 Watermaster duties. (1) Each watermaster shall:
(a) Regulate the distribution of water among the
various users of water from any natural surface or
ground water supply in accordance with the users’ existing water rights of record in the Water Resources
Department.
(b) Upon the request of the users, distribute water among the various users under any partnership
ditch, pipeline or well or from any reservoir, in accordance with the users’ existing water rights of record in
the department.
(c) Divide the waters of the natural surface and
ground water sources and other sources of water supply among the canals, ditches, pumps, pipelines and
reservoirs taking water from the source for beneficial
use, by regulating, adjusting and fastening the headgates, valves or other control works at the several

App. 548
points of diversion of surface water or the several
points of appropriation of ground water, according to
the users’ relative entitlements to water.
(d) Attach to the headgate, valve or other control
works the watermaster regulates under paragraph (c)
of this subsection, a written notice dated and signed by
the watermaster, setting forth that the headgate, valve
or other control works has been properly regulated and
is wholly under the control of the watermaster.
(e) Perform any other duties the Water Resources Director may require.
(2) When a watermaster must rely on a well log
or other documentation to regulate the use or distribution of ground water, the regulation shall be in accordance with ORS 537.545 (4).
(3) For purposes of regulating the distribution or
use of water, any stored water released in excess of the
needs of water rights calling on that stored water shall
be considered natural flow, unless the release is part of
a water exchange under the control of, and approved
by, the watermaster.
(4) As used in this section, “existing water rights
of record” includes all completed permits, certificates,
licenses and ground water registration statements
filed under ORS 537.605 and related court decrees.
[1985 c.421 §3; 1989 c.691 §15; 1991 c.102 §11; 1993
c.157 §5; 1995 c.673 §3; 2009 c.819 §3]

App. 549
Oregon Revised Statutes (2019)
Chapter 540—Distribution and Storage
of Water; Watermasters; Water Right
Changes, Transfers and Forfeitures
540.210 Distribution from ditch or reservoir.
(1) Whenever any water users from any ditch or
reservoir, either among themselves or with the owner
thereof, are unable to agree relative to the distribution
or division of water through or from the ditch or reservoir, either the owner or any such water user may apply to the watermaster of the district in which the ditch
or reservoir is located, by written notice, setting forth
such facts, and asking the watermaster to take charge
of the ditch or reservoir for the purpose of making a
just division or distribution of water from it to the parties entitled to the use thereof.
(2) The watermaster shall then take exclusive
charge of the ditch or reservoir, for the purpose of dividing or distributing the water therefrom in accordance with the respective and relative rights of the
various users of water from the ditch or reservoir, and
shall continue the work until the necessity therefor
shall cease to exist.
(3) The distribution and division of water shall
be made according to the relative and respective rights
of the various users from the ditch or reservoir, as determined by the Water Resources Director, by decree of
the circuit court, or by written contract between all of
the users filed with the watermaster.

App. 550
(4) The circuit court having jurisdiction may request the watermaster of the district to take charge of
any such ditch or reservoir, and to enforce any decree
respecting such ditch or reservoir made under the jurisdiction of the court.

